 U.S. DEPARTMENT OF JUSTICE

ANNUAL FINANCIAL STATEMENTS

      FISCAL YEAR 2010

       U.S. Department of Justice

     Office of the Inspector General

              Audit Division


          Audit Report 11-03

           December 2010

              U.S. DEPARTMENT OF JUSTICE

             ANNUAL FINANCIAL STATEMENTS

                    FISCAL YEAR 2010


              OFFICE OF THE INSPECTOR GENERAL

                 COMMENTARY AND SUMMARY


       This audit report contains the Annual Financial Statements of the U.S.
Department of Justice (Department) for the fiscal years (FY) ended
September 30, 2010, and September 30, 2009. Under the direction of the
Office of the Inspector General (OIG), KPMG LLP performed the
Department’s audit in accordance with U.S. generally accepted government
auditing standards. The audit resulted in an unqualified opinion on the
FY 2010 financial statements. An unqualified opinion means that the
financial statements present fairly, in all material respects, the financial
position and the results of the entity’s operations in conformity with U.S.
generally accepted accounting principles. For FY 2009, the Department also
received an unqualified opinion on its financial statements (OIG Report
No. 10-05).

      KPMG LLP also issued reports on internal control and on compliance
and other matters. For FY 2010, the Independent Auditors’ Report on
Internal Control over Financial Reporting identified one significant deficiency,
which is an improvement over the prior year, where the auditors reported
two significant deficiencies. The FY 2010 significant deficiency related to a
few serious, but isolated, financial reporting issues, including the U.S.
Marshals Service’s funds management controls; the Assets Forfeiture Fund
and Seized Asset Deposit Fund’s seized and forfeited property reporting
controls; and the Bureau of Alcohol, Tobacco, Firearms and Explosives’ funds
management controls. The chart at the end of our discussion illustrates the
FYs 2010 and 2009 financial statements audit results for the Department
and the nine reporting components.

       As reflected in the chart, the Department has continued to show
improvement in addressing major weaknesses identified in the OIG’s
previous annual financial statements audits. For example, at the component
level the number of significant deficiencies has decreased from eight in
FY 2009 to four in FY 2010. Nevertheless, it is important to note that the
Department still does not have a unified financial management system to
readily support ongoing accounting operations and preparation of financial
statements. As discussed in past years, we believe the most important
challenge facing the Department in its financial management is to


                                      -i­
successfully implement an integrated financial management system to
replace the disparate and, in some cases, antiquated financial systems used
by Department components.

      In the FY 2010 Independent Auditors’ Report on Compliance and Other
Matters, the auditors identified no instances of non-compliance with
applicable laws and regulations, and the Federal Financial Management
Improvement Act of 1996.

       The OIG reviewed KPMG LLP’s reports and related documentation and
made necessary inquiries of its representatives. Our review, as
differentiated from an audit in accordance with U.S. generally accepted
government auditing standards, was not intended to enable us to express,
and we do not express, an opinion on the Department’s financial statements,
conclusions about the effectiveness of internal control, conclusions on
whether the Department’s financial management systems substantially
complied with the Federal Financial Management Improvement Act of 1996,
or conclusions on compliance with laws and regulations. KPMG LLP is
responsible for the attached auditors’ reports dated November 9, 2010, and
the conclusions expressed in the reports. However, our review disclosed no
instances where KPMG LLP did not comply, in all material respects, with U.S.
generally accepted government auditing standards.




                                   - ii ­
                           Comparison of FY 2010 and FY 2009 Audit Results
                      Auditors’               Number of Material                     Number of Significant
                     Opinion On                 Weaknesses1                              Deficiencies2
  Reporting           Financial                         Information                              Information
    Entity                                 Financial                                Financial
                     Statements                           Systems                                  Systems
                    2010      2009      2010       2009        2010    2009       2010      2009      2010         2009
Consolidated
                      U3         U         0         0             0      0         1         1          0          1
DOJ
AFF/SADF              U          U         0         0             0      0         1         1          0          0
OBDs                  U          U         0         0             0      0         0         1          0          0
USMS                  U          U         1         1             0      0         0         0          0          1
OJP                   U          U         0         0             0      0         0         1          0          0
DEA                   U          U         0         0             0      0         0         1          0          0
FBI                   U          U         0         0             0      0         0         0          1          0
ATF                   U          U         0         0             0      0         1         0          0          0
BOP                   U          U         0         0             0      0         0         0          0          1
FPI                   U          U         0         0             0      0         0         1          0          0
               Component Totals            1         1             0      0         2         5          1          2

 Consolidated Department of Justice (Consolidated DOJ); Assets Forfeiture Fund and Seized Asset Deposit
 Fund (AFF/SADF); Offices, Boards and Divisions (OBDs); U.S. Marshals Service (USMS); Office of Justice
 Programs (OJP); Drug Enforcement Administration (DEA); Federal Bureau of Investigation (FBI); Bureau
 of Alcohol, Tobacco, Firearms and Explosives (ATF); Federal Bureau of Prisons (BOP); Federal Prison
 Industries, Inc. (FPI)
 1
   A material weakness is a deficiency (see below), or combination of deficiencies, in internal control such
 that there is a reasonable possibility that a material misstatement of the entity’s financial statements will
 not be prevented, or detected and corrected on a timely basis.
 2
   A significant deficiency is a deficiency, or combination of deficiencies, in internal control that is less
 severe than a material weakness, yet important enough to merit attention by those charged with
 governance. A deficiency in internal control exists when the design or operation of a control does not
 allow management or employees, in the normal course of performing their assigned functions, to prevent
 or detect and correct misstatements on a timely basis.
 3
  Unqualified opinion – An auditor’s report that states the financial statements present fairly, in all
 material respects, the financial position and results of operations of the reporting entity, in conformity with
 U.S. generally accepted accounting principles.




                                                         - iii ­
This page intentionally left blank.
                  U.S. DEPARTMENT OF JUSTICE

                 ANNUAL FINANCIAL STATEMENTS

                        FISCAL YEAR 2010


                          TABLE OF CONTENTS

                                                                              PAGE


MANAGEMENT'S DISCUSSION AND ANALYSIS..........................................3


INDEPENDENT AUDITORS’ REPORTS


   REPORT ON FINANCIAL STATEMENTS .............................................. 27


   REPORT ON INTERNAL CONTROL OVER FINANCIAL REPORTING .......... 29


   REPORT ON COMPLIANCE AND OTHER MATTERS ............................... 39


PRINCIPAL FINANCIAL STATEMENTS AND RELATED NOTES


   CONSOLIDATED BALANCE SHEETS .................................................. 42


   CONSOLIDATED STATEMENTS OF NET COST..................................... 43


   CONSOLIDATED STATEMENTS OF CHANGES IN NET POSITION ........... 44


   COMBINED STATEMENTS OF BUDGETARY RESOURCES ...................... 46


   COMBINED STATEMENTS OF CUSTODIAL ACTIVITY ........................... 48


   NOTES TO THE FINANCIAL STATEMENTS .......................................... 49


CONSOLIDATING AND COMBINING FINANCIAL STATEMENTS .................. 94


REQUIRED SUPPLEMENTARY STEWARDSHIP INFORMATION


   CONSOLIDATED STEWARDSHIP INVESTMENTS ............................... 111


APPENDIX


   OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND SUMMARY

   OF ACTIONS NECESSARY TO CLOSE THE REPORT............................ 115

This page intentionally left blank.
Management’s Discussion and Analysis


              Unaudited





              -1-
This page intentionally left blank.




                -2-
                         Management’s Discussion and Analysis

                                     (Unaudited)


Established July 1, 1870 (28 U.S.C. § 501 and 503), the Department of Justice (DOJ or the Department) is
headed by the Attorney General of the United States. The Department was created to control federal law
enforcement and all criminal prosecutions and civil suits in which the United States has an interest. The
structure of the Department has changed over the years, with the addition of a Deputy Attorney General,
Associate Attorney General, Assistant Attorneys General and the formation of Divisions and components;
however, unchanged is the commitment and response to securing equal justice for all, enhancing respect for
the rule of law, and making America a safer and more secure Nation.

                                                  Mission

The mission of the Department of Justice, as reflected in its Strategic Plan for fiscal years (FY) 2007-2012, is
as follows:

        To enforce the law and defend the interests of the United States according to the law, to
        ensure public safety against threats foreign and domestic, to provide federal leadership in
        preventing and controlling crime, to seek just punishment for those guilty of unlawful
        behavior, and to ensure fair and impartial administration of justice for all Americans.

In carrying out the Department’s mission, we are guided by the following core values:

   Equal Justice Under the Law. Upholding the laws of the United States is the solemn responsibility
   entrusted to us by the American people. We enforce these laws fairly and uniformly to ensure that all
   Americans receive equal protection and justice under the law.

   Honesty and Integrity. We adhere to the highest standards of ethical behavior.

   Commitment to Excellence. We seek to provide the highest levels of service to the American people.
   We are effective and responsible stewards of the taxpayers’ dollars.

   Respect for the Worth and Dignity of Each Human Being. We treat each other and those we serve
   with fairness, dignity, and compassion. We value differences in people and ideas. We are committed to
   the well-being of our employees and to providing opportunities for individual growth and development.

                                   Strategic Goals and Objectives

From our mission and core values stem the Department’s strategic and annual planning processes. The
Department embraces the concepts of performance-based management. At the heart of these concepts is the
understanding that improved performance is realized through greater focus on mission, agreement on goals
and objectives, and timely reporting of results. In the Department, strategic planning is the first step in an
iterative planning and implementation cycle. This cycle, which is the center of the Department’s efforts to
implement performance-based management, involves setting long-term goals and objectives, translating these
goals and objectives into budgets and program plans, implementing programs, monitoring performance, and



                                                   -3-
evaluating results. In this cycle, the Department’s Strategic Plan provides the overarching framework for
component and function-specific plans as well as annual performance plans, budgets, and reports.
The Strategic Plan is available electronically on the Department’s website at:
http://www.justice.gov/jmd/mps/strategic2007-2012/index.html.

The table below provides an overview of the Department’s strategic goals and objectives. The Department
expects to deliver an updated Strategic Plan in FY 2011.

Strategic Goal                                 Strategic Objectives
                                               1.1 Prevent, disrupt, and defeat terrorist operations before they occur
I     Prevent Terrorism and Promote the
      Nation’s Security
                                               1.2 Strengthen partnerships to prevent, deter, and respond to terrorist
                                               incidents

                                               1.3 Prosecute those who have committed, or intend to commit, terrorist
                                               acts in the United States

                                               1.4 Combat espionage against the United States
                                               2.1 Strengthen partnerships for safer communities, and enhance the
II    Prevent Crime, Enforce Federal Laws,
                                               Nation’s capacity to prevent, solve, and control crime
      and Represent the Rights and Interests
      of the American People
                                               2.2 Reduce the threat, incidence, and prevalence of violent crime

                                               2.3 Prevent, suppress, and intervene in crimes against children

                                               2.4 Reduce the threat, trafficking, use, and related violence of illegal
                                               drugs

                                               2.5 Combat public and corporate corruption, fraud, economic crime,
                                               and cybercrime

                                               2.6 Uphold the civil and Constitutional rights of all Americans

                                               2.7 Vigorously enforce and represent the interests of the United States
                                               in all matters over which the Department has jurisdiction

                                               2.8 Protect the integrity and ensure the effective operation of the
                                               Nation’s bankruptcy system
                                               3.1 Protect judges, witnesses, and other participants in federal
III   Ensure the Fair and Efficient
                                               proceedings, and ensure the appearance of criminal defendants for
      Administration of Justice
                                               judicial proceedings or confinement

                                               3.2 Ensure the apprehension of fugitives from justice

                                               3.3 Provide for the safe, secure, and humane confinement of detained
                                               persons awaiting trial and/or sentencing and those in the custody of the
                                               Federal Prison System

                                               3.4 Provide services and programs to facilitate inmates’ successful
                                               reintegration into society, consistent with community expectations and
                                               standards

                                               3.5 Adjudicate all immigration cases promptly and impartially in
                                               accordance with due process

                                               3.6 Promote and strengthen innovative strategies in the administration
                                               of state and local justice systems

                                               3.7 Uphold the rights and improve services to America’s crime victims




                                                         -4-
                            Organizational and Financial Structure


Led by the Attorney General, the Department is comprised of more than forty separate component
organizations. These include the U.S. Attorneys (USAs) who prosecute offenders and represent the
United States government in court; the major investigative agencies – the Federal Bureau of Investigation
(FBI), the Drug Enforcement Administration (DEA), and the Bureau of Alcohol, Tobacco, Firearms and
Explosives (ATF), which deter and investigate crimes and arrest criminal suspects; the U.S. Marshals Service
(USMS), which protects the federal judiciary, apprehends fugitives, and detains persons in federal custody; the
Bureau of Prisons (BOP), which confines convicted offenders; and the National Security Division (NSD),
which brings together national security, counterterrorism, counterintelligence, and foreign intelligence
surveillance operations under a single authority.

The Department’s litigating divisions represent the rights and interests of the American people and enforce
federal criminal and civil laws. The litigating divisions are comprised of the Antitrust (ATR), Civil (CIV),
Civil Rights (CRT), Criminal (CRM), Environment and Natural Resources (ENRD), and Tax (TAX) divisions.
The Office of Justice Programs (OJP) and the Office of Community Oriented Policing Services (COPS)
provide leadership and assistance to state, local, and tribal governments. Other major Departmental
components include the U.S. Trustees (UST), the Office of the Federal Detention Trustee (OFDT), the Justice
Management Division (JMD), the Executive Office for Immigration Review (EOIR), the Community
Relations Service (CRS), the Office on Violence Against Women (OVW), the National Drug Intelligence
Center (NDIC), the Office of the Inspector General (OIG), and several offices that advise the Attorney General
on policy, law, legislation, tribal justice matters, external affairs, and oversight. Headquartered in Washington,
D.C., the Department conducts its work in offices located throughout the country and overseas.




                                                   -5-
                                                            U.S. DEPARTMENT OF JUSTICE




                                                                           Attorney General


                                                                                   Deputy
                                                                              Attorney General



                                     ASSOCIATE
SOLICITOR
                                     ATTORNEY
GENERAL                               GENERAL


                                                                                          OFFICE OF
 OFFICE OF                                                                   OFFICE OF
                                                                                           PUBLIC
   THE                                                                     LEGAL POLICY
                                                                                           AFFAIRS
 SOLICITOR
 GENERAL



                                                                             OFFICE OF    OFFICE OF
                            COMMUNITY                                       LEGISLATIVE    LEGAL
 OFFICE OF                                         CIVIL                                                 FEDERAL                         NATIONAL         OFFICE OF
                             ORIENTED                            CIVIL        AFFAIRS     COUNSEL                        CRIMINAL
  JUSTICE                                        RIGHTS                                                 BUREAU OF                        SECURITY       PROFESSIONAL
                             POLICING                          DIVISION                                                  DIVISION
 PROGRAMS                                        DIV SION                                              NVESTIGATION                      DIVISION       RESPONSIB LITY
                             SERVICES


                                                                             OFFICE OF
  EXECUTIVE                                                  ENVIRONMENT       INTER­     OFFICE OF
                              OFFICE OF                                                     TRIBAL        DRUG                           OFFICE OF      OFFICE OF THE
 OFFICE FOR                                  ANTITRUST       AND NATURAL   GOVERNMENTAL                                 BUREAU OF
                            INFORMATION                                                    JUSTICE     ENFORCEMENT                     THE INSPECTOR      PARDON
UNITED STATES                                 DIVISION        RESOURCES      AND PUBLIC                                  PRISONS
                               POLICY                                                                 ADMINISTRATION                      GENERAL        ATTORNEY
  TRUSTEES                                                     DIVISION       LIAISON



                             FOREIGN                                                                    EXECUTIVE         UNITED
  OFFICE OF                                                  COMMUNITY                                                                    JUSTICE       UNITED STATES
                              CLAIMS               TAX                                                 OFFICE FOR        STATES
   DISPUTE                                                   RELATIONS                                                                  MANAGEMENT         PAROLE
                            SETTLEMENT           DIV SION                                             UNITED STATES     MARSHALS
 RESOLUTION                                                   SERVICE                                                                     DIVISION       COMMISSION
                            COMMISSION                                                                 ATTORNEYS         SERVICE



                OFFICE ON                                                                                              U S. NATIONAL     EXECUTIVE
                VIOLENCE                                                                                  UNITED                                        NATIONAL DRUG
                                                                                                                          CENTRAL        OFFICE FOR
                 AGAINST                                                                                  STATES                                         INTELLIGENCE
                                                                                                                          BUREAU        IMMIGRATION
                 WOMEN                                                                                  ATTORNEYS                                           CENTER
                                                                                                                         INTERPOL         REVIEW



                                                                                                       BUREAU OF       OFFICE OF THE   PROFESSIONAL     EXECUTIVE OFFICE
                                                                                                        ALCOHOL,         FEDERAL       RESPONS BILITY
                                                                                                                                                         FOR ORGANIZED
                                                                                                        TOBACCO,                                          CR ME DRUG
                                                                                                                        DETENTION        ADVISORY        ENFORCEMENT
                                                                                                       FIREARMS, &       TRUSTEE          OFFICE
                                                                                                       EXPLOSIVES                                         TASK FORCES




                                                                                -6-
                          Department of Justice Financial Structure


The Department’s financial reporting structure is comprised of the following nine principal components:

•   Assets Forfeiture Fund and Seized Asset Deposit Fund (AFF/SADF)
•   Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF)
•   Bureau of Prisons (BOP)
•   Drug Enforcement Administration (DEA)
•   Federal Bureau of Investigation (FBI)
•   Federal Prison Industries, Inc. (FPI)
•   Office of Justice Programs (OJP)
•   Offices, Boards and Divisions (OBDs)
•   U.S. Marshals Service (USMS)

     Offices                                                  Boards
     Office of the Attorney General                           Foreign Claims Settlement Commission
     Office of the Deputy Attorney General                    U.S. Parole Commission
     Office of the Associate Attorney General
     Community Relations Service                              Divisions
     Executive Office for Immigration Review                  Antitrust Division
     Executive Office for U.S. Attorneys                      Civil Division
     Executive Office for U.S. Trustees                       Civil Rights Division
     Executive Office for Organized Crime Drug                Criminal Division
        Enforcement Task Forces                               Environment and Natural Resources Division
     National Drug Intelligence Center                        Justice Management Division
     Office of Community Oriented Policing Services           National Security Division
     Office of Dispute Resolution                             Tax Division
     Office of Information Policy
     Office of Intergovernmental and Public Liaison
     Office of Legal Counsel
     Office of Legal Policy
     Office of Legislative Affairs
     Office of Professional Responsibility
     Office of Public Affairs
     Office of the Federal Detention Trustee
     Office of the Inspector General
     Office of the Pardon Attorney
     Office of the Solicitor General
     Office of Tribal Justice
     Office on Violence Against Women
     Professional Responsibility Advisory Office
     U.S. Attorneys
     U.S. National Central Bureau - INTERPOL




                                                 -7-
                                                FY 2010 Resource Information

The following pages provide summary-level resource and performance information regarding the
Department’s operations for FY 2010. The charts on this page reflect employees on board as of
September 25, 2010.


                                           FY 2010 DOJ Employees On Board by Component
                                                        116,531 Employees

                     0.02% (20)                                                                                             AFF/SADF
                     0.60% (698)                                                                                            OJP
                           4.41% (5,136)                                                                                    ATF
        Employees




                            4.70% (5,475)                                                                                   USMS
                                     8.51% (9,915)                                                                          DEA
                                                                19.63% (22,876)                                             OBDs

                                                                                   29.97% (34,926)                          FBI
                                                                                         32.16% (37,485)                    BOP (including FPI)

          0.00%               10.00%                20.00%                30.00%               40.00%                50.00%




                                            FY 2010 DOJ Employees On Board by Category
                                          Agents, Attorneys, Correctional Officers, and Other*


        100%


           75%                                                                                                              Other, 54%


           50%
                                     Agents, 22%                                             Correctional
                                                                                             Officers, 15%
                                                                  Attorneys, 9%
           25%


                0%
                                                                   Employees




  *“O her” includes pay class categories such as general administra ive, clerical, analyst, information technology specialist, security specialist, and
  legal services.




                                                                              -8-
                                 Table 1. Sources of DOJ Resources
                                           (Dollars in Thousands)



                     Source                                  FY 2010        FY 2009        % Change
Earned Revenue:                                        $3,275,846            $3,314,595          -1.2%
Budgetary Financing Sources:
  Appropriations Received                              28,342,153            30,452,903         -6.9%
  Appropriations Transferred In/Out                       510,516               535,342         -4.6%
  Nonexchange Revenues                                  2,367,453             1,757,766         34.7%
  Donations and Forfeitures of Cash and Cash
   Equivalents                                             1,502,460          1,376,423           9.2%
  Transfers In/Out Without Reimbursement                      75,097             89,948         -16.5%
  Other Adjustments and Other Budgetary Financing
   Sources                                                  (153,751)         (331,068)         53.6%
Other Financing Sources:
  Donations and Forfeitures of Property                    71,204                68,213           4.4%
  Transfers In/Out Without Reimbursement                   (1,889)                9,397        -120.1%
  Imputed Financing from Costs Absorbed by Others         902,877               703,700          28.3%
                                             Total     $36,891,966          $37,977,219          -2.9%


                              Table 2. How DOJ Resources Were Spent
                                           (Dollars in Thousands)



                 Strategic Goal (SG)                           FY 2010       FY 2009       % Change
         Prevent Terrorism and Promote the Nation’s
    I
         Security
                                            Gross Cost         $5,545,532     $4,525,551
                                Less: Earned Revenue              506,463        559,958
                                               Net Cost         5,039,069      3,965,593    27.1%
         Prevent Crime, Enforce Federal Laws, and
   II    Represent the Rights and Interests of the
         American People
                                            Gross Cost         16,665,443     14,878,016
                                Less: Earned Revenue            1,488,093      1,389,584
                                               Net Cost        15,177,350     13,488,432    12.5%
         Ensure the Fair and Efficient Administration of
   III
         Justice
                                            Gross Cost         12,550,173     11,870,824
                                Less: Earned Revenue            1,281,290      1,365,053
                                               Net Cost        11,268,883     10,505,771     7.3%

                                   Total Gross Cost            34,761,148     31,274,391
                        Less: Total Earned Revenue              3,275,846      3,314,595
                        Total Net Cost of Operations          $31,485,302    $27,959,796    12.6%




                                                 -9-
                       Comparison of Net Costs by Strategic Goal - FY 2009 and 2010
                                                     (Dollars in Millions)
                                                                        $15,177
                                                            $13,488
                 $15,000
                                                                                              $11,269
                                                                                  $10,506

                 $10,000
                                                 $5,039
                                    $3,966
                  $5,000


                       $0
                                     SG I                     SG II                SG III
                FY 2009            $3,966                    $13,488              $10,506
                FY 2010            $5,039                    $15,177              $11,269

                                                       FY 2009     FY 2010




                            FY 2010 Percentage of Net Costs by Strategic Goal

                                                              48%

50%                                                                                   36%



                                 16%
25%




0%

      SG I: Prevent Terrorism and Promote the Nation's Security
      SG II: Prevent Crime, Enforce Federal Laws, and Represent the Rights and Interests of the American People
      SG III: Ensure the Fair and Efficient Administration of Justice




                                                          - 10 -
                                  Analysis of Financial Statements


The Department’s financial statements, which are provided in Section III of this document, received an
unqualified audit opinion for the fiscal years ended September 30, 2010 and 2009. These statements were
prepared from the accounting records of the Department in conformity with the accounting principles
generally accepted in the United States and Office of Management and Budget (OMB) Circular A-136,
Financial Reporting Requirements. These principles are the standards prescribed by the Federal Accounting
Standards Advisory Board (FASAB).

The following information highlights the Department’s financial position and results of operations in FY 2010.
The complete set of financial statements, related notes, and the opinion of the Department’s auditors are
provided in Section III of this document.

Assets: The Department’s Consolidated Balance Sheet as of September 30, 2010, shows $40 billion in total
assets, an increase of $3.4 billion over the previous year’s total assets of $36.6 billion. Fund Balance with
U.S. Treasury (FBWT) was $23.6 billion, which represented 58.9 percent of total assets. This increase is
predominantly due to an increase in Debt Collection Management (DCM) activity.

Liabilities: Total Department liabilities were $10.6 billion as of September 30, 2010, an increase of
$1.4 billion from the previous year’s total liabilities of $9.2 billion. This increase is primarily due to DCM
activity on behalf of other government agencies and substantial increases in the Radiation Exposure
Compensation Act (RECA) liability estimations.

Net Cost of Operations: The Consolidated Statement of Net Cost presents the Department’s gross and net
cost by strategic goal. The net cost of the Department’s operations totaled $31.5 billion for the year ended
September 30, 2010, an increase of $3.5 billion (12.6 percent) from the previous year’s net cost of operations
of $28 billion.

Brief descriptions of some of the major costs for each Strategic Goal are as follows:

              Strategic
                                                 Description of Major Costs
                Goal
                   I       Includes resources dedicated to counterterrorism initiatives for ATF, Criminal
                           Division, DEA, FBI, NSD, USAs, and USMS

                   II      Includes resources for the AFF, ATF, BOP, COPS, CRS, DEA, FBI, Foreign
                           Claims Settlement Commission (FCSC), Organized Crime Drug Enforcement
                           Task Forces (OCDETF), Office of Dispute Resolution (ODR), OJP, Office of
                           Legal Counsel, Office of the Pardon Attorney (OPA), Office of the Solicitor
                           General (OSG), OVW, USAs, USMS, U.S. National Central Bureau
                           (INTERPOL), UST, and the Antitrust, Civil, Civil Rights, Criminal,
                           Environment and Natural Resources, and Tax Divisions

                  III      Includes resources for BOP, Executive Office for Immigration Review, Fees
                           and Expenses of Witnesses, FPI, OJP, Justice Prisoner Alien Transportation
                           System, USMS, U.S. Parole Commission, and services to America’s crime
                           victims




                                                    - 11 -
Management and administrative costs, including the costs for the Department’s leadership offices, JMD,
Wireless Management Office, and others, are allocated to each strategic goal based on full-time equivalent
(FTE) employment. 1

Budgetary Resources: The Department’s FY 2010 Combined Statement of Budgetary Resources shows
$42.8 billion in total budgetary resources, a decrease of $1.8 billion from the previous year’s total budgetary
resources of $44.6 billion. This decrease is predominantly due to a decrease in the Appropriations Received.

Net Outlays: The Department’s FY 2010 Combined Statement of Budgetary Resources shows $30 billion in
net outlays, an increase of $1.9 billion from the previous year’s total net outlays of $28.1 billion.


                                                  Data Reliability and Validity

The Department views data reliability and validity as critically important in the planning and assessment of its
performance. As such, the Department makes every effort to constantly improve the completeness and
reliability of its performance information by performing “data scrubs” (routine examination of current and
historical data sets, as well as looking toward the future for trends) to ensure the data we rely on to make day-
to-day management decisions are as accurate and reliable as possible and targets are ambitious enough given
the resources provided. In an effort to communicate our data limitations and commitment to providing
accurate data, this document includes a discussion of data validation, verification, and any identified data
limitations for each performance measure presented. The Department ensures each reporting component
providing data for this report meets the following criteria:

           At a minimum, performance data are considered reliable if transactions and other data that
           support reported performance measures are properly recorded, processed, and summarized to
           permit the preparation of performance information in accordance with criteria stated by
           management. Performance data need not be perfect to be reliable, particularly if the cost and
           effort to secure the best performance data possible will exceed the value of any data so
           obtained.




1
 FTE employment means the total number of regular straight-time hours (i.e., not including overtime or holiday hours) worked by employees, divided by the
number of compensable hours applicable to each fiscal year. Annual leave, sick leave, compensatory ime off, and other approved leave categories are
considered "hours worked" for purposes of defining FTE employment.



                                                                           - 12 -
                              Analysis of Performance Information


According to the Government Performance and Results Act (GPRA) of 1993, an agency’s Strategic Plan must
be updated and revised at least every three years and cover a period of not less than five years forward from
the fiscal year in which it is submitted. In April 2007, the FY 2007-2012 Strategic Plan was approved by
OMB and sent to Congress for review and approval. The final FY 2007-2012 Strategic Plan was made
available to the public in July 2007. The Department anticipates the release in late 2010 of the new Strategic
Plan for FY 2010-2015.

The Department’s FY 2007-2012 Strategic Plan contains three goals. Additionally, the Department’s Plan
includes 23 key performance measures addressing its highest priorities toward achieving these long-term
outcome goals. The measures are included in the Department’s annual Budget and Performance Summary and
reported on in this document. The Department’s full Performance Report for these measures, including an
update on our progress toward meeting the FY 2012 long-term outcome goals, is included in Section II of this
document. The Department strives to present the highest-level outcome-oriented measures available and fully
report the accomplishments achieved during the reporting period. However, data for the 23 key measures are
compiled less than 30 days after the end of the fiscal year and, occasionally, data for an entire year are not
available at the time of publication.

During FY 2010, Departmental leadership continued to display a clear commitment to performance
management through the reliance on formal quarterly status reviews. Additionally, Departmental components
have worked to improve the quality and timeliness of financial and performance information that informs
quarterly status reporting and operating plans.

For this report, 83 percent of the performance measures have actual data for FY 2010. In some cases,
indicators are reported on a calendar year basis while others have a one-year lag time and thus are not included
in this report. The Department achieved 77 percent of its key indicators in FY 2010, which is higher than last
year’s overall success of 61 percent. The Department continues to emphasize long-term and annual
performance measure development, placement of key performance indicators on cascading employee work
plans, and Department-wide quarterly status reporting.

The Department will continue to examine its performance management system overall and implement
improvements, where necessary. Additional improvement areas include continuing to improve the quality and
utility of performance information, developing the capacity to use performance information through the use of
technology and reliable data systems, and continuing to work with OMB and other federal agencies to develop
mechanisms to target and measure efficiency of law enforcement and regulatory programs.

In addition to monitoring its annual progress, the Department continues to monitor progress made toward
achieving its FY 2012 long-term performance goals for each of the 23 key performance measures. As of the
close of FY 2010, the Department’s long-term key measures are on-track for full achievement against FY 2012
targets. Two full years of performance remain until the Department reports against planned progress, and a
number of mechanisms are in place to ensure that the current progress is maintained, including quarterly status
reporting and performance-informed budget submissions that request the resources necessary for the
Department to reach its goals.




                                                 - 13 -
The chart below and the table that follows summarize the Department’s achievement of its FY 2010 key
performance measures.


                                             Achievement of FY 2010 Key Performance Measures



       100%                                         77%


            75%


            50%
                                                                                                                          16%
                                                                                        7%
            25%


             0%


                                              Target Achieved          Target Not Achieved       Data Not Yet Available



Note: For FY 2010, the Department of Justice had 23 key performance measures. Some measures had more than one annual target; therefore, for
purposes of illustrating the Department’s achievement rate in the chart above, a universe of 30 key performance measures instead of 23 was used.


        [ ] Designates the                                    FY 2010                 FY 2010                          Target Achieved/
        reporting entity                                       Target                  Actual                            Not Achieved
        Strategic Goal I: Prevent Terrorism and Promote the Nation’s Security
        Terrorist acts committed by                               Zero                   Zero                               Not Applicable
        foreign nationals against U.S.
        interests within U.S. borders
        [FBI] [Discontinued] 1
        1
            Measure was consolidated into catastrophic acts of terrorism.
 1      Catastrophic acts of terrorism                            Zero                   Zero                                   Achieved
        [FBI] [Title Refined] 2
        2
            Includes both domestic and international terrorist acts.

        Strategic Goal II: Prevent Crime, Enforce Federal Laws, and Represent the Rights and
        Interests of the American People
 2      Number of organized criminal                               36                     37                                    Achieved
        enterprises dismantled [FBI]
 3      Number of children depicted in                            130                     246                                   Achieved
        child pornography identified by
        the FBI [FBI]
 4      Percentage of firearms                                    60%                    56%                                Not Achieved3
        investigations resulting in a
        referral for criminal prosecution
        [ATF]
        3
         Target was missed by 4 percentage points. In FY 2010, ATF increased its commitment to Southwest Border firearms interdiction initiatives, detailing
        80 special agents, investigators, and intelligence personnel to the Phoenix/Tucson Gunrunner Impact Teams.
        DOJ's reduction in the supply of                          N/A                     N/A                               Not Applicable
        illegal drugs available for
        consumption in the U.S.
        [OCDETF] [Discontinued] 4
        4
             Baseline amounts for the supply of illegal drugs available for consumption in the United States have not been measurable. Therefore, the Department
            is no longer planning to report on its effect on the reduction of the supply of illegal drugs available for consumption in the United States.




                                                                              - 14 -
     [ ] Designates the                                   FY 2010                   FY 2010                           Target Achieved/
     reporting entity                                      Target                    Actual                             Not Achieved
5    Consolidated Priority
     Organizations Target (CPOT)­
     linked drug trafficking
     organizations [DEA, FBI
     (Consolidated data - OCDETF)]
         Dismantled                                           149                       176                                  Achieved
         Disrupted                                            281                       365                                  Achieved
6    Number of high-impact Internet                            13                        12                                Not Achieved5
     fraud targets neutralized [FBI]
     5
      Target for this measure was not met in FY 2010, due to the extent of IC3 resources needed to support high profile cases throughout the national and
     international law enforcement communities. Throughout FY 2010, many arrests were made in at least two very large investigations, one of which
     involved 390 FBI-wide investigations. Because of the 390 investigations throughout the field, the resources of several analysts were used to assist the
     entire scheme. While this was a large focus for the IC3 this fiscal year, FBI does not anticipate as much time being allocated to this initiative since the
     arrests were made.

7    Number of criminal enterprises                           160                       309                                   Achieved
     engaging in white-collar crimes
     dismantled [FBI]
8    Percent of cases favorably
     resolved: [ENRD, ATR, CRM,
     USA, TAX, CIV, CRT
     (Consolidated data -
     JMD/Budget Staff)]
        Criminal Cases                                       90%                       94%                                    Achieved
         Civil Cases                                         80%                       85%                                    Achieved
9    Percent of assets/funds returned
     to creditors: [USTP]
         Chapter 7                                           58%                             6                                   TBD
                                                                                       TBD
         Chapter 13                                          84%                          6                                      TBD
                                                                                       TBD
     6
         Data lag one year due to the requirement to audit data submitted by U.S. Trustees prior to reporting.
10   Number of homicides per site                             3.7                            7                                   TBD
                                                                                       TBD
     (funded under the Weed and
     Seed program) [OJP]
     7
     Data are collected on a calendar year basis and reported with a one year lag.
11   Percent reduction in DNA                                25%                       29%                                    Achieved
     backlog (casework only) [OJP]
12   Percent of children recovered                          75.0%                     86.9%                                   Achieved
     within 72 hours of an issuance of
     an AMBER alert [OJP]
     Strategic Goal III: Ensure the Fair and Efficient Administration of Justice
13   Number of participants in the                          25,000                           8                                   TBD
                                                                                       TBD
     Residential Substance Abuse
     Treatment (RSAT) Program
     [OJP]
     8
     Data are collected on a calendar year basis and reported with a one year lag.
                                                                                             9
14   Graduation rate of program                              71%                       TBD                                       TBD
     participants in the Drug Courts
     Program (adult drug court
     participants only) [OJP]
     9
     Data unavailable at time of publication; to be reported at the end of calendar year 2010.
15   Ensure judicial proceedings are                         Zero                      Zero                                   Achieved
     not interrupted due to
     inadequate security [USMS]
16   Total primary fugitives
     apprehended or cleared [USMS]
        Number                                              33,000                    36,126                                  Achieved
        Percent                                              53%                       56%                                    Achieved
17   Per day jail costs [OFDT]                              $70.98                    $70.59                                  Achieved


                                                                     - 15 -
      [ ] Designates the                                FY 2010                   FY 2010                           Target Achieved/
      reporting entity                                   Target                    Actual                             Not Achieved
 18   Percent of system-wide                                40%                      37%                                    Achieved
      crowding in federal prisons
      [BOP]
 19   Ensure zero escapes from                              Zero                     Zero                                   Achieved
      secure BOP facilities [BOP]
 20   Comparative recidivism for
      Federal Prison Industries (FPI)
      inmates versus non-FPI inmates
      [FPI / BOP provides data]
      Percentage less likely to
      recidivate:                                           15%                      18%                                    Achieved
          3 years after release
          6 years after release                          10%                      19%                                       Achieved
 21   Rate of serious assaults In                      16/5,000                 13/5,000                                    Achieved
      federal prisons (per 5,000                    Assaults/Inmates         Assaults/Inmates
      Inmates) [BOP]
 22   Inspection results—Percent of                         99%                      99%                                    Achieved
      federal facilities with American
      Correctional Association (ACA)
      accreditations [BOP]
 23   Percent of Executive Office for
      Immigration Review (EOIR)
      priority cases completed within
      established timeframes [EOIR]
          Asylum (Discontinued)10                           N/A                      N/A                                      N/A
          Institutional Hearing Program                     85%                      87%                                    Achieved
          Detained Cases –                                  85%                      89%                                    Achieved
           Immigration Court11
          Detained Appeals                                  90%                      93%                                    Achieved
      10
        At the end of FY 2009, the Executive Office for Immigration Review (EOIR) discontinued this measure. The agency shifted its highest priority to the
      detained caseload. These cases are the highest priority for EOIR because individuals involved in these proceedings are being detained at the
      expense of the United States government.
      11
        The measure, “Detained Cases – Immigration Court,” is technically a new measure because the pool of cases has changed from previous years.
      The pool of cases in previous years was based only on detained cases that did not have applications for relief submitted by the alien and the timeframe
      was 30 days. Beginning in FY 2010, the new pool of cases is based on all detained cases and the timeframe within 60 days.


Note: TBD – Data were not yet available as of the date of this document; however, the discussion below the
measure indicates when data will be available.




                                                                          - 16 -
                    Analysis of Systems, Controls, and Legal Compliance


Internal Control Program in the Department of Justice

The objective of the Department of Justice’s internal control program is to provide reasonable assurance that
operations are effective, efficient, and comply with applicable laws and regulations; financial reporting is
reliable; and assets are safeguarded against waste, loss, and unauthorized use. The Department identifies
issues of concern through a strong network of oversight councils and internal review teams. These include the
Department’s Senior Assessment Team, the Justice Management Division’s Internal Review and Evaluation
Office and Quality Control and Compliance Group, and Departmental component internal review teams. The
Department also considers reports by the Office of the Inspector General (OIG) in its evaluation of internal
control.

The Department’s internal control continues to improve through the corrective actions implemented by senior
management. The Department’s commitment to management excellence, accountability, and compliance with
applicable laws and regulations is evidenced in our continuing actions to establish effective controls, make
sound determinations on corrective actions, and verify and validate the results. This commitment is further
evidenced by the many control improvements and actions taken by Departmental management in response to
OMB initiatives and OIG recommendations. For example, during FY 2010, in response to the OMB Open
Government Directive – Framework for the Quality of Federal Spending Information, Departmental
management developed a framework with details of the internal controls implemented over information
quality, including system and process changes, and the integration of these controls within the Department’s
existing infrastructure. The framework reflects the coordinated efforts that are occurring among Departmental
components and offices to ensure effective implementation of the principles of transparency, participation, and
collaboration set forth in the President’s January 2009 Memorandum on Transparency and Open Government.
In addition, Departmental management continued in FY 2010 to further strengthen and maximize the
effectiveness of the Department’s assessment of internal control over financial reporting, which is required by
Appendix A of OMB Circular A-123. Examples of such efforts include:

    •	 refining the framework and process for assessing internal control over financial reporting,

    •	 enhancing the oversight process to ensure prompt and proper implementation of corrective actions,

    •	 providing direct assistance to components with previously identified material weaknesses and 

       reportable conditions, and


    •	 continuing to support and commit resources to Departmental component internal review programs.

Details on additional actions taken by Departmental management to build and sustain a strong internal control
program are included later in this section.




                                                 - 17 -
                                        Management Assurances


Federal Managers’ Financial Integrity Act of 1982

The Federal Managers’ Financial Integrity Act of 1982 (Integrity Act or FMFIA) provides the statutory basis for
management’s responsibility for and assessment of internal accounting and administrative controls. Such controls
include program, operational, and administrative areas, as well as accounting and financial management. The
Integrity Act requires federal agencies to establish controls that reasonably ensure obligations and costs are in
compliance with applicable law; funds, property, and other assets are safeguarded against waste, loss, unauthorized
use, or misappropriation; and revenues and expenditures are properly recorded and accounted for to maintain
accountability over the assets. The Integrity Act also requires agencies to annually assess and report on the internal
controls that protect the integrity of federal programs (FMFIA § 2) and whether financial management systems
conform to related requirements (FMFIA § 4).

Guidance for implementing the Integrity Act is provided through OMB Circular A-123. In addition to requiring
agencies to provide an assurance statement on the effectiveness of programmatic internal controls and conformance
with financial systems requirements, the Circular requires agencies to provide an assurance statement on the
effectiveness of internal control over financial reporting.

FMFIA Assurance Statement

Department of Justice management is responsible for establishing and maintaining effective internal controls and
financial management systems that meet the objectives of the FMFIA. In accordance with OMB Circular A-123,
the Department conducted its annual assessment of the effectiveness of internal controls to support effective and
efficient programmatic operations and compliance with applicable laws and regulations (FMFIA § 2) and whether
financial management systems conform to government-wide requirements (FMFIA § 4). Based on the results of the
assessment for the period ending September 30, 2010, I provide qualified assurance that the Department met the
objectives of the FMFIA. The assessment did not identify any systems non-conformances required to be reported
under FMFIA § 4; however, the assessment identified one programmatic material weakness required to be reported
under FMFIA § 2. This weakness involves the need to reduce the Federal Bureau of Prisons (BOP) crowding rate,
currently at 37 percent over the rated capacity. Details of the exception are provided in the section Summary of
Material Weakness and Corrective Actions. Other than the exception noted, the internal controls were operating
effectively, and no other material weakness was found in the design or operation of the controls.

In accordance with Appendix A of OMB Circular A-123, the Department conducted its assessment of the
effectiveness of internal control over financial reporting, which included the safeguarding of assets and compliance
with applicable laws and regulations. Based on the results of this assessment for the period ending June 30, 2010,
I provide reasonable assurance that the Department’s internal control over financial reporting was operating
effectively, and no material weaknesses were found in the design or operation of the controls.

The Department of Justice is committed to maintaining strong program and financial management as we continue
our mission of fighting terrorism and protecting our communities from crime. We take our program and financial
accountability seriously and are dedicated to ensuring that funds received are expended responsibly and in a
transparent manner. We look forward in FY 2011 to building on our achievements to further improve internal
control as we continue the important work of the Department.




Eric H. Holder, Jr.
Attorney General
November 9, 2010


                                                         - 18 -
Federal Financial Management Improvement Act of 1996

The Federal Financial Management Improvement Act of 1996 (FFMIA) was designed to advance federal
financial management by ensuring that federal financial management systems provide accurate, reliable, and
timely financial management information to the government’s managers. Compliance with the FFMIA
provides the basis for the continuing use of reliable financial management information by program managers,
as well as by the President, Congress, and public. The FFMIA specifically requires agencies to have financial
management systems that substantially comply with federal financial management systems requirements,
applicable federal accounting standards, and the application of the U.S. Government Standard General Ledger
at the transaction level. Guidance for implementing the FFMIA is provided through OMB Circular A-127.

FFMIA Compliance Determination

During FY 2010, the Department assessed its financial management systems for compliance with the FFMIA
and determined that, when taken as a whole, they substantially comply with the FFMIA. This determination is
based on the results of FISMA reviews and testing performed for OMB Circular A-123, Appendix A.
Consideration was also given to issues identified during the Department’s financial statement audit. A
summary of the Department’s compliance with the specific requirements of the FFMIA is provided at the end
of this sub-section.

Financial Systems Strategy, Goals, and Framework

The Department’s financial management systems strategy is to ultimately replace the six major non-integrated
accounting systems currently in use throughout the Department with a single, integrated financial management
system that delivers standard, core accounting processes, as well as the data needed for effective financial and
budget management. In FYs 2009 and 2010, the Department made measurable progress in implementing the
integrated system – the Unified Financial Management System (UFMS). In FY 2009, the DEA successfully
migrated to UFMS and, importantly, obtained an unqualified audit opinion on its financial statements
produced from UFMS. As expected, the DEA project was a large, complex, and difficult migration, but one
that helped to lay the foundation for the migration of the Bureau of Alcohol, Tobacco, Firearms and
Explosives (ATF), which is set for the first quarter of FY 2011, and the migration of other Departmental
components in the future pending the outcome of a systems review being conducted by OMB in accordance
with M-10-26. UFMS implementation goals, such as the FY 2011 ATF migration, are based on and aligned
with operational risks and requirements.

The Department’s implementation of UFMS has already enabled components to improve financial and budget
management and realize increased efficiencies. Additional migrations to UFMS are expected to result in
improvements and efficiencies. For example, UFMS has standardized and integrated financial processes to
more effectively support accounting operations, provide accurate and timely financial information throughout
the year, facilitate preparation of financial statements, and streamline audit processes.

As required, the Department has compiled the current inventory of baseline financial management and mixed
systems and will submit it separately to OMB through the General Services Administration.




                                                 - 19 -
Summary of Financial Statement Audit and Management Assurances

The following two tables summarize the results of the Department’s financial statement audit and management
assurances regarding the effectiveness of internal control over programmatic operations and financial reporting
(FMFIA § 2), conformance with financial management systems requirements (FMFIA § 4), and compliance
with the FFMIA. As noted in Table 4, sufficient progress was made in FY 2010 to remediate internal control
deficiencies related to the Federal Bureau of Investigation’s previously reported material weakness related to
the use of national security letters, and the issue is no longer considered a material weakness.

                             Table 3. Summary of Financial Statement Audit

 Financial Statement Audit Opinion and Material Weaknesses

 Audit Opinion                 Unqualified

 Restatement                   No
                                    Beginning                                                       Ending
    Material Weaknesses
                                     Balance        New            Resolved      Consolidated       Balance

 None                                  0             0                0               0               0

 Total Material Weaknesses             0             0                0               0               0




                                                      - 20 -
                                Table 4. Summary of Management Assurances

Effectiveness of Internal Control over Programmatic Operations (FMFIA § 2)

Statement of Assurance            Qualified
                                   Beginning                                                           Ending
    Material Weaknesses
                                    Balance         New       Resolved     Consolidated   Reassessed   Balance

Prison Crowding                        1            0            0              0             0          1
Federal Bureau of
Investigation Use of National          1            0            1              0             0          0
Security Letters
Total Material Weaknesses              2            0            1              0             0          1




Effectiveness of Internal Control over Financial Reporting (FMFIA § 2)

Statement of Assurance            Unqualified
                                   Beginning                                                           Ending
    Material Weaknesses
                                    Balance         New       Resolved     Consolidated   Reassessed   Balance

None                                   0            0            0              0             0          0

Total Material Weaknesses              0            0            0              0             0          0




Conformance with the Financial Management Systems Requirements (FMFIA § 4)

Statement of Assurance            Systems Conform
                                   Beginning                                                           Ending
     Non-conformances
                                    Balance         New       Resolved     Consolidated   Reassessed   Balance

None                                   0            0            0              0             0          0

Total Non-conformances                 0            0            0              0             0          0




Compliance with Federal Financial Management Improvement Act (FFMIA)

Overall Substantial                             Agency                                     Auditor
Compliance
                                                 Yes                                        Yes

                                    Compliance with Specific Requirements

Systems Requirements                                                     Yes

Accounting Standards                                                     Yes

USSGL at Transaction Level                                               Yes




                                                     - 21 -
                  Summary of Material Weakness and Corrective Actions


A summary of the material weakness identified in the Department’s FY 2010 assessment of the effectiveness
of internal control over programmatic operations (FMFIA § 2) follows, along with details regarding corrective
actions. The associated Corrective Action Plan is available in Section IV of this document.

           Programmatic Material Weakness and Corrective Actions – Prison Crowding

As of September 30, 2010, the inmate population housed in BOP operated institutions exceeded the
rated housing capacity by 37 percent. The BOP’s Long Range Capacity Plan relies on multiple approaches to
house the increasing federal inmate population, such as contracting with the private sector and state and local
facilities for certain groups of low-security inmates; expanding existing institutions where infrastructure
permits, programmatically appropriate, and cost effective to do so; and acquiring and constructing new
facilities as funding permits. The Long Range Capacity Plan details the acquisition, expansion, and
construction necessary to maximize the BOP’s ability to keep pace with the increasing inmate population,
thereby striving to maintain safe and secure operations in facilities housing federal inmates.

To address this material weakness, the BOP will continue implementing its Long Range Capacity Plan,
making enhancements and modifications to the plan, as needed, commensurate with funding. The formal
Corrective Action Plan includes utilizing contract facilities, expanding existing institutions, and acquiring and
constructing new institutions as funding permits. The BOP will continue to validate progress on construction
projects at new and existing facilities through on-site inspections or by reviewing monthly construction
progress reports.

The Department’s corrective action efforts are not limited to the BOP alone. The Department has begun
considering an innovative array of crime prevention, sentencing, and corrections management improvements
that will focus on accountability and rehabilitation, while protecting public safety. The Department recognizes
that the BOP’s capacity management efforts must be teamed with targeted programs that are proven to reduce
recidivism and promote effective re-entry.

This material weakness was first reported in 2006. Remediation of the weakness through increasing prison
capacity is largely dependent on funding, while other correctional reforms and alternatives may require policy
and/or statutory changes. Other initiatives notwithstanding, if the acquisition, expansion, and construction
plans detailed in the BOP’s Long Range Capacity Plan are funded as proposed, the over-crowding rate for
FY 2014 is projected to be 38 percent. Without the utilization of contract facilities and the BOP’s other
mitigating actions, the projected over-crowding rate would be 45 percent.




                                                       - 22 -
    Possible Effects of Existing, Currently Known Demands, Risks, Uncertainties,

                            Events, Conditions, and Trends


The Department’s leadership is committed to ensuring its programs and activities will continue to be focused
on meeting the dynamic demands of the changing legal, economic, and technological environments of the
future.

Technology
   • Advances in high-speed telecommunications, computers, and other technologies are creating new
      opportunities for criminals, new classes of crimes, and new challenges for law enforcement.

Economy
   •	 Possible increases in consumer debt or shortage of commercial credit may affect personal and business
      bankruptcy filings.
   •	 The Department’s role in the federal financial recovery effort may increase through criminal and civil
      litigation.
   •	 The interconnected nature of the world’s economy is increasing opportunities for criminal activity,
      including money laundering, white-collar crime, and alien smuggling.

Government
  •	 Changes in the fiscal posture or policies of state and local governments could have significant effects
      on the capacity of state and local governments to remain effective law enforcement partners.

Globalization
   •	 Issues of criminal and civil justice increasingly transcend national boundaries, require the cooperation
       of foreign governments, and involve treaty obligations, multinational environment and trade
       agreements, and other foreign policy concerns.

Social-Demographic
   •	 The numbers of adolescents and young adults, now the most crime-prone segment of the population,
       are expected to grow rapidly over the next several years.

American Recovery and Reinvestment Act
  •	 The Department received $4.0 billion in funding for programs, under the American Recovery and
      Reinvestment Act of 2009. In addition, $2.0 million was provided for the Department’s Office of the
      Inspector General oversight activities related to Recovery Act funding. The Department is fully
      committed to ensuring that the funds received are expended responsibly and in a transparent manner to
      further job creation, economic recovery, and other purposes of the Act.
  •	 Additional information regarding the Department’s Recovery Act activities can be found on:
      http://www.justice.gov/recovery/; government-wide Recovery Act information can also be found on:
      http://www.recovery.gov/Pages/home.aspx.




                                                 - 23 -
    •	 The following table summarizes appropriations, obligations, and outlays by component, as of
       September 30, 2010:

                                         (Dollars in Thousands)
Component                  Appropriation Amount              Obligations                       Outlays
OJP                              $2,761,930                  $2,761,464                       $1,916,510
OVW                                $225,564                    $223,384                          $71,218
COPS                             $1,002,506                  $1,002,264                         $140,730
ATF                                 $10,000                      $9,973                           $7,932
DOJ Total*                       $4,000,000                  $3,997,085                       $2,136,391**
   *Excludes $2 million in funding for OIG oversight.
   **Individual component outlays do not sum to total outlays due to rounding

Unpredictable
  •	 Overseas Contingency Operations require continual adjustments to new conditions. The Department
      is determined to proactively confront new challenges in its efforts to protect the Nation.
  •	 Responses to unanticipated natural disasters and their aftermath require the Department to divert
      resources to deter, investigate, and prosecute disaster-related federal crimes, such as charity fraud,
      insurance fraud and other crimes.
  •	 Changes in federal laws may affect responsibilities and workload.
   •	 Much of the litigation caseload is defensive. The Department has little control over the number, size,
      and complexity of the civil lawsuits it must defend.

                             Limitations of the Financial Statements

The principal financial statements have been prepared to report the financial position and results of operations
of the Department of Justice, pursuant to the requirements of 31 U.S.C. § 3515(b).

While the statements have been prepared from the books and records of the Department in accordance with
U.S. generally accepted accounting principles for federal entities and the formats prescribed by the OMB, the
statements are in addition to the financial reports used to monitor and control budgetary resources, which are
prepared from the same books and records.

The statements should be read with the realization that they are for a component of the United States
Government, a sovereign entity.




                                                       - 24 -
Independent Auditors’ Reports





          - 25 -
This page intentionally left blank.




               - 26 -
                                 KPMG LLP
                                 2001 M Street, NW
                                 Washington, DC 20036-3389




                        Independent Auditors’ Report on Financial Statements


Inspector General
U.S. Department of Justice


United States Attorney General
U.S. Department of Justice


We have audited the accompanying consolidated balance sheets of the U.S. Department of Justice
(Department) as of September 30, 2010 and 2009, and the related consolidated statements of net cost and
changes in net position, and the combined statements of budgetary resources and custodial activity
(hereinafter referred to as “consolidated financial statements”) for the years then ended. These
consolidated financial statements are the responsibility of the Department’s management. Our
responsibility is to express an opinion on these consolidated financial statements based on our audits. We
did not audit the financial statements of the following components of the Department: the U.S. Marshals
Service (USMS); the Federal Prison Industries, Inc. (FPI); and the Bureau of Alcohol, Tobacco, Firearms
and Explosives (ATF), which statements reflect total assets of $2.4 billion and total net costs of
$2.8 billion, as of and for the year ended September 30, 2010. Additionally, we did not audit the financial
statements of the USMS, which statements reflect total assets of $945.7 million and total net costs of
$1.3 billion as of and for the year ended September 30, 2009. Those financial statements were audited by
other auditors whose reports have been furnished to us, and our opinion, insofar as it relates to the amounts
included for those components, is based solely on the reports of the other auditors.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the consolidated financial statements are free of material misstatement. An audit includes
consideration of internal control over financial reporting as a basis for designing audit procedures that are
appropriate in the circumstances, but not for the purpose of expressing an opinion on the effectiveness of
the Department’s internal control over financial reporting. Accordingly, we express no such opinion. An
audit also includes examining, on a test basis, evidence supporting the amounts and disclosures in the
consolidated financial statements, assessing the accounting principles used and significant estimates made
by management, as well as evaluating the overall consolidated financial statement presentation. We
believe that our audits and the reports of the other auditors provide a reasonable basis for our opinion.

In our opinion, based on our audits and the reports of the other auditors, the consolidated financial
statements referred to above present fairly, in all material respects, the financial position of the U.S.
Department of Justice as of September 30, 2010 and 2009, and its net costs, changes in net position,
budgetary resources, and custodial activity for the years then ended in conformity with U.S. generally
accepted accounting principles.

                                                           - 27 -
                                  KPMG LLP is a Delaware limited liability partnership,
                                  the U.S. member firm of KPMG International Cooperative
                                  (“KPMG International”), a Swiss entity.
Independent Auditors’ Report on Financial Statements
Page 2




As discussed in Note 26 to the consolidated financial statements, the Department changed its method of
accounting for temporary rescissions of budgetary authority in fiscal year 2010.

The information in the Management’s Discussion and Analysis and Required Supplementary Stewardship
Information sections is not a required part of the consolidated financial statements, but is supplementary
information required by U.S. generally accepted accounting principles. We and the other auditors have
applied certain limited procedures, which consisted principally of inquiries of management regarding the
methods of measurement and presentation of this information. However, we and the other auditors did not
audit this information and, accordingly, we express no opinion on it.

Our audits were conducted for the purpose of forming an opinion on the consolidated financial statements
taken as a whole. The consolidating and combining information in the Consolidating and Combining
Financial Statements section is presented for purposes of additional analysis of the consolidated financial
statements rather than to present the financial position, net costs, changes in net position, budgetary
resources, and custodial activity of the Department’s components individually. The consolidating and
combining information has been subjected to the auditing procedures applied by us and the other auditors
in the audits of the consolidated financial statements and, in our opinion, based on our audits and the
reports of the other auditors, is fairly stated, in all material respects, in relation to the consolidated financial
statements taken as a whole. The information in the Introduction, FY 2010 Performance Report,
Management Section, and Appendices is presented for purposes of additional analysis and is not required as
part of the consolidated financial statements. This information has not been subjected to the auditing
procedures applied by us and the other auditors in the audits of the consolidated financial statements and,
accordingly, we express no opinion on it.

In accordance with Government Auditing Standards, we have also issued our reports dated November 9,
2010, on our consideration of the Department’s internal control over financial reporting and our tests of its
compliance with certain provisions of laws, regulations, contracts, and grant agreements and other matters.
The purpose of those reports is to describe the scope of our testing of internal control over financial
reporting and compliance and the results of that testing, and not to provide an opinion on the internal
control over financial reporting or on compliance. Those reports are an integral part of an audit performed
in accordance with Government Auditing Standards and should be read in conjunction with this report in
assessing the results of our audits.




November 9, 2010




                                                  - 28 -
                                 KPMG LLP
                                 2001 M Street, NW
                                 Washington, DC 20036-3389




             Independent Auditors’ Report on Internal Control over Financial Reporting


Inspector General
U.S. Department of Justice


United States Attorney General
U.S. Department of Justice


We have audited the consolidated balance sheets of the U.S. Department of Justice (Department) as of
September 30, 2010 and 2009, and the related consolidated statements of net cost and changes in net
position and the combined statements of budgetary resources and custodial activity (hereinafter referred to
as “consolidated financial statements”) for the years then ended, and have issued our report thereon dated
November 9, 2010. We did not audit the financial statements of the following components of the
Department: the U.S. Marshals Service (USMS); the Federal Prison Industries, Inc. (FPI); and the Bureau
of Alcohol, Tobacco, Firearms and Explosives (ATF) as of and for the year ended September 30, 2010.
Additionally, we did not audit the financial statements of the USMS as of and for the year ended
September 30, 2009. Those financial statements were audited by other auditors whose reports have been
furnished to us, and our report, insofar as it related to the amounts included for those components, was
based solely on the reports of the other auditors. As discussed in Note 26 to the consolidated financial
statements, the Department changed its method of accounting for temporary rescissions of budgetary
authority in fiscal year 2010.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the consolidated financial statements are free of material misstatement.

As stated above, we did not audit the fiscal year 2010 financial statements of the USMS, FPI, and ATF.
Those financial statements were audited by other auditors whose reports thereon, including the other
auditors’ Independent Auditors’ Report on Internal Control over Financial Reporting, have been furnished
to us. Accordingly, our report on the Department’s internal control over financial reporting, insofar as it
relates to those components, is based solely on the reports and findings of the other auditors.

The Department’s management is responsible for establishing and maintaining effective internal control.
In planning and performing our fiscal year 2010 audit, we considered the Department’s internal control
over financial reporting by obtaining an understanding of the Department’s internal control, determining
whether internal controls had been placed in operation, assessing control risk, and performing tests of
controls as a basis for designing our auditing procedures for the purpose of expressing our opinion on the
consolidated financial statements, but not for the purpose of expressing an opinion on the effectiveness of
the Department’s internal control over financial reporting. Accordingly, we do not express an opinion on

                                                           - 29 -
                                  KPMG LLP is a Delaware limited liability partnership,
                                  the U.S. member firm of KPMG International Cooperative
                                  (“KPMG International”), a Swiss entity.
Independent Auditors’ Report on Internal Control over Financial Reporting
Page 2




the effectiveness of the Department’s internal control over financial reporting. We did not test all internal
controls relevant to operating objectives as broadly defined by the Federal Managers’ Financial Integrity
Act of 1982.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis.

Our consideration of internal control over financial reporting was for the limited purpose described in the
fourth paragraph of this report and was not designed to identify all deficiencies in internal control over
financial reporting that might be deficiencies, significant deficiencies, or material weaknesses. In our fiscal
year 2010 audit, we did not, nor did the reports of the other auditors, identify any deficiencies in internal
control over financial reporting that we consider to be material weaknesses for the Department, as defined
above. However, we noted, and the reports of the other auditors identified, a deficiency in internal control
over financial reporting described in Exhibits I and II that we consider to be a significant deficiency in
internal control over financial reporting. A significant deficiency is a deficiency, or a combination of
deficiencies, in internal control that is less severe than a material weakness, yet important enough to merit
attention by those charged with governance.

Exhibit I is an overview of the significant deficiencies identified in the Department’s component auditors’
Independent Auditors’ Reports on Internal Control over Financial Reporting, and includes an explanation
of how these component-level significant deficiencies are reported at the Department level. Exhibit II
provides the details of the Department-wide significant deficiency. Exhibit III presents the status of prior
years’ findings and recommendations.

The Department’s responses to the finding identified in our audit are presented in Exhibit II. We did not
audit the Department’s responses and, accordingly, we express no opinion on them.

This report is intended solely for the information and use of the management of the U.S. Department of
Justice, the U.S. Department of Justice Office of the Inspector General, OMB, the U.S. Government
Accountability Office, and the U.S. Congress and is not intended to be and should not be used by anyone
other than these specified parties.




November 9, 2010




                                                - 30 -
Independent Auditors’ Report on Internal Control over Financial Reporting
Page 3

                                                                                                          EXHIBIT I


                                OVERVIEW OF SIGNIFICANT DEFICIENCY

The following table summarizes the four significant deficiencies identified by the Department’s component
auditors during fiscal year 2010. The component auditors considered one of these significant deficiencies to
be a material weakness. We analyzed the component-level material weakness and significant deficiencies to
determine their effect on the Department’s internal control over financial reporting and concluded that they
comprise one Department-wide significant deficiency.
                                                       D       A   O     U      O     D      F      A       B    F
              Significant Deficiencies                 O       F   B     S      J     E      B      T       O    P
           Noted During Fiscal Year 2010               J       F   D     M      P     A      I      F       P    I
                                                                   S     S                          (1)         (1)
                                                                         (1)

Improvements are needed in the Department’s                                                  S
component financial systems’ general controls.
Improvements are needed in the components’
internal controls to provide reasonable assurance
that transactions are properly recorded, processed,    S       S         M                          S
and summarized to permit the preparation of
financial statements in accordance with U.S.
generally accepted accounting principles.

Total Material Weaknesses                   FY 2010    1       0   0     1      0     0      0      0       0   0
Reported by Components’ Auditors            FY 2009    1       0   0     1      0     0      0      0       0   0

Total Significant Deficiencies              FY 2010    3       1   0     0      0     0      1      1       0   0
Reported by Components’ Auditors            FY 2009    7       1   1     1      1     1      0      0       1   1
Assets Forfeiture Fund and Seized Asset Deposit Fund (AFF); Offices, Boards and Divisions (OBDs); United States
Marshals Service (USMS); Office of Justice Programs (OJP); Drug Enforcement Administration (DEA); Federal Bureau
of Investigation (FBI); Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF); Federal Bureau of Prisons (BOP);
and Federal Prison Industries, Inc. (FPI).
Legend:
(1)
    The financial statements of the ATF and the FPI were audited by other auditors in FY 2010, and those of the USMS
were audited by other auditors in FYs 2010 and 2009.
M – Material weakness
S – Significant deficiency


In Exhibit II we discuss in detail the Department-wide significant deficiency noted above.




                                                      - 31 -
Independent Auditors’ Report on Internal Control over Financial Reporting
Page 4

                                                                                                    EXHIBIT II

                                      SIGNIFICANT DEFICIENCY

IMPROVEMENTS ARE NEEDED IN THE COMPONENTS’ INTERNAL CONTROLS TO PROVIDE REASONABLE
ASSURANCE THAT TRANSACTIONS ARE PROPERLY RECORDED, PROCESSED, AND SUMMARIZED TO
PERMIT THE PREPARATION OF FINANCIAL STATEMENTS IN ACCORDANCE WITH U.S. GENERALLY
ACCEPTED ACCOUNTING PRINCIPLES.

The Department and its component entities have made significant progress in addressing previously reported
material weaknesses and significant deficiencies. However, three of the component entities’ auditors continue
to report a material weakness and significant deficiencies in internal controls that inhibit the preparation of
financial statements in accordance with U.S. generally accepted accounting principles. As detailed below,
further improvement is needed in the following component entities’ internal controls to provide reasonable
assurance that transactions are properly recorded, processed, and summarized to permit the preparation of
financial statements in accordance with U.S. generally accepted accounting principles.

Funds Management Controls. The USMS does not have adequate financial and compliance controls to
ensure that obligation transactions are executed and recorded in accordance with laws and regulations and the
related undelivered orders and accounts payable balances are accurate and complete. The component auditors
identified accounting errors and instances of noncompliance with accounting standards, OMB Circular
No. A-11, Preparation, Submission and Execution of the Budget, and the United States Standard General
Ledger, as follows:

Undelivered Orders (UDOs). As a result of their interim and year-end testing, the component auditors
identified errors related to the accuracy of undelivered orders balances. Included in the errors identified by the
component auditors were: (1) UDOs that were overstated due to the failure to establish an accounts payable
upon receipt of the goods or services, (2) UDOs that were found to be invalid due to accounts payable accruals
or deobligations not having been recorded after the period of performance had expired, (3) UDOs that were
misstated due to the failure to record approved modification increases or deobligations not having been
recorded, (4) UDOs that were misstated because the recorded amounts did not agree with the underlying
source documents or unsupported because supporting documentation could not be provided, and (5) UDOs
that were misstated due to errors having been made in the calculation of accounts payable accruals. As a result
of these accounting errors, the USMS’s undelivered orders balances were misstated at quarter-end, as follows:

                    Sample Population                                          Likely Misstatement
Headquarters and District Offices (March 31, 2010)                 $20.5 million net overstatement
Headquarters (June 30, 2010)                                       $861 thousand net understatement
Headquarters and District Offices (September 30, 2010)             $18.7 million net overstatement




                                                  - 32 -
Independent Auditors’ Report on Internal Control over Financial Reporting
Page 5

                                                                                                      EXHIBIT II

Delivered Orders – Obligations Unpaid (Accounts Payable). As a result of their interim and year-end testing,
the component auditors identified accounting and recordkeeping errors related to the USMS’s accounts
payable accrual estimates. Included in the errors identified by the component auditors were accounts payable
that were incorrect or unsupported due to: (1) the failure to accrue for services received before quarter-end, (2)
the accrual methodology failing to take into consideration accruals that were already posted, and (3) lack of
supporting documentation . As a result of these accounting errors, the USMS’s accounts payable balance was
misstated at quarter-end, as follows:

                    Sample Population                                           Likely Misstatement
Headquarters and District Offices (March 31, 2010)                  $9.9 million net overstatement
Headquarters (June 30, 2010)                                        $6.3 million net understatement
Headquarters and District Offices (September 30, 2010)              $15.8 million net understatement

Prisoner Medical Obligations and Accounts Payable. The component auditors noted that the USMS does not
have consistent procedures or policies in place for estimating and recording medical obligations incurred by
the district offices. During the fiscal year, the USMS established Medical Services Procedures that were
scheduled to be implemented in July 2010 under a pilot program. These procedures were not implemented at
the time the component auditors conducted district office site visits during June and July. Based on
discussions with district office personnel during the site visits, the component auditors determined that district
offices were applying the same inconsistent procedures that the USMS has used in prior years.

Unauthorized Commitments. The component auditors noted that the USMS made unauthorized commitments
during the fiscal year in connection with projects related to security system monitoring, court security officers,
guard services, and prisoner medical services and prescriptions. These unauthorized commitments resulted in
16 contract ratifications totaling $2.3 million. In addition, 24 ratifications totaling $2.2 million were in process
pending receipt of additional documentation from the program offices. The Federal Acquisition Regulation
prohibits agencies from entering into contracts unless the contracting officer ensures that all requirements of
law, executive orders, regulations, and other applicable procedures have been satisfied. Unauthorized
commitments could result in Anti-Deficiency Act violations or other funds management concerns if sufficient
funds are not available to cover the unauthorized commitments.

Undelivered Orders and Accounts Payable. ATF’s internal controls need improvement to ensure that
undelivered orders are valid, accounts payable transactions are calculated correctly, and related account
balances are accurate and complete. The component auditors noted that ATF personnel are not adequately
reviewing and approving transactions before posting them to the general ledger, validating posted results to
ensure data accuracy, or monitoring undelivered orders to determine their validity.

As a result of their interim and year-end testing of undelivered orders and accounts payable balances, the
component auditors identified accounting errors and instances of noncompliance with accounting standards,
OMB Circular No. A-11, and the United States Standard General Ledger, including: (1) UDOs that were
misstated because accruals were calculated improperly, in duplicate, or not at all, (2) capital lease-related
UDOs that were overstated because the amount related to the capital lease liability should have been classified
as a budgetary accounts payable, (3) capital lease-related accounts payable that were overstated because
“receivers” were posted in the accounting system, creating accounts payable that duplicated the capital lease
liability that had already been recorded, and (4) UDOs and accounts payable that were incorrectly recorded
because vendor accruals were calculated incorrectly.




                                                   - 33 -
Independent Auditors’ Report on Internal Control over Financial Reporting
Page 6

                                                                                                 EXHIBIT II

As a result of these accounting errors, ATF’s undelivered orders and accounts payable balances were misstated
at quarter-end, as follows:

           Sample Population                                       Likely Misstatement
March 31, 2010                                 Undelivered Orders - $2.0 million net overstatement
                                               Accounts Payable - $550 thousand net overstatement
June 30, 2010                                  Undelivered Orders - $4.3 million net overstatement
                                               Accounts Payable - $7 thousand net overstatement
September 30, 2010                             Undelivered Orders - $404 thousand understatement
                                               Accounts Payable - $2.6 million overstatement

Seized and Forfeited Property. The component auditors noted that the AFF’s internal controls are in need of
improvement with respect to the: (1) status and valuation of seized and forfeited assets, and (2) deletion of
property records from the asset tracking system, as described below.

Internal Controls Related to Status and Valuation. In conducting interim and year-end tests of transactions
recorded in the Consolidated Asset Tracking System (CATS), the component auditors identified various
valuation and classification errors, including: (1) forfeited property items that were either misclassified or
improperly valued, (2) seized property items that were either misclassified or improperly valued, and (3) FIRE
assets that were improperly included in the seized asset footnote item count and dollar value disclosures (FIRE
assets are assets that have been Frozen, Indicted, Restrained, or Encumbered as part of a federal investigation
and are entered into CATS upon receipt of an indictment or temporary restraining order but have not yet been
seized by the investigative agency).

As a result of the valuation and classification errors noted above, the seized and forfeited property balances
were misstated as follows:

                          Sample Area                                          Likely Misstatement
June 30, 2010
            Seized property (cash and monetary instruments)          $2.3 million net overstatement
            Seized property (non-cash)                               $9.9 million net overstatement
August 31, 2010
            Forfeited property                                       $6.8 million net overstatement
            Seized property (non-cash)                               $7.9 million net overstatement
September 30, 2010
            Seized property (non-cash)                               $5.9 million net overstatement

Internal Controls Related to the Deletion of Records from CATS. In conducting tests related to the deletion of
property records from CATS, the component auditors noted that 8 out of 80 records were not supported by
evidence of authorization prior to their removal from CATS. If not properly authorized, such deletions could
result in misstatements in the notes to the AFF’s financial statements. In the cases at hand, there was no
financial statement (footnote) effect because valid explanations were provided; however, these explanations
were not supported by documentation authorizing the deletion of the records from CATS.




                                                 - 34 -
Independent Auditors’ Report on Internal Control over Financial Reporting
Page 7

                                                                                                  EXHIBIT II

Recommendations:

We recommend the Department:
1.	 Monitor the corrective actions taken by the USMS to improve the condition of its funds management
    controls, in response to the specific recommendations made in the component auditor’s Independent
    Auditors’ Report on Internal Control over Financial Reporting issued in connection with the audit of the
    USMS’s financial statements as of and for the year ended September 30, 2010. (Updated)

     Management Response:

    DOJ management concurs. The Justice Management Division will continue to work with the USMS to
    document and improve processes related to external reporting to include continued evaluation of their
    business processes and financial activities associated with accounts payable and undelivered orders. In
    FY 2011, the USMS’ Office of the Chief Financial Officer will continue to coordinate with relevant
    offices, external and internal, to ensure that advance reconciliations and analyses are performed at least
    quarterly and discrepancies resolved timely. The Audit Coordination and Remediation (ACR) team will
    continue to serve as an audit liaison, recommend and implement improvements in the funds management
    process, and advises the OCFO on remediation strategies. The USMS will continue its training efforts in
    FY 2011 to ensure staff and contractors understand their responsibilities for timely recording of
    obligations.

2.	 Assess the adequacy of the Department’s accounting, internal control, and financial reporting policies in
    the areas of: (1) seized and forfeited property, and (2) undelivered orders/accounts payable. Based on the
    results of this assessment, determine the need to issue new guidance and/or reiterate to the AFF and ATF
    the existing policies for those areas in which the components’ auditors identified significant deficiencies
    related to the recording of transactions and the preparation of financial statements in accordance with U.S.
    generally accepted accounting principles. Monitor the AFF’s and ATF’s adherence to the Department’s
    accounting and financial reporting policies and procedures throughout the year. (Updated)

    Management Response:

    DOJ management concurs. AFF will continue to work closely with asset forfeiture components to
    strengthen data entry and period end closing procedures to ensure that property and accounting systems
    reflect accurate information. In addition, data quality control teams will be used to help validate and
    review the accuracy of the entries. ATF is establishing stronger oversight to validate and review accounts
    payable, obligation, and deobligation transactions. Specifically, ATF is enhancing financial management
    policies and procedures to address the above finding and reiterate all transaction review and
    documentation requirements.

3.	 Continue efforts to implement a Department-wide integrated financial management system that is in
    compliance with the United States Government Standard General Ledger, conforms to the financial
    management system requirements established by OMB Circular A-127, Financial Management Systems,
    and can accommodate the requirements of applicable federal accounting standards. (Updated)

    Management Response:

    DOJ management concurs. The UFMS initiative is a keystone to the Department’s financial systems
    improvement planning for the future. UFMS is replacing the Department’s multiple core financial

                                                 - 35 -
Independent Auditors’ Report on Internal Control over Financial Reporting
Page 8

                                                                                              EXHIBIT II

   management and procurement systems with an integrated Commercial-Off-The-Shelf (COTS) solution,
   Momentum, provided by CGI, Federal Inc. Implementation of the UFMS will improve financial
   management and procurement operations through streamlining and standardizing business processes and
   procedures across all components. As of September 2010, UFMS supported more than 2,000 users
   worldwide, including the DEA (fully implemented), BOP (UFMS Acquisitions), Marshals Service (UFMS
   Acquisitions), and Asset Forfeiture Program (pilot program). October 2010 the ATF went live on
   schedule and within budget with a full UFMS implementation. JMD and DOJ senior leadership meets on
   a regular basis to discuss and address the challenges and risks associated with the implementation of the
   UFMS across the Department (excluding FPI).




                                               - 36 -
Independent Auditors’ Report on Internal Control over Financial Reporting
Page 9

                                                                                                EXHIBIT III

               STATUS OF PRIOR YEARS’ FINDINGS AND RECOMMENDATIONS

As required by Government Auditing Standards issued by the Comptroller General of the United States, and
by OMB Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as amended, we have
reviewed the status of prior years’ findings and recommendations. The following table provides our
assessment of the progress DOJ has made in correcting the previously identified significant deficiencies. We
also provide the Office of the Inspector General report number where the deficiency was reported, our
recommendation for improvement, and the status of the recommendation as of the end of fiscal year 2010:

                  Significant
  Report                                            Recommendation                            Status
                  Deficiency
 Annual      Improvements are       Recommendation No. 5: Continue efforts to                In Process
 Financial   needed in the          implement a Department-wide integrated financial        (Updated by
 Statement   components’            management system that is in compliance with the      Fiscal Year 2010
 Fiscal      internal controls to   United States Government Standard General             Recommendation
 Year        provide reasonable     Ledger, conforms to the financial management               No. 3)
 2007        assurance that         systems requirements established by the Financial
 Report      transactions are       Systems Integration Office (formerly the Joint
 No. 08-01   properly recorded,     Financial Management Improvement Program),
             processed, and         and can accommodate the requirements of
             summarized to          applicable Federal accounting standards.
             permit the
             preparation of
             financial statements
             in accordance with
             generally accepted
             accounting
             principles


Annual    Improvements are          Recommendation No. 1: Require the                       Completed*
Financial needed in the             components to submit and implement corrective
Statement Department’s              action plans that address the weaknesses identified
Fiscal    component financial       above. The corrective action plans should focus
Year 2009 management                on correcting the deficiencies in access controls
Report    systems’ general          and configuration management discussed in the
No. 10-05 and application           component auditors’ Independent Auditors’
          controls                  Reports on Internal Control over Financial
                                    Reporting, to the extent that the significant
                                    deficiencies had not been remediated prior to the
                                    end of the fiscal year. The corrective action plans
                                    should also include a timeline that establishes
                                    when major events must be completed. The
                                    Department’s CIO should monitor the
                                    components’ efforts to correct deficiencies, hold
                                    them accountable for meeting the action plan
                                    timelines, and ensure the corrective actions are
                                    implemented adequately to address the noted
                                    deficiencies.
                                                - 37 -
Independent Auditors’ Report on Internal Control over Financial Reporting
Page 10

                                                                                                 EXHIBIT III


                  Significant
  Report                                            Recommendation                             Status
                  Deficiency
Annual       Improvements are       Recommendation No. 2: Monitor the corrective              In Process
Financial    needed in the          actions taken by the USMS to improve the                 (Updated by
Statement    components’            condition of its funds management controls, in         Fiscal Year 2010
Fiscal       internal controls to   response to the specific recommendations made in       Recommendation
Year 2009    provide reasonable     the component auditor’s Independent Auditors’               No. 1)
Report       assurance that         Report on Internal Control over Financial
No. 10-05    transactions are       Reporting issued in connection with the audit of
             properly recorded,     the USMS’s financial statements as of and for the
             processed, and         year ended September 30, 2009.
             summarized to          Recommendation No. 3: Assess the adequacy of              In Process
             permit the             the Department’s accounting, internal control, and       (Updated by
             preparation of         financial reporting policies in the areas of:          Fiscal Year 2010
             financial statements   (1) seized and forfeited property, (2) budgetary       Recommendation
             in accordance with     upward and downward adjustments,                            No. 2)
             generally accepted     (3) deobligation of funds, (4) inventory controls,
             accounting             and (5) consideration of economic factors in the
             principles             funding analysis journal entry process. Based on
                                    the results of this assessment, determine the need
                                    to issue new guidance and/or reiterate to
                                    components the existing policies for those areas in
                                    which the components’ auditors identified
                                    significant deficiencies related to the recording of
                                    transactions and the preparation of financial
                                    statements in accordance with generally accepted
                                    accounting principles. Monitor the components’
                                    adherence to the Department’s accounting and
                                    financial reporting policies and procedures
                                    throughout the year.

*Sufficient progress has been made in addressing this finding and the related recommendation such that the
remaining risk of misstatement is inconsequential. Therefore, the condition has been downgraded to a control
deficiency.




                                                - 38 -
                                 KPMG LLP
                                 2001 M Street, NW
                                 Washington, DC 20036-3389




                  Independent Auditors’ Report on Compliance and Other Matters


Inspector General
U.S. Department of Justice


United States Attorney General
U.S. Department of Justice


We have audited the consolidated balance sheets of the U.S. Department of Justice (Department) as of
September 30, 2010 and 2009, and the related consolidated statements of net cost and changes in net
position and the combined statements of budgetary resources and custodial activity (hereinafter referred to
as the “consolidated financial statements”) for the years then ended, and have issued our report thereon
dated November 9, 2010. We did not audit the financial statements of the following components of the
Department: the U.S. Marshals Service (USMS); the Federal Prison Industries, Inc. (FPI); and the Bureau
of Alcohol, Tobacco, Firearms and Explosives (ATF) as of and for the year ended September 30, 2010.
Additionally, we did not audit the financial statements of the USMS as of and for the year ended
September 30, 2009. Those financial statements were audited by other auditors whose reports have been
furnished to us, and our report, insofar as it related to the amounts included for those components, was
based solely on the reports of the other auditors. As discussed in Note 26 to the consolidated financial
statements, the Department changed its method of accounting for temporary rescissions of budgetary
authority in fiscal year 2010.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether
the consolidated financial statements are free of material misstatement.

As stated above, we did not audit the fiscal year 2010 financial statements of the USMS, FPI, and ATF.
Those financial statements were audited by other auditors whose reports thereon, including the other
auditors’ Independent Auditors’ Report on Compliance and Other Matters, have been furnished to us.
Accordingly, our report on the Department’s compliance and other matters, insofar as it relates to those
components, is based solely on the reports and findings of the other auditors.

The management of the Department is responsible for complying with laws, regulations, contracts, and
grant agreements applicable to the Department. As part of obtaining reasonable assurance about whether
the Department’s fiscal year 2010 consolidated financial statements are free of material misstatement, we
and the other auditors performed tests of the Department’s compliance with certain provisions of laws,
regulations, contracts, and grant agreements, noncompliance with which could have a direct and material
effect on the determination of the consolidated financial statement amounts, and certain provisions of other
laws and regulations specified in OMB Bulletin No. 07-04, including the provisions referred to in

                                                           - 39 -
                                  KPMG LLP is a Delaware limited liability partnership,
                                  the U.S. member firm of KPMG International Cooperative
                                  (“KPMG International”), a Swiss entity.
Independent Auditors’ Report on Compliance and Other Matters
Page 2




Section 803(a) of the Federal Financial Management Improvement Act of 1996 (FFMIA). We and the
other auditors limited our tests of compliance to the provisions described in the preceding sentence, and we
did not test compliance with all laws, regulations, contracts, and grant agreements applicable to the
Department. However, providing an opinion on compliance with those provisions was not an objective of
our audit, and accordingly, we do not express such an opinion.

The results of our and the other auditors’ tests of compliance described in the preceding paragraph,
exclusive of those referred to in FFMIA, disclosed no instances of noncompliance or other matters that are
required to be reported herein under Government Auditing Standards or OMB Bulletin No. 07-04.

The results of our and the other auditors’ tests of FFMIA disclosed no instances in which the Department’s
financial management systems did not substantially comply with the (1) Federal financial management
system requirements, (2) applicable Federal accounting standards, and (3) application of the United States
Government Standard General Ledger at the transaction level.

This report is intended solely for the information and use of the management of the U.S. Department of
Justice, the U.S. Department of Justice Office of the Inspector General, OMB, the U.S. Government
Accountability Office, and the U.S. Congress and is not intended to be and should not be used by anyone
other than these specified parties.




November 9, 2010




                                              - 40 -
          Principal Financial Statements
                and Related Notes

See Independent Auditors’ Report on Financial Statements




                       - 41 -
                                                    U. S. Department of Justice

                                                   Consolidated Balance Sheets

                                                As of September 30, 2010 and 2009


Dollars in Thousands                                                                                           2010             2009

ASSETS (Note 2)
      Intragovernmental
          Fund Balance with U.S. Treasury (Note 3)                                            $         23,596,587    $   20,857,015
          Investments, Net (Note 5)                                                                      4,061,733         3,842,785
          Accounts Receivable, Net (Note 6)                                                                302,310           326,410
          Other Assets (Note 10)                                                                           122,664           130,988
      Total Intragovernmental                                                                           28,083,294        25,157,198

      Cash and Monetary Assets (Note 4)                                                                    245,283           229,794
      Accounts Receivable, Net (Note 6)                                                                     87,260            79,824
      Inventory and Related Property, Net (Note 7)                                                         237,347           298,701
      Forfeited Property, Net (Note 8)                                                                     189,122           226,843
      General Property, Plant and Equipment, Net (Note 9)                                                9,741,154         9,215,026
      Advances and Prepayments                                                                           1,501,404         1,415,521
      Other Assets (Note 10)                                                                                 5,826             4,921
Total Assets                                                                                   $       40,090,690     $   36,627,828

LIABILITIES (Note 11)
      Intragovernmental
          Accounts Payable                                                                    $            273,619    $      309,072
          Accrued Federal Employees' Compensation Act Liabilities                                          243,446           236,258
          Custodial Liabilities (Note 22)                                                                  331,172           136,106
          Other Liabilities (Note 15)                                                                      958,914           545,205
      Total Intragovernmental                                                                            1,807,151         1,226,641

      Accounts Payable                                                                                   2,520,022         2,253,013
      Accrued Grant Liabilities                                                                            530,823           431,219
      Actuarial Federal Employees' Compensation Act Liabilities                                          1,314,105         1,233,899
      Accrued Payroll and Benefits                                                                         594,981           522,704
      Accrued Annual and Compensatory Leave Liabilities                                                    826,881           782,177
      Environmental and Disposal Liabilities (Note 12)                                                      71,657            22,316
      Deferred Revenue                                                                                     502,119           498,308
      Seized Cash and Monetary Instruments (Note 14)                                                     1,470,383         1,491,660
      Contingent Liabilities (Note 16)                                                                     101,760           172,653
      Capital Lease Liabilities (Note 13)                                                                   33,649            42,221
      Radiation Exposure Compensation Act Liabilities                                                      541,784           343,835
      Other Liabilities (Note 15)                                                                          259,822           175,865
Total Liabilities                                                                              $       10,575,137     $    9,196,511

NET POSITION
      Unexpended Appropriations - Earmarked Funds (Note 17)                                   $             19,585    $       22,207
      Unexpended Appropriations - All Other Funds                                                       13,791,272        13,902,525
      Cumulative Results of Operations - Earmarked Funds (Note 17)                                       7,636,045         5,631,023
      Cumulative Results of Operations - All Other Funds                                                 8,068,651         7,875,562
Total Net Position                                                                             $       29,515,553     $   27,431,317

Total Liabilities and Net Position                                                             $       40,090,690     $   36,627,828




                                  The accompanying notes are an integral part of these financial statements.




                                                                  - 42 -
                                                 U. S. Department of Justice

                                            Consolidated Statements of Net Cost

                                  For the Fiscal Years Ended September 30, 2010 and 2009


Dollars in Thousands

                                     Gross Costs                                     Less: Earned Revenues                         Net Cost of
                       Intra­         With the                              Intra-         With the                                Operations
           FY      governmental         Public             Total        governmental         Public                Total           (Note 18)



Goal 1    2010     $ 1,358,260      $    4,187,272    $    5,545,532    $     474,421    $       32,042        $    506,463    $     5,039,069
          2009     $ 1,133,358      $    3,392,193    $    4,525,551    $     533,229    $       26,729        $    559,958    $     3,965,593



Goal 2    2010        3,464,016         13,201,427        16,665,443          751,806           736,287            1,488,093        15,177,350
          2009        3,482,029         11,395,987        14,878,016          769,559           620,025            1,389,584        13,488,432



Goal 3    2010        2,113,376         10,436,797        12,550,173          801,044           480,246            1,281,290        11,268,883
          2009        1,969,386          9,901,438        11,870,824          921,473           443,580            1,365,053        10,505,771



Total     2010     $ 6,935,652      $ 27,825,496      $ 34,761,148      $   2,027,271    $    1,248,575        $   3,275,846   $ 31,485,302
          2009     $ 6,584,773      $ 24,689,618      $ 31,274,391      $   2,224,261    $    1,090,334        $   3,314,595   $ 27,959,796



Goal 1: Prevent Terrorism and Promote the Nation's Security
Goal 2: Prevent Crime, Enforce Federal Laws, and Represent the Rights and Interests of the American People
Goal 3: Ensure the Fair and Efficient Administration of Justice




                                  The accompanying notes are an integral part of these financial statements.


                                                                   - 43 -
                                                    U. S. Department of Justice

                                         Consolidated Statements of Changes in Net Position

                                           For the Fiscal Year Ended September 30, 2010


Dollars in Thousands

                                                                                                  2010
                                                        Earmarked                 All Other
                                                          Funds                    Funds                     Eliminations           Total
Unexpended Appropriations
  Beginning Balances                                $            22,207      $         13,902,525        $                  -   $    13,924,732

  Budgetary Financing Sources
     Appropriations Received                                     90,312                 28,251,841                          -         28,342,153
     Appropriations Transferred-In/Out                                -                    510,516                          -            510,516
     Other Adjustments                                           (9,001)                  (144,750)                         -           (153,751)
     Appropriations Used                                        (83,933)               (28,728,860)                         -        (28,812,793)

  Total Budgetary Financing Sources                              (2,622)                  (111,253)                         -          (113,875)

  Unexpended Appropriations                         $            19,585      $         13,791,272        $                  -   $    13,810,857



Cumulative Results of Operations
  Beginning Balances                                $         5,631,023      $           7,875,562       $                  -   $    13,506,585

  Adjustments (Note 26)
    Changes in Accounting Principles                                   -                   (46,588)                         -            (46,588)

  Beginning Balances, as Adjusted                             5,631,023                  7,828,974                          -        13,459,997

  Budgetary Financing Sources
     Appropriations Used                                         83,933                28,728,860                           -        28,812,793
     Nonexchange Revenues                                     2,366,521                       932                           -         2,367,453
     Donations and Forfeitures of Cash and
        Cash Equivalents                                      1,502,466                          -                          -         1,502,466
     Transfers-In/Out Without Reimbursement                           -                     75,097                          -            75,097

  Other Financing Sources
     Donations and Forfeitures of Property                       70,864                        340                          -               71,204
     Transfers-In/Out Without Reimbursement                     (31,173)                    29,284                          -               (1,889)
     Imputed Financing from Costs Absorbed
        by Others (Note 19)                                      12,161                   918,164                  (27,448)             902,877
  Total Financing Sources                                     4,004,772                29,752,677                  (27,448)          33,730,001

  Net Cost of Operations                                     (1,999,750)               (29,513,000)                 27,448           (31,485,302)

  Net Change                                                  2,005,022                    239,677                          -         2,244,699

  Cumulative Results of Operations                  $         7,636,045      $           8,068,651       $                  -   $    15,704,696

Net Position                                        $         7,655,630      $         21,859,923        $                  -   $    29,515,553




                                    The accompanying notes are an integral part of these financial statements.



                                                                   - 44 -
                                                    U. S. Department of Justice

                                         Consolidated Statements of Changes in Net Position

                                           For the Fiscal Year Ended September 30, 2009


Dollars in Thousands

                                                                                                  2009
                                                        Earmarked                 All Other
                                                          Funds                    Funds                     Eliminations           Total
Unexpended Appropriations
  Beginning Balances                                $            44,902      $           9,169,075       $                  -   $     9,213,977

  Budgetary Financing Sources
     Appropriations Received                                    125,076                 30,327,827                          -         30,452,903
     Appropriations Transferred-In/Out                                -                    535,342                          -            535,342
     Other Adjustments                                                -                   (231,068)                         -           (231,068)
     Appropriations Used                                       (147,771)               (25,898,651)                         -        (26,046,422)

  Total Budgetary Financing Sources                             (22,695)                 4,733,450                          -         4,710,755

  Unexpended Appropriations                         $            22,207      $         13,902,525        $                  -   $    13,924,732



Cumulative Results of Operations
  Beginning Balances                                $         4,052,221      $           7,462,291       $                  -   $    11,514,512

  Budgetary Financing Sources
     Appropriations Used                                        147,771                25,898,651                           -        26,046,422
     Nonexchange Revenues                                     1,756,595                     1,171                           -         1,757,766
     Donations and Forfeitures of Cash and
        Cash Equivalents                                      1,376,423                          -                          -         1,376,423
     Transfers-In/Out Without Reimbursement                           -                     89,948                          -            89,948
     Other Budgetary Financing Sources                                -                   (100,000)                         -          (100,000)

  Other Financing Sources
     Donations and Forfeitures of Property                       68,145                         68                          -               68,213
     Transfers-In/Out Without Reimbursement                     (42,202)                    51,599                          -                9,397
     Imputed Financing from Costs Absorbed
        by Others (Note 19)                                      10,573                    721,476                 (28,349)             703,700
  Total Financing Sources                                     3,317,305                26,662,913                  (28,349)          29,951,869

  Net Cost of Operations                                     (1,738,503)               (26,249,642)                 28,349           (27,959,796)

  Net Change                                                  1,578,802                    413,271                          -         1,992,073

  Cumulative Results of Operations                  $         5,631,023      $           7,875,562       $                  -   $    13,506,585

Net Position                                        $         5,653,230      $         21,778,087        $                  -   $    27,431,317




                                    The accompanying notes are an integral part of these financial statements.



                                                                   - 45 -
                                             U. S. Department of Justice

                                   Combined Statements of Budgetary Resources

                              For the Fiscal Years Ended September 30, 2010 and 2009


Dollars in Thousands                                                                                  2010             2009

Budgetary Resources

  Unobligated Balance, Net, Brought Forward, October 1                               $          4,046,852    $    3,549,862

  Recoveries of Prior Year Unpaid Obligations                                                     766,846           956,534

  Budget Authority
     Appropriations Received                                                                   32,769,570        34,394,369
     Spending Authority from Offsetting Collections
        Earned
            Collected                                                                           7,071,984         6,833,760
            Change in Receivables from Federal Sources                                           (133,650)          121,266
        Change in Unfilled Customer Orders
            Advance Received                                                                      (46,906)         (245,721)
            Without Advance from Federal Sources                                                  (31,324)          (32,542)
  Subtotal Budget Authority                                                                    39,629,674        41,071,132

  Nonexpenditure Transfers, Net, Anticipated and Actual                                           585,613           625,290

  Temporarily not Available Pursuant to Public Law                                             (2,041,625)        (1,295,083)

  Permanently not Available                                                                      (154,303)         (331,080)

Total Budgetary Resources (Note 20)                                                  $        42,833,057     $   44,576,655

Status of Budgetary Resources

  Obligations Incurred
    Direct                                                                           $         32,257,303    $   34,077,757
    Reimbursable                                                                                6,536,456         6,452,046
        Total Obligations Incurred (Note 20)                                                   38,793,759        40,529,803

  Unobligated Balance - Available
    Apportioned                                                                                 2,739,193         2,646,548
    Exempt from Apportionment                                                                     120,016           101,425
        Total Unobligated Balance - Available                                                   2,859,209         2,747,973

  Unobligated Balance not Available                                                             1,180,089         1,298,879

Total Status of Budgetary Resources                                                  $        42,833,057     $   44,576,655




                              The accompanying notes are an integral part of these financial statements.


                                                             - 46 -
                                             U. S. Department of Justice

                              Combined Statements of Budgetary Resources - Continued

                              For the Fiscal Years Ended September 30, 2010 and 2009


Dollars in Thousands                                                                                   2010             2009

Change in Obligated Balance

   Obligated Balance, Net - Brought Forward, October 1
      Unpaid Obligations                                                              $         17,646,368    $   13,268,917
      Less: Uncollected Customer Payments from Federal Sources                                   1,918,071         1,829,346
          Total Unpaid Obligated Balance, Net - Brought Forward, October 1                      15,728,297        11,439,571

   Obligations Incurred                                                                         38,793,759        40,529,803

   Less: Gross Outlays                                                                          37,913,953        35,195,818

   Less: Recoveries of Prior Year Unpaid Obligations, Actual                                       766,846           956,534

   Change in Uncollected Customer Payments from Federal Sources                                    164,974           (88,725)

   Obligated Balance, Net - End of Period
      Unpaid Obligations                                                                        17,759,329        17,646,368
      Less: Uncollected Customer Payments from Federal Sources                                   1,753,098         1,918,071
          Total Unpaid Obligated Balance, Net - End of Period                         $         16,006,231    $   15,728,297


Net Outlays
   Gross Outlays                                                                      $         37,913,953    $   35,195,818
   Less: Offsetting Collections                                                                  7,025,077         6,588,035
   Less: Distributed Offsetting Receipts (Note 20)                                                 941,368           539,325
Total Net Outlays (Note 20)                                                           $        29,947,508     $   28,068,458




                               The accompanying notes are an integral part of these financial statements.



                                                               - 47 -
                                                  U. S. Department of Justice

                                          Combined Statements of Custodial Activity

                                   For the Fiscal Years Ended September 30, 2010 and 2009


Dollars in Thousands
Revenue Activity
Sources of Cash Collections
    Delinquent Federal Civil Debts as Required by the Federal
        Debt Recovery Act of 1986                                                                      $        4,789,655     $   2,884,775
    Fees and Licenses                                                                                              28,985            29,224
    Fines, Penalties and Restitution Payments - Civil                                                               5,985            44,979
    Fines, Penalties and Restitution Payments - Criminal                                                           33,048            22,997
    Miscellaneous                                                                                                     704               357
        Total Cash Collections                                                                                  4,858,377         2,982,332
Accrual Adjustments                                                                                                   271               188
Total Custodial Revenue                                                                                         4,858,648         2,982,520

Disposition of Collections
    Transferred to Federal Agencies
         U.S. Department of Agriculture                                                                            (84,620)          (92,073)
         U.S. Department of Commerce                                                                                (1,725)             (771)
         U.S. Department of the Interior                                                                          (283,244)          (25,059)
         U.S. Department of Justice                                                                               (510,634)         (123,787)
         U.S. Department of Labor                                                                                   (3,537)             (528)
         U.S. Postal Service                                                                                        (6,762)           (4,435)
         U.S. Department of State                                                                                     (199)                -
         U.S. Department of the Treasury                                                                          (606,978)         (368,790)
         Office of Personnel Management                                                                            (46,636)          (19,833)
         National Credit Union Administration                                                                            -              (470)
         Federal Communications Commission                                                                          (2,693)           (9,773)
         Social Security Administration                                                                             (3,558)             (982)
         Smithsonian Institution                                                                                      (209)               (8)
         U.S. Department of Veterans Affairs                                                                       (35,068)          (28,710)
         General Services Administration                                                                            (4,008)         (116,631)
         Securities and Exchange Commission                                                                             (2)               (4)
         Federal Deposit Insurance Corporation                                                                         (42)           (1,958)
         Railroad Retirement Board                                                                                    (143)             (335)
         Tennessee Valley Authority                                                                                      -            (4,207)
         Environmental Protection Agency                                                                          (720,010)         (223,334)
         U.S. Department of Transportation                                                                            (765)           (1,357)
         U.S. Department of Homeland Security                                                                      (30,872)          (17,169)
         Agency for International Development                                                                       (2,155)                -
         Small Business Administration                                                                              (5,360)           (5,332)
         U.S. Department of Health and Human Services                                                           (1,528,861)       (1,367,320)
         National Aeronautics and Space Administration                                                              (2,859)           (2,957)
         Export-Import Bank of the United States                                                                    (4,704)                -
         U.S. Department of Housing and Urban Development                                                          (25,985)          (18,347)
         U.S. Department of Energy                                                                                  (2,281)           (4,065)
         U.S. Department of Education                                                                              (63,002)          (18,003)
         Independent Agencies                                                                                      (54,493)          (54,916)
         U.S. Department of Defense                                                                               (112,640)         (113,023)
    Transferred to the Public                                                                                     (391,304)         (329,816)
    (Increase)/Decrease in Amounts Yet to be Transferred                                                          (210,508)           55,568
    Refunds and Other Payments                                                                                     (11,016)             (918)
    Retained by the Reporting Entity                                                                              (101,775)          (83,177)
Net Custodial Activity (Note 22)                                                                       $                 -    $            -




                                   The accompanying notes are an integral part of these financial statements.


                                                                  - 48 -
                FY 2010 U. S. Department of Justice Annual Financial Statements

                                  Notes to the Financial Statements
                                 (Dollars in Thousands, Except as Noted)

Note 1. Summary of Significant Accounting Policies

A.     Reporting Entity

       The Department of Justice (Department) has a wide range of responsibilities which include: detecting,
       apprehending, prosecuting, and incarcerating criminal offenders; operating federal prison factories;
       upholding the civil rights of all Americans; enforcing laws to protect the environment; ensuring healthy
       competition of business in the United States’ free enterprise system; safeguarding the consumer from
       fraudulent activity; carrying out the immigration laws of the United States; and representing the
       American people in all legal matters involving the U.S. Government. Under the direction of the
       Attorney General, these responsibilities are discharged by the components of the Department.

       For purposes of these consolidated/combined financial statements, the following components comprise
       the Department’s reporting entity:

              Assets Forfeiture Fund and Seized Asset Deposit Fund (AFF/SADF)
              Offices, Boards and Divisions (OBDs)
              U.S. Marshals Service (USMS)
              Office of Justice Programs (OJP)
              Drug Enforcement Administration (DEA)
              Federal Bureau of Investigation (FBI)
              Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF)
              Bureau of Prisons (BOP)
              Federal Prison Industries, Inc. (FPI)

       The American Recovery and Reinvestment Act of 2009 (ARRA) (Public Law 111-5) was signed into
       law by President Obama on February 17, 2009. As one of its many elements, the Recovery Act
       provides the Department with funding for grants to assist state, local, and tribal law enforcement
       (including support for hiring), to combat violence against women, to fight internet crimes against
       children, to improve the functioning of the criminal justice system, to assist victims of crime, and to
       support youth mentoring.




                              These notes are an integral part of the financial statements.


                                                    - 49 -
              FY 2010 U. S. Department of Justice Annual Financial Statements

                                 Notes to the Financial Statements
                                 (Dollars in Thousands, Except as Noted)

B.   Basis of Presentation

     These financial statements have been prepared from the books and records of the Department in
     accordance with United States generally accepted accounting principles issued by the Federal Accounting
     Standards Advisory Board (FASAB) and presentation guidelines in the Office of Management and Budget
     (OMB) Circular A-136, Financial Reporting Requirements. These financial statements are different from
     the financial reports prepared pursuant to OMB directives which are used to monitor and control the use of
     the Department’s budgetary resources. The accompanying financial statements include the accounts of all
     funds under the Department’s control. To ensure that the Department financial statements are meaningful
     at the entity level and to enhance reporting consistency within the Department, Other Assets and Other
     Liabilities as defined by OMB Circular A-136 have been disaggregated on the balance sheet. These
     include Forfeited Property, Net; Advances and Prepayments; Accrued Grant Liabilities; Accrued Federal
     Employees’ Compensation Act Liabilities; Custodial Liabilities; Accrued Payroll and Benefits; Accrued
     Annual and Compensatory Leave Liabilities; Deferred Revenue; Seized Cash and Monetary Instruments;
     Contingent Liabilities; Capital Lease Liabilities; and Radiation Exposure Compensation Act Liabilities.

C.   Basis of Consolidation

     The consolidated/combined financial statements of the Department include the accounts of the
     AFF/SADF, OBDs, USMS, OJP, DEA, FBI, ATF, BOP, and FPI. All significant proprietary
     intra-departmental transactions and balances have been eliminated in consolidation. The Statements of
     Budgetary Resources and Statements of Custodial Activity are combined statements for FYs 2010 and
     2009, and as such, intra-departmental transactions have not been eliminated.

D.   Basis of Accounting

     Transactions are recorded on the accrual and budgetary bases of accounting. Under the accrual basis,
     revenues are recorded when earned and expenses are recorded when incurred, regardless of when cash
     is exchanged. Under the budgetary basis, however, funds availability is recorded based upon legal
     considerations and constraints. As a result, certain line items on the proprietary financial statements
     may not equal similar line items on the budgetary financial statements. FPI is non-appropriated and
     self-sustaining. While FPI performs budgetary accounting in preparing its financial statements, FPI
     does not record budgetary information at the transaction level.

     Custodial activity reported on the Combined Statement of Custodial Activity is prepared on the
     modified cash basis. Civil and Criminal Debt Collections are recorded when the Department receives
     payment from debtors. Accrual adjustments are made related to collections of fees and licenses.




                              These notes are an integral part of the financial statements.


                                                          - 50 -
                 FY 2010 U. S. Department of Justice Annual Financial Statements

                                  Notes to the Financial Statements
                                  (Dollars in Thousands, Except as Noted)

D. Basis of Accounting (continued)

   The financial statements should be read with the realization that they are for a component of the U.S.
   Government, a sovereign entity. One implication of this is that liabilities cannot be liquidated without
   legislation that provides resources and legal authority to do so.

E. Non-Entity Assets

   Non-entity assets are not available for use by the Department and consist primarily of restricted undisbursed
   civil and criminal debt collections, seized cash, accounts receivable, and other monetary assets.

F. Fund Balance with U.S. Treasury and Cash

   Funds with the Department of the Treasury (Treasury) represent primarily appropriated, revolving, and trust
   funds available to pay current liabilities and finance future authorized purchases. The Treasury, as directed
   by authorized certifying officers, processes cash receipts and disbursements. The Department does not, for
   the most part, maintain cash in commercial bank accounts. Certain receipts, however, are processed by
   commercial banks for deposit into individual accounts maintained at the Treasury. The Department’s cash
   and other monetary assets consist of undeposited collections, imprest funds, cash used in undercover
   operations, cash held as evidence, and seized cash.

G. Investments

   Investments are market-based Treasury securities issued by the Bureau of Public Debt. When securities are
   purchased, the investment is recorded at face value (the value at maturity). The Department’s intent is to
   hold investments to maturity, unless securities are needed to sustain operations. No provision is made for
   unrealized gains or losses on these securities because, in the majority of cases, they are held to maturity.
   The market value of the investments is the current market value at the end of the reporting period. It is
   calculated by using the “End of Day” price listed in The FedInvest Price File which can be found on the
   Bureau of Public Debt website (http://www.fedinvest.gov/). Investments are reported on the Consolidated
   Balance Sheet at their net value, the face value plus or minus any unamortized premium or discount.
   Premiums and discounts are amortized over the life of the Treasury security. Amortization is based on the
   straight-line method over the term of the securities.

   The AFF, the U.S. Trustee System Fund, and the Federal Prison Commissary Fund are three earmarked
   funds that invest in Treasury securities. The Treasury does not set aside assets to pay future expenditures
   associated with earmarked funds. Instead, the cash generated from earmarked funds is used by the Treasury
   for general Government purposes. When these earmarked funds redeem their Treasury securities to make
   expenditures, the Treasury will finance the expenditures in the same manner that it finances all other
   expenditures.




                               These notes are an integral part of the financial statements.


                                                     - 51 -
               FY 2010 U. S. Department of Justice Annual Financial Statements

                                Notes to the Financial Statements
                                (Dollars in Thousands, Except as Noted)

G.   Investments (continued)

     Treasury securities are issued to the earmarked funds as evidence of earmarked receipts and provide the 

     funds with the authority to draw upon the U.S. Treasury for future authorized expenditures.

     Treasury securities held by an earmarked fund are an asset of the fund and a liability of the Treasury, so

     they are eliminated in consolidation for the U.S. Government-wide financial statements.


H.   Accounts Receivable

     Net accounts receivable includes reimbursement and refund receivables due from federal agencies and
     others, less the allowance for doubtful accounts. Generally, most intragovernmental accounts
     receivable are considered fully collectible. The allowance for doubtful accounts for public receivables
     is estimated based on past collection experience and analysis of outstanding receivable balances at year
     end.

I.   Inventory and Related Property

     Inventory is maintained primarily for the manufacture of goods for sale to customers. This inventory is
     composed of three categories: Raw Materials, Work in Process, and Finished Goods. Raw material
     inventory value is based upon moving average costs. Inventories are valued at the lower of average cost
     or market value (LCM) and include materials, labor and manufacturing overhead. Market value is
     calculated on the basis of the contractual or anticipated selling price, less allowance for administrative
     expenses. DOJ values its finished goods and sub-assembly items at a standard cost that is periodically
     adjusted to approximate actual cost. DOJ has established inventory allowances to account for LCM
     adjustments and obsolete items that may not be utilized in future periods.

     Additional inventories consist of new and rehabilitated office furniture, equipment and supplies used
     for the repair of airplanes, administrative supplies and materials, commissary sales to inmates (sundry
     items), metals, plastics, electronics, graphics, and optics.




                             These notes are an integral part of the financial statements.


                                                         - 52 -
               FY 2010 U. S. Department of Justice Annual Financial Statements

                                Notes to the Financial Statements
                                (Dollars in Thousands, Except as Noted)

J.   General Property, Plant and Equipment

     With the exception of land, real property and leasehold improvements are capitalized when the cost of
     acquiring and/or improving the asset is $100 or more and the asset has a useful life of two or more
     years. Land is capitalized regardless of the acquisition cost. Real property is depreciated or amortized,
     based on historical cost, using the straight-line method over the estimated useful life of the asset.

     Except for BOP and FPI, Department acquisitions of personal property, excluding internal use
     software, $25 and over are capitalized if the asset has an estimated useful life of two or more years.
     Personal property is depreciated, based on historical cost, using the straight-line method over the
     estimated useful life of the asset. BOP and FPI capitalize personal property acquisitions over $5.

     Internal use software is capitalized when developmental phase costs or enhancement costs are $500 or
     more and the asset has an estimated useful life of two or more years. Except for FBI, aircraft are
     capitalized when the initial cost of acquiring those assets is $100 or more. FBI capitalizes aircraft over
     $25. Internal use software and aircraft are depreciated, based on historical cost, using the straight-line
     method over the estimated useful life of the asset.

K.   Advances and Prepayments

     Advances and prepayments, classified as assets on the Consolidated Balance Sheets, consist primarily
     of funds disbursed to grantees in excess of total expenditures made by those grantees to third parties,
     funds advanced to state and local participants in the DEA Domestic Cannabis Eradication and
     Suppression Program, and travel advances issued to federal employees for official travel. Travel
     advances are limited to meals and incidental expenses expected to be incurred by the employees during
     official travel. Payments in advance of the receipt of goods and services are recorded as prepaid
     charges at the time of payment and are recognized as expenses when the goods and services are
     received.

L.   Forfeited and Seized Property

     Forfeited property is property for which the title has passed to the U.S. Government. This property is
     recorded at the estimated fair market value at the time of forfeiture and is not adjusted for any
     subsequent increases and decreases in estimated fair market value. The value of the property is reduced
     by the estimated liens of record.

     Property is seized in consequence of a violation of public law. Seized property can include monetary
     instruments, real property, and tangible personal property of others in the actual or constructive
     possession of the custodial agency. Most non-cash property is held by the USMS from the point of
     seizure until its disposition. This property is recorded at the estimated fair market value at the time of
     seizure.




                             These notes are an integral part of the financial statements.


                                                   - 53 -
               FY 2010 U. S. Department of Justice Annual Financial Statements

                                Notes to the Financial Statements
                                (Dollars in Thousands, Except as Noted)

M.   Liabilities

     Liabilities represent the monies or other resources that are likely to be paid by the Department as the
     result of a transaction or event that has already occurred. However, no liability can be paid by the
     Department absent proper budget authority. Liabilities that are not funded by the current year
     appropriation are classified as liabilities not covered by budgetary resources in Note 11.

     On October 15, 1990, Congress passed the Radiation Exposure Compensation Act (RECA), 42 U.S.C.
     § 2210 (1990), providing for compassionate payments to individuals who contracted certain cancers
     and other serious diseases as a result of their exposure to radiation released during above-ground
     nuclear weapons tests or as a result of their exposure to radiation during employment in underground
     uranium mines. The September 30, 2010 and 2009 estimated liabilities are based on activity between
     FYs 2006 - 2010, and management’s assumptions concerning receipt and approval of claims in the
     future.

     Key factors in determining liability are the number of claims filed, the number of claims approved, and
     estimates for these factors through FY 2022. These estimates are then discounted in accordance with
     the discount rates set by OMB.

N.   Accrued Grant Liabilities

     Disbursements of grant funds are recognized as expenses at the time of disbursement. However, some
     grant recipients incur expenditures prior to initiating a request for disbursement based on the nature of
     the expenditures. The OBDs and OJP accrue a liability for expenditures incurred by grantees prior to
     receiving grant funds for expenditures. The amount to be accrued is determined through an analysis of
     historic grant expenditures. These estimates are based on the most current information available at the
     time the financial statements are prepared.

     Estimates for the grant accrual contain assumptions that have an impact on the financial statements.
     The key assumptions used in the grant accrual are: grantees have consistent spending patterns
     throughout the life of the grant, grantees will drawdown throughout the life of the grant, and the grant
     has a determined end date. The primary elements of these assumptions include, but are not limited to,
     type of grant that has been awarded, grant period, accounting basis used by the grantees, and the grant
     expenditure rate.

O.   Contingencies and Commitments

     The Department is involved in various legal actions, including administrative proceedings, lawsuits,
     and claims. A liability is generally recognized as an unfunded liability for those legal actions where
     unfavorable decisions are considered “probable” and an estimate for the liability can be made.
     Contingent liabilities that are considered “probable” or “reasonably possible” are disclosed in Note 16.
     Liabilities that are considered “remote” are not recognized in the financial statements or disclosed in the
     notes to the financial statements.



                             These notes are an integral part of the financial statements.


                                                         - 54 -
               FY 2010 U. S. Department of Justice Annual Financial Statements

                                Notes to the Financial Statements
                                (Dollars in Thousands, Except as Noted)

P.   Annual, Sick, and Other Leave

     Annual and compensatory leave is expensed with an offsetting liability as it is earned and the liability is
     reduced as leave is taken. Each year, the balance in the accrued annual leave liability account is
     adjusted to reflect current pay rates. To the extent current or prior year appropriations are not available
     to fund annual and compensatory leave earned but not taken, funding will be obtained from future
     financing sources. Sick leave and other types of nonvested leave are expensed as taken.

Q.   Interest on Late Payments

     Pursuant to the Prompt Payment Act, 31 U.S.C. ' 3901-3907, the Department pays interest on
     payments for goods or services made to business concerns after the due date. The due date is generally
     30 days after receipt of a proper invoice or acceptance of the goods or services, whichever is later.

R.   Retirement Plan

     With few exceptions, employees hired before January 1, 1984 are covered by the Civil Service
     Retirement System (CSRS) and employees hired on or after that date are covered by the Federal
     Employees Retirement System (FERS). For employees covered by CSRS, the Department contributes
     7% of the employees’ gross pay for regular and 7.5% for law enforcement officers’ retirement. For
     employees covered by FERS, the Department contributes 11.2% of employees’ gross pay for regular
     and 24.9% for law enforcement officers’ retirement. All employees are eligible to contribute to the
     Federal Thrift Savings Plan (TSP). For those employees covered by the FERS, a TSP account is
     automatically established to which the Department is required to contribute an additional 1% of gross
     pay and match employee contributions up to 4%. No contributions are made to the TSP accounts
     established by the CSRS employees. The Department does not report CSRS or FERS assets,
     accumulated plan benefits, or unfunded liabilities, if any, which may be applicable to its employees.
     Such reporting is the responsibility of the Office of Personnel Management (OPM). Statement of
     Federal Financial Accounting Standards (SFFAS) No. 5, Accounting for Liabilities of the Federal
     Government, requires employing agencies to recognize the cost of pensions and other retirement
     benefits during their employees’ active years of service. Refer to Note 19, Imputed Financing from
     Costs Absorbed by Others, for additional details.




                             These notes are an integral part of the financial statements.


                                                   - 55 -
               FY 2010 U. S. Department of Justice Annual Financial Statements

                                Notes to the Financial Statements
                                (Dollars in Thousands, Except as Noted)

S.   Federal Employee Compensation Benefits

     The Federal Employees’ Compensation Act (FECA) provides income and medical cost protection to
     covered federal civilian employees injured on the job, employees who have incurred a work-related
     occupational disease, and beneficiaries of employees whose death is attributable to a job-related injury
     or occupational disease. The total FECA liability consists of an actuarial and an accrued portion as
     discussed below.

     Actuarial Liability: The Department of Labor (DOL) calculates the liability of the federal government
     for future compensation benefits, which includes the expected liability for death, disability, medical,
     and other approved costs. The liability is determined using the paid-losses extrapolation method
     calculated over the next 37-year period. This method utilizes historical benefit payment patterns related
     to a specific incurred period to predict the ultimate payments related to that period. The projected
     annual benefit payments are discounted to present value. The resulting federal government liability is
     then distributed by agency. The Department’s portion of this liability includes the estimated future cost
     of death benefits, workers' compensation, medical, and miscellaneous cost for approved compensation
     cases for the Department employees. The Department liability is further allocated to component
     reporting entities on the basis of actual payments made to the FECA Special Benefits Fund (SBF) for
     the three prior years as compared to the total Department payments made over the same period.

     The FECA actuarial liability is recorded for reporting purposes only. This liability constitutes an
     extended future estimate of cost, which will not be obligated against budgetary resources until the fiscal
     year in which the cost is actually billed to the Department. The cost associated with this liability cannot
     be met by the Department without further appropriation action.

     Accrued Liability: The accrued FECA liability is the amount owed to the DOL for the benefits paid
     from the FECA SBF directly to Department employees.

T.   Intragovernmental Activity

     These transactions and/or balances result from business activities conducted between two different
     federal government entities.




                             These notes are an integral part of the financial statements.


                                                         - 56 -
               FY 2010 U. S. Department of Justice Annual Financial Statements

                                Notes to the Financial Statements
                                (Dollars in Thousands, Except as Noted)

U.   Revenues and Other Financing Sources

     The Department receives the majority of funding needed to support its programs through Congressional
     appropriations. The Department receives annual, multi-year, and no-year appropriations that may be
     used, within statutory limits, for operating and capital expenditures. Additional funding is obtained
     through exchange revenues, nonexchange revenues, and transfers-in.

     Appropriations Used are recognized as budgetary financing sources at the time the related program or
     administrative expenses are incurred. Exchange revenues are recognized when earned, for example,
     when goods have been delivered or services rendered. Nonexchange revenues are resources that the
     government demands or receives, for example, forfeiture revenue and fines and penalties.

     The Department’s exchange revenue consists of the following activities: licensing fees to manufacture
     and distribute controlled substances; services rendered for legal activities; space management; data
     processing services; sale of merchandise and telephone services to inmates; sale of manufactured goods
     and services to other federal agencies; and other services. Fees are set by law and are periodically
     evaluated in accordance with OMB guidance.

     The Department’s nonexchange revenue consists of forfeiture income resulting from the sale of
     forfeited property, penalties in lieu of forfeiture, recovery of returned asset management cost, judgment
     collections, and other miscellaneous income. Other nonexchange revenue includes the OJP Crime
     Victims Fund receipts, ATF fees from firearms and ammunition industries, and AFF/SADF interest on
     investments with the Treasury.

     The Department’s deferred revenue includes fees received for processing various applications and
     licenses with DEA for which the process was not completed at the end of fiscal year or for licenses that
     are valid for multiple years. These monies are recorded as liabilities in the financial statements.
     Deferred revenue also includes forfeited property held for sale. When the property is sold, deferred
     revenue is reversed and forfeiture revenue in the amount of the gross proceeds of the sale is recorded.

V.   Earmarked Funds

     SFFAS No. 27, Identifying and Reporting Earmarked Funds, defines ‘earmarked funds’ as being
     financed by specifically identified revenues, often supplemented by other financing sources, which
     remain available over time. These specifically identified revenues and other financing sources are
     required by statute to be used for designated activities, benefits or purposes, and must be accounted for
     separately from the government’s general revenues. The three required criteria for an Earmarked Fund
     are:




                             These notes are an integral part of the financial statements.


                                                   - 57 -
               FY 2010 U. S. Department of Justice Annual Financial Statements

                                Notes to the Financial Statements
                                (Dollars in Thousands, Except as Noted)

V.   Earmarked Funds (continued)

     1.	 A statute committing the federal government to use specifically identified revenues and other
          financing sources only for designated activities, benefits or purposes;
     2. 	 Explicit authority for the earmarked fund to retain revenues and other financing sources not used in
          the current period for future use to finance the designated activities, benefits, or purposes; and
     3.	 A requirement to account for and report on the receipt, use, and retention of the revenues and other
          financing sources that distinguishes the earmarked fund from the Government’s general revenues.

     The following funds meet the definition of an earmarked fund: AFF, UST System Fund, Antitrust
     Division, Crime Victims Fund, Diversion Control Fee Account, and Federal Prison Commissary Fund.

W.   Tax Exempt Status

     As an agency of the federal government, the Department is exempt from all taxes imposed by any
     governing body whether it be a federal, state, commonwealth, local or foreign government.

X.   Use of Estimates

     The preparation of financial statements requires management to make certain estimates and
     assumptions that affect the reported amounts of assets and liabilities and the reported amounts of
     revenue and expenses during the reporting period. Actual results could differ from those estimates.

Y.   Reclassifications

     The FY 2009 financial statements were reclassified to conform to the FY 2010 Departmental financial
     statement presentation requirements. The reclassifications had no material effect on total assets,
     liabilities, net position, change in net position or budgetary resources as previously reported.

Z.   Subsequent Events

     Subsequent events and transactions occurring after September 30, 2010 through the date of the
     auditors’ opinion have been evaluated for potential recognition or disclosure in the financial statements.
     The date of the auditors’ opinion also represents the date that the financial statements were available to
     be issued.




                             These notes are an integral part of the financial statements.


                                                         - 58 -
                 FY 2010 U. S. Department of Justice Annual Financial Statements

                                   Notes to the Financial Statements
                                   (Dollars in Thousands, Except as Noted)

Note 2. Non-Entity Assets

As of September 30, 2010 and 2009
                                                                      2010                      2009

 Intragovernmental
    Fund Balance with U.S. Treasury                            $        908,929          $         293,403
    Investments, Net                                                  1,379,942                  1,376,821
      Total Intragovernmental                                         2,288,871                  1,670,224

 With the Public
   Cash and Monetary Assets                                            228,085                     208,617
   Accounts Receivable, Net                                             15,257                      15,053
      Total With the Public                                            243,342                     223,670
      Total Non-Entity Assets                                        2,532,213                   1,893,894
      Total Entity Assets                                           37,558,477                  34,733,934
      Total Assets                                             $    40,090,690           $      36,627,828




                                These notes are an integral part of the financial statements.


                                                      - 59 -
                  FY 2010 U. S. Department of Justice Annual Financial Statements

                                   Notes to the Financial Statements
                                   (Dollars in Thousands, Except as Noted)

Note 3. Fund Balance with U.S. Treasury

The Fund Balances with U.S. Treasury represent the unexpended balances on the Department’s books for all
the Department’s Treasury Symbols.

As of September 30, 2010 and 2009
                                                                      2010                      2009
 Fund Balances
   Trust Funds                                                 $        84,695           $          96,440
   Special Funds                                                     6,248,505                   4,396,836
   Revolving Funds                                                     455,486                     414,811
   General Funds                                                    16,746,926                  15,886,777
   Other Fund Types                                                     60,975                      62,151
     Total Fund Balances with U.S. Treasury                    $    23,596,587           $      20,857,015

 Status of Fund Balances
   Unobligated Balance - Available                             $     2,859,209           $       2,747,973
   Unobligated Balance - Unavailable                                 1,180,089                   1,298,879
   Obligated Balance not yet Disbursed                              16,006,230                  15,728,297
   Other Funds (With)/Without Budgetary Resources                    3,551,059                   1,081,866
      Total Status of Fund Balances                            $    23,596,587           $      20,857,015



Annual and multi-year budget authority expires at the end of its period of availability. During the first through
the fifth expired years, the unobligated balance is unavailable and may be used to adjust obligations and
disbursements that were recorded before the budgetary authority expired or to meet a legitimate or bona fide
need arising in the fiscal year for which the appropriation was made. The unobligated balance for no-year
budget authority may be used to incur obligations indefinitely for the purpose specified by the appropriation
act. No-year budget authority unobligated balances are still subject to the annual apportionment and allotment
process.

Other Funds (With)/Without Budgetary Resources primarily represent the net of 1) investments in short-term
securities with budgetary resources, 2) resources temporarily not available pursuant to public law,
3) custodial liabilities, and 4) miscellaneous receipts.




                                These notes are an integral part of the financial statements.


                                                            - 60 -
                 FY 2010 U. S. Department of Justice Annual Financial Statements

                                   Notes to the Financial Statements
                                   (Dollars in Thousands, Except as Noted)

Note 4. Cash and Monetary Assets

As of September 30, 2010 and 2009
                                                                       2010                     2009
 Cash
   Undeposited Collections                                     $          3,132         $         10,022
   Imprest Funds                                                         14,068                   11,158
   Seized Cash Deposited                                                106,154                  135,002
   Other Cash                                                            51,476                    7,691
      Total Cash                                                        174,830                  163,873
 Monetary Assets
   Seized Monetary Instruments                                           70,453                   65,921
     Total Cash and Monetary Assets                            $        245,283         $        229,794



Note 5. Investments, Net

                                                      Unamortized
                                      Face              Premium                Interest         Investments,    Market
                                      Value            (Discount)             Receivable            Net          Value
As of September 30, 2010
 Intragovernmental
    Non-Marketable Securities
      Market Based                $ 4,062,336         $        (798)      $           195       $ 4,061,733    $ 4,061,690




As of September 30, 2009
 Intragovernmental
    Non-Marketable Securities
      Market Based                $ 3,843,066         $        (476)      $           195       $ 3,842,785    $ 3,843,218




                                These notes are an integral part of the financial statements.


                                                      - 61 -
                 FY 2010 U. S. Department of Justice Annual Financial Statements

                                  Notes to the Financial Statements
                                  (Dollars in Thousands, Except as Noted)

Note 6. Accounts Receivable, Net

As of September 30, 2010 and 2009
                                                                     2010                      2009
 Intragovernmental
    Accounts Receivable                                       $        304,000         $        332,216
    Allowance for Uncollectible Accounts                                (1,690)                  (5,806)
       Total Intragovernmental                                         302,310                  326,410

 With the Public
   Accounts Receivable                                                  93,552                   94,791
   Allowance for Uncollectible Accounts                                 (6,292)                 (14,967)
      Total With the Public                                             87,260                   79,824
      Total Accounts Receivable, Net                          $        389,570         $        406,234



The accounts receivable with the public primarily consists of OBDs U.S. Trustee Chapter 11 quarterly fees, FBI
Non-Federal User Fee Program, FBI National Name Check Program, court mandated restitution, and refunds
due from the public.


Note 7. Inventory and Related Property, Net

As of September 30, 2010 and 2009
                                                                     2010                      2009
 Inventory
   Raw Materials                                              $        116,826         $        148,399
   Work in Process                                                      38,442                   49,282
   Finished Goods                                                       53,308                   55,939
   Inventory Purchased for Resale                                       16,580                   16,653
   Excess, Obsolete, and Unserviceable                                  43,494                   22,825
   Inventory Allowance                                                 (48,739)                 (12,213)

 Operating Materials and Supplies
   Held for Current Use                                                 17,436                   17,816
     Total Inventory and Related Property, Net                $        237,347         $        298,701




                               These notes are an integral part of the financial statements.


                                                           - 62 -
                  FY 2010 U. S. Department of Justice Annual Financial Statements

                                   Notes to the Financial Statements
                                   (Dollars in Thousands, Except as Noted)

Note 8. Forfeited and Seized Property

Equitable Sharing Payments:

The statute governing the use of the AFF (28 U.S.C. '524(c)) permits the payment of equitable shares of
forfeiture proceeds to participating foreign governments and state and local law enforcement agencies. The
statute does not require such sharing and permits the Attorney General wide discretion in determining those
transfers. Actual sharing is difficult to predict because many factors influence both the amount and timing of
disbursement of equitable sharing payments, such as the length of time required to move an asset through the
forfeiture process to disposition, the amount of net proceeds available for sharing, the elapse of time for
Departmental approval of equitable sharing requests for cases with asset values exceeding $1 million, and
appeal of forfeiture judgments. Because of uncertainties surrounding the timing and amount of any equitable
sharing payment, an obligation and expense are recorded only when the actual disbursement of the equitable
sharing payment is imminent. The anticipated equitable sharing allocation level for FY 2011 is $400 million.

Analysis of Change in Forfeited Property:

The number of items represents quantities calculated using many different units of measure. The adjustments
for FYs 2010 and 2009 include property status and valuation changes received after, but properly credited to
FYs 2009 and 2008, respectively. The valuation changes include updates and corrections to an asset’s value
recorded in a prior year.




                                These notes are an integral part of the financial statements.


                                                      - 63 -
                   FY 2010 U. S. Department of Justice Annual Financial Statements

                                       Notes to the Financial Statements
                                       (Dollars in Thousands, Except as Noted)

Note 8. Forfeited and Seized Property (continued)

For the Fiscal Year Ended September 30, 2010

  Forfeited                                                                                        Liens             Ending
  Property               Beginning     Adjust-                                   Ending             and             Balance,
  Category                Balance       ments Forfeitures Disposals              Balance           Claims          Net of Liens

 Financial      Number          90             -      162           (155)                 97                -                 97
 Instruments    Value     $ 19,680     $       - $ 10,043      $ (27,504) $            2,219       $     (155) $           2,064

 Real           Number          496            -      358           (377)                477              -                  477
 Property       Value     $ 104,905    $       - $ 60,739      $ (76,626) $           89,018       $ (3,468) $            85,550

 Personal       Number        3,496            -    5,264         (5,713)              3,047                -      3,047
 Property       Value     $ 105,038    $       - $ 67,480      $ (70,322) $          102,196       $     (688) $ 101,508

 Non-Valued
   Firearms     Number        21,940           -       9,457       (12,019)           19,378                   -          19,378

 Total          Number        26,022           -      15,241       (18,264)           22,999                   -          22,999
                Value     $ 229,623    $       - $ 138,262     $ (174,452) $         193,433       $ (4,311) $ 189,122

For the Fiscal Year Ended September 30, 2009

  Forfeited                                                                                            Liens            Ending
  Property               Beginning     Adjust-                                   Ending             and             Balance,
  Category                Balance       ments Forfeitures Disposals              Balance           Claims          Net of Liens

 Financial      Number            80           -      143           (133)                 90                   -              90
 Instruments    Value     $    1,847   $       - $ 49,642      $ (31,809) $           19,680       $           -    $     19,680

 Real           Number          478            -      451           (433)                496              -        496
 Property       Value     $ 103,163    $       - $ 93,195      $ (91,453) $          104,905       $ (1,488) $ 103,417

 Personal       Number       2,899            -      5,725        (5,128)              3,496              -      3,496
 Property       Value     $ 41,532     $ (3,252) $ 123,799     $ (57,041) $          105,038       $ (1,292) $ 103,746

 Non-Valued
   Firearms     Number        22,607           -      11,377       (12,044)           21,940                   -          21,940

 Total          Number        26,064           -      17,696       (17,738)           26,022                   -          26,022
                Value     $ 146,542    $ (3,252) $ 266,636     $ (180,303) $         229,623       $ (2,780) $ 226,843




                                   These notes are an integral part of the financial statements.



                                                               - 64 -
                  FY 2010 U. S. Department of Justice Annual Financial Statements

                                   Notes to the Financial Statements
                                   (Dollars in Thousands, Except as Noted)

Note 8. Forfeited and Seized Property (continued)

Method of Disposition of Forfeited Property:

During FYs 2010 and 2009, $103,678 and $104,883 of forfeited property were sold, $6,560 and $7,032 were
destroyed or donated, $17,045 and $24,831 were returned to owners, and $47,169 and $43,557 were disposed
of by other means, respectively. Other means of distribution include property transferred to other federal
agencies for official use or equitable sharing, or property distributed to a state or local agency.

Analysis of Change in Seized Property:

Property seized for any purpose other than forfeiture and held by the seizing agency or a custodial agency
should be disclosed by the seizing agency. All property seized for forfeiture, including property with
evidentiary value, will be reported by the AFF/SADF. The Department has established a reporting threshold of
$1 or more for Personal Property seized for evidentiary purposes.

A seizure is the act of taking possession of goods in consequence of a violation of public law. Seized property
consists of seized cash, monetary instruments, real property and tangible personal property in the actual or
constructive possession of the seizing and the custodial agencies. The Department, until judicially or
administratively forfeited, does not legally own such property. Seized evidence includes cash, financial
instruments, non-monetary valuables, firearms, and illegal drugs. The AFF/SADF reports property seized for
forfeiture and the FBI, DEA, and ATF report property seized for evidence.

The adjustments for FYs 2010 and 2009 include property status and valuation changes received after, but
properly credited to FYs 2009 and 2008, respectively. The valuation changes include updates and corrections
to an asset’s value recorded in a prior year.

The DEA, FBI, and ATF have custody of illegal drugs taken as evidence for legal proceedings. In accordance
with Federal Financial Accounting and Auditing Technical Release No. 4, Reporting on Non-Valued Seized
and Forfeited Property, the Department reports the total amount of seized drugs by quantity only, as illegal
drugs have no value and are destroyed upon resolution of legal proceedings.




                                These notes are an integral part of the financial statements.



                                                      - 65 -
                  FY 2010 U. S. Department of Justice Annual Financial Statements

                                   Notes to the Financial Statements
                                   (Dollars in Thousands, Except as Noted)

Note 8. Forfeited and Seized Property (continued)

Analyzed drug evidence represents actual laboratory tested classification and weight in kilograms (KG). Since
enforcing the controlled substances laws and regulations of the United States is a primary mission of the DEA,
the DEA reports all analyzed drug evidence regardless of seizure weight. However, the enforcement of these
laws and regulations is incidental to the missions of the FBI and ATF and therefore they only report those
individual seizures exceeding 1 KG in weight.

“Adjustments” are primarily due to the validation of drug weights that occurs after the drugs have been
analyzed. “Other Drugs” are illegal substances not including cocaine, heroin, marijuana, bulk drug evidence,
and methamphetamine. “Bulk Drug Evidence” is comprised of controlled substances housed by the DEA in
secured storage facilities of which only a sample is taken for laboratory analysis. The actual bulk drug weight
may vary from seizure weight due to changes in moisture content over time.

Unanalyzed drug evidence is qualitatively different from analyzed and bulk drug evidence because unanalyzed
drug evidence includes the weight of packaging and drug categories are based on the determination of Special
Agents instead of laboratory chemists. For these reasons, unanalyzed drug evidence is not reported by the
Department. Seized drug evidence must be analyzed and confirmed through laboratory testing to be placed in
one of the five categories of drug above. “Disposals” occur when evidence is either returned to the owner or
destroyed in accordance with federal guidelines.




                                These notes are an integral part of the financial statements.



                                                            - 66 -
                    FY 2010 U. S. Department of Justice Annual Financial Statements

                                         Notes to the Financial Statements
                                         (Dollars in Thousands, Except as Noted)


Note 8. Forfeited and Seized Property (continued)

For the Fiscal Year Ended September 30, 2010

                                                                                                                Liens           Ending
      Seized Property                Beginning     Adjust­                                         Ending        and           Balance,
         Category                     Balance       ments          Seizures    Disposals           Balance      Claims        Net of Liens

Seized for Forfeiture

  Seized Cash              Value     $ 1,451,259   $       -   $ 1,588,064     $ (1,614,517) $ 1,424,806       $ (91,260) $       1,333,546
  Deposited and
  Seized Monetary
  Instruments

  Financial                Number            365           -             114              (66)           413          -                 413
  Instruments              Value     $   124,578   $ (37,259) $       28,692   $      (16,299) $      99,712   $ (9,045) $           90,667

  Real                     Number            210          -              162             (189)          183           -                 183
  Property                 Value     $    66,178   $ (5,699) $        56,409   $      (55,618) $     61,270    $ (9,675) $           51,595

  Personal                 Number          7,429           -           6,699           (6,809)        7,319            -              7,319
  Property                 Value     $   158,880   $       -   $      88,032   $      (85,360) $    161,552    $ (11,544) $         150,008

  Non-Valued
    Firearms               Number         39,569           -           9,459          (14,747)       34,281              -           34,281



For the Fiscal Year Ended September 30, 2009
                                                                                                                Liens           Ending
      Seized Property                Beginning      Adjust­                                        Ending        and           Balance,
         Category                     Balance       ments          Seizures        Disposals       Balance      Claims        Net of Liens

Seized for Forfeiture

  Seized Cash              Value     $1,228,440    $       -   $1,544,033      $(1,321,214) $ 1,451,259        $(62,683) $        1,388,576
  Deposited and
  Seized Monetary
  Instruments

  Financial                Number          384             -             71              (90)           365           -                 365
  Instruments              Value     $ 102,209     $       -   $     50,116    $     (27,747) $     124,578    $ (8,272) $          116,306

  Real                     Number            199           -            190             (179)           210           -                 210
  Property                 Value     $    65,663   $       -   $     61,426    $     (60,911) $      66,178    $ (9,761) $           56,417

  Personal                 Number        7,365            3        7,501           (7,440)            7,429           -               7,429
  Property                 Value     $ 144,304     $    389    $ 154,686       $ (140,499) $        158,880    $(15,238) $          143,642

  Non-Valued
    Firearms               Number         42,708           -         14,919          (18,058)        39,569              -           39,569



                                    These notes are an integral part of the financial statements.



                                                          - 67 -
                      FY 2010 U. S. Department of Justice Annual Financial Statements

                                         Notes to the Financial Statements
                                         (Dollars in Thousands, Except as Noted)

Note 8. Forfeited and Seized Property (continued)

For the Fiscal Year Ended September 30, 2010
                                                                                                                  Liens               Ending
      Seized Property                Beginning     Adjust-                                        Ending           and               Balance,
         Category                     Balance       ments         Seizures        Disposals       Balance         Claims            Net of Liens

Seized for Evidence

  Seized Monetary          Value     $    40,401   $ (2,164) $       34,425   $      (27,085) $      45,577 $              -   $           45,577
  Instruments

  Personal                 Number          1,485         47             300             (230)         1,602                -                1,602
  Property                 Value  $       27,943   $ (2,186) $       13,202   $      (12,268) $      26,691 $              -   $           26,691

  Non-Valued
    Firearms               Number         43,878        (230)         8,685            (7,868)       44,465                -               44,465
    Drug Evidence
      Cocaine              KG            349,451     (34,698)        33,711           (70,015)      278,449                -              278,449
      Heroin               KG              3,572         (20)           643              (745)        3,450                -                3,450
      Marijuana            KG             19,913         (26)         5,400            (5,226)       20,061                -               20,061
      Bulk Drug Evidence   KG            223,936       1,278      1,128,098        (1,125,748)      227,564                -              227,564
      Methamphetamine      KG              6,791         (47)         2,154            (1,276)        7,622                -                7,622
      Other Drugs          KG             47,180         386          5,359            (6,262)       46,663                -               46,663
    Total Drug Evidence    KG            650,843     (33,127)     1,175,365        (1,209,272)      583,809                -              583,809

For the Fiscal Year Ended September 30, 2009
                                                                                                              Liens                  Ending
      Seized Property                Beginning     Adjust-                                        Ending       and                  Balance,
         Category                     Balance       ments       Seizures      Disposals           Balance     Claims               Net of Liens

Seized for Evidence

  Seized Monetary          Value     $    38,171   $ (4,946) $      35,375    $      (28,199) $      40,401   $        -       $          40,401
  Instruments

  Personal                 Number         51,693     (50,625)          740              (323)         1,485            -                   1,485
  Property                 Value     $    29,459   $ (18,475) $     25,717    $       (8,758) $      27,943   $        -       $          27,943

  Non-Valued
    Firearms               Number         45,259       (269)         6,807            (7,919)        43,878            -                  43,878
    Drug Evidence
      Cocaine              KG            393,021        540          58,114         (102,224)      349,451             -                 349,451
      Heroin               KG              3,489        (81)            654             (490)        3,572             -                   3,572
      Marijuana            KG             21,017     (1,776)          5,359           (4,687)       19,913             -                  19,913
      Bulk Drug Evidence   KG            216,689      2,358       1,200,533       (1,195,644)      223,936             -                 223,936
      Methamphetamine      KG              6,212        204           1,741           (1,366)        6,791             -                   6,791
      Other Drugs          KG             52,598       (370)          6,217          (11,265)       47,180             -                  47,180
    Total Drug Evidence    KG            693,026        875       1,272,618       (1,315,676)      650,843             -                 650,843



                                    These notes are an integral part of the financial statements.



                                                                  - 68 -
                 FY 2010 U. S. Department of Justice Annual Financial Statements

                                  Notes to the Financial Statements
                                  (Dollars in Thousands, Except as Noted)

Note 8. Forfeited and Seized Property (continued)

Method of Disposition of Seized Property:

During FYs 2010 and 2009, $1,628,886 and $1,402,885 of seized property were forfeited, $155,022 and
$136,939 were returned to parties with a bonafide interest, and $27,239 and $47,504 were disposed of by other
means, respectively. Other means of disposition include seized property that is sold, converted to cash, or
destroyed.

Note 9. General Property, Plant and Equipment, Net

As of September 30, 2010
                                         Acquisition         Accumulated            Net Book       Useful
                                           Cost              Depreciation            Value          Life
 Land and Land Rights                   $ 192,821            $          -          $ 192,821             N/A
 Improvements to Land                         4,518                 (552)                3,966        15 yrs
 Construction in Progress                   728,617                     -             728,617            N/A
 Buildings, Improvements and
   Renovations                           9,365,319              (3,679,717)          5,685,602      2-50 yrs
 Other Structures and Facilities           808,964                (395,986)            412,978     10-50 yrs
 Aircraft                                  377,329                (115,798)            261,531      5-30 yrs
 Boats                                       9,967                  (5,302)              4,665      5-25 yrs
 Vehicles                                  549,692                (335,338)            214,354      2-25 yrs
 Equipment                               1,612,309                (995,050)            617,259      2-25 yrs
 Assets Under Capital Lease                107,399                 (58,688)             48,711      5-30 yrs
 Leasehold Improvements                  1,129,117                (609,571)            519,546      2-20 yrs
 Internal Use Software                     408,472                (194,868)            213,604      3-10 yrs
 Internal Use Software in Development      837,500                       -             837,500          N/A
 Total                                $ 16,132,024            $ (6,390,870)        $ 9,741,154



                                                                  Federal               Public      Total
Sources of Capitalized Property, Plant and Equipment
  Purchases for FY 2010                                       $     235,776        $ 1,121,727   $ 1,357,503




                               These notes are an integral part of the financial statements.



                                                     - 69 -
                 FY 2010 U. S. Department of Justice Annual Financial Statements

                                     Notes to the Financial Statements
                                  (Dollars in Thousands, Except as Noted)

Note 9. General Property, Plant and Equipment, Net (continued)

As of September 30, 2009
                                             Acquisition         Accumulated              Net Book             Useful
                                               Cost              Depreciation              Value                Life
 Land and Land Rights                      $    192,971          $           -          $    192,971                 N/A
 Improvements to Land                              4,518                 (251)                 4,267               15 yrs
 Construction in Progress                       884,163                      -               884,163                 N/A
 Buildings, Improvements and
    Renovations                               8,789,318            (3,374,721)                 5,414,597        2-50 yrs
 Other Structures and Facilities                774,780              (358,344)                   416,436       10-50 yrs
 Aircraft                                       343,708              (102,815)                   240,893        5-30 yrs
 Boats                                           10,061                (4,709)                     5,352        5-25 yrs
 Vehicles                                       500,119              (311,073)                   189,046        2-25 yrs
 Equipment                                    1,548,950              (982,552)                   566,398        2-25 yrs
 Assets Under Capital Lease                     107,247               (54,366)                    52,881        5-30 yrs
 Leasehold Improvements                         971,367              (509,398)                   461,969        2-20 yrs
 Internal Use Software                          333,728              (151,195)                   182,533        3-10 yrs
 Internal Use Software in Development           603,520                     -                    603,520           N/A
 Total                                     $ 15,064,450          $ (5,849,424)          $      9,215,026



                                                                      Federal                  Public          Total
Sources of Capitalized Property, Plant and Equipment
  Purchases for FY 2009                                          $      252,302         $       911,475    $   1,163,777

Note 10. Other Assets

As of September 30, 2010 and 2009
                                                              2010                    2009
 Intragovernmental
    Advances and Prepayments                            $       122,609         $       130,878
    Other Intragovernmental Assets                                   55                     110
      Total Intragovernmental                                   122,664                 130,988

   Other Assets With the Public                                      5,826                  4,921
      Total Other Assets                                $       128,490         $       135,909

Other Assets With the Public primarily consist of farm livestock held by the BOP.

                               These notes are an integral part of the financial statements.



                                                            - 70 -
                  FY 2010 U. S. Department of Justice Annual Financial Statements

                                   Notes to the Financial Statements
                                   (Dollars in Thousands, Except as Noted)

Note 11. Liabilities not Covered by Budgetary Resources

As of September 30, 2010 and 2009
                                                                                2010                2009
 Intragovernmental
    Accrued FECA Liabilities                                             $        241,124       $    234,173
    Other Unfunded Employment Related Liabilities                                   1,758              1,528
    Other                                                                              58                 46
      Total Intragovernmental                                                     242,940            235,747

 With the Public
   Actuarial FECA Liabilities                                                  1,314,105            1,233,899
   Accrued Annual and Compensatory Leave Liabilities                             816,970              771,814
   Environmental and Disposal Liabilities (Note 12)                               71,657               22,112
   Deferred Revenue                                                              311,164              269,840
   Contingent Liabilities (Note 16)                                              101,760              172,653
   Capital Lease Liabilities (Note 13)                                            30,703               36,956
   RECA Liabilities                                                              541,784              343,835
   Other                                                                          47,300               14,282
      Total With the Public                                                    3,235,443            2,865,391
      Total Liabilities not Covered by Budgetary Resources                     3,478,383            3,101,138
      Total Liabilities Covered by Budgetary Resources                         7,096,754            6,095,373
      Total Liabilities                                                  $    10,575,137        $   9,196,511



Generally, liabilities not covered by budgetary resources are liabilities for which Congressional action is needed
before budgetary resources can be provided. However, some liabilities do not require appropriations and will
be liquidated by the assets of the entities holding these liabilities. Such assets include civil and criminal debt
collections, seized cash and monetary instruments, and revolving fund operations.

Note 12. Environmental and Disposal Liabilities

The BOP operates firing ranges on 65 of the sites where its institutions are located. Use of these firing ranges
generates waste consisting primarily of lead shot and spent rounds from rifles, shotguns, pistols, and automatic
weapons. At operational firing ranges, lead-containing bullets are fired and eventually fall to the ground at or
near the range. As of September 30, 2009, BOP management determined their estimated clean-up liability to be
$22,112. In FY 2010, BOP management adjusted the estimated clean-up liability by the current U.S. inflation
rate as determined by the U.S. Treasury and as such determined that an estimated firing range clean-up liability
of $25,069, based on an inflation rate of 11.6 percent, should be recorded.




                                These notes are an integral part of the financial statements.



                                                      - 71 -
                  FY 2010 U. S. Department of Justice Annual Financial Statements

                                    Notes to the Financial Statements
                                    (Dollars in Thousands, Except as Noted)

Note 12. Environmental and Disposal Liabilities (continued)

An extensive review of the current and past safety practices of FPI’s Recycling business segment revealed that
cleanup of past lead and other contamination was recommended as the result of their glass breaking operation.
Included in FPI’s Balance Sheet as of September 30, 2010 and 2009 are $0 and $204 in Environmental and
Disposal Liabilities, respectively.

Per SFFAS No. 5, Accounting for Liabilities of the Federal Government, SFFAS No. 6, Accounting for
Property, Plant, and Equipment, and Technical Release No. 2, Determining Probably and Reasonably
Estimable for Environmental Liabilities in the Federal Government, federal agencies are required to recognize
liabilities for environmental clean-up costs when the future outflow or sacrifice of resources is probable and
reasonably estimable.

BOP conducted a review of 46 institutions that were in service prior to April 6, 1973; the review provided an
estimate of the extent of friable and non-friable Asbestos Containing Materials (ACM) remaining in each of the
institutions as of October 30, 2009. The BOP recognized the estimated total clean-up cost for friable and non-
friable asbestos for those facilities as a liability and recorded the offsetting charge as a “Change in Accounting
Principles” in the Statement of Changes in Net Position (SCNP). As of September 30, 2010, BOP management
has determined their estimated asbestos clean-up liability is $36,833.

The FBI operates a facility in Quantico, Virginia, built in 1968 with an estimated useful life of 50 years. The
FBI recognized the estimated total cleanup cost for friable and non-friable asbestos for the facility as a liability
and reported the offsetting charge as a “Change in Accounting Principles” in the Statement of Change in Net
Position. As of September 30, 2010, FBI management has determined their estimated asbestos clean-up
liability is $9,755.




                                 These notes are an integral part of the financial statements.



                                                             - 72 -
                  FY 2010 U. S. Department of Justice Annual Financial Statements

                                    Notes to the Financial Statements
                                   (Dollars in Thousands, Except as Noted)

Note 13. Leases

Capital leases include a Federal Detention Center (25 year lease term) in Oklahoma City, Oklahoma; an airplane
hangar (20 year lease term) in Oklahoma City, Oklahoma; and other machinery and equipment that expire over
future periods.


As of September 30, 2010 and 2009

 Capital Leases                                                   2010                   2009

 Summary of Assets Under Capital Lease
   Land and Buildings                                       $      100,352          $      100,352
   Machinery and Equipment                                           7,047                   6,895
   Accumulated Amortization                                        (58,688)                (54,366)
      Total Assets Under Capital Lease (Note 9)             $       48,711          $       52,881

 Future Capital Lease Payments Due
                                                                Land and           Machinery and
   Fiscal Year                                                  Buildings            Equipment            Total
      2011                                                  $       10,086         $      1,095       $     11,181
      2012                                                            9,073                 939             10,012
      2013                                                            9,073                 571              9,644
      2014                                                            9,073                    -             9,073
      2015                                                               32                    -                 32
   After 2015                                                           128                    -                128
      Total Future Capital Lease Payments                   $       37,465         $      2,605       $     40,070
   Less: Imputed Interest                                            (5,816)                (71)            (5,887)
   Less: Executory Costs                                                  -                (534)              (534)
       FY 2010 Net Capital Lease Liabilities                $       31,649         $      2,000       $     33,649
       FY 2009 Net Capital Lease Liabilities                $       38,787         $      3,434       $     42,221

                                                                                         2010             2009

   Net Capital Lease Liabilities Covered by Budgetary Resources                     $        2,946    $      5,265
   Net Capital Lease Liabilities not Covered by Budgetary Resources                 $       30,703    $     36,956


The net capital lease liability not covered by budgetary resources primarily represents the capital lease of the
Federal Detention Center for which the Department received Congressional authority to fund with annual
appropriations.

                                These notes are an integral part of the financial statements.



                                                      - 73 -
                  FY 2010 U. S. Department of Justice Annual Financial Statements

                                  Notes to the Financial Statements
                                  (Dollars in Thousands, Except as Noted)

Note 13. Leases (continued)

Operating leases have been established for multiple years. Many of the operating leases that expire over an
extended period of time include an option to purchase the equipment at the current fair market value, or to
renew the lease for additional periods.

 Operating Lease Expenses

  Lease Type                                                  2010                    2009
  Noncancelable Operating Leases                           $   103,569             $   100,079
  Cancelable Operating Leases                                1,579,021               1,500,363
      Total Operating Lease Expenses                       $ 1,682,590             $ 1,600,442



 Future Noncancelable Operating Lease Payments Due

                                                             Land and             Machinery and
   Fiscal Year                                               Buildings              Equipment                 Total
      2011                                                 $    154,838           $     10,724             $   165,562
      2012                                                      226,102                  9,025                 235,127
      2013                                                      272,443                  9,011                 281,454
      2014                                                      285,557                  4,405                 289,962
      2015                                                      283,547                  4,382                 287,929
   After 2015                                                 3,282,286                       -              3,282,286
       Total Future Noncancelable Operating
            Lease Payments                                 $ 4,504,773             $        37,547         $ 4,542,320

Note 14. Seized Cash and Monetary Instruments

The Seized Cash and Monetary Instruments represent liabilities for seized assets held by the Department
pending disposition.

As of September 30, 2010 and 2009
                                                                      2010                     2009

 Investments, Net                                               $    1,293,776          $      1,290,737
 Seized Cash Deposited                                                 106,154                   135,002
 Seized Monetary Instruments                                            70,453                    65,921
   Total Seized Cash and Monetary Instruments                   $    1,470,383          $      1,491,660




                               These notes are an integral part of the financial statements.



                                                           - 74 -
                  FY 2010 U. S. Department of Justice Annual Financial Statements

                                    Notes to the Financial Statements
                                    (Dollars in Thousands, Except as Noted)

Note 15. Other Liabilities

As of September 30, 2010 and 2009
                                                                        2010                     2009

 Intragovernmental
    Employer Contributions and Payroll Taxes Payable              $       176,303         $       151,946
    Other Post-Employment Benefits Due and Payable                             37                     125
    Other Unfunded Employment Related Liabilities                           1,759                   1,528
    Advances from Others                                                  262,847                 259,841
    Liability for Deposit Funds, Clearing
     Accounts and Undeposited Collections                                   4,208                  31,773
    Other Liabilities                                                     513,760                  99,992
       Total Intragovernmental                                            958,914                 545,205

With the Public
   Other Accrued Liabilities                                               47,360                  14,400
   Advances from Others                                                     3,951                   8,591
   Liability for Deposit Funds, Clearing
    Accounts and Undeposited Collections                                  45,616                   46,438
   Cus todial Liabilities                                                118,879                  104,446
   Other Liabilities                                                      44,016                    1,990
      Total With the Public                                              259,822                  175,865
      Total Other Liabilities                                     $    1,218,736          $       721,070



Intragovernmental Other Liabilities primarily represent civil debt collections where the Treasury General Fund
is designated as the recipient of either a portion of a collection or the entire amount of a collection.

Other Accrued Liabilities with the Public consists primarily of future funded energy savings performance
contracts and utilities.

The majority of Liabilities are current with the exception of a portion that consists of capital leases and those
liabilities related to future employee related expenses.




                                 These notes are an integral part of the financial statements.



                                                       - 75 -
                 FY 2010 U. S. Department of Justice Annual Financial Statements

                                  Notes to the Financial Statements
                                  (Dollars in Thousands, Except as Noted)

Note 16. Contingencies and Commitments


                                           Accrued                      Estimated Range of Loss
                                           Liabilities                Low er                Upper

   As of September 30, 2010

      Probable                         $       101,760            $      101,760               $   214,237
      Reasonably Possible                                                 95,585                   124,326

   As of September 30, 2009

      Probable                         $       172,653            $      172,653               $   197,535
      Reasonably Possible                                                173,765                   200,307

Additionally, FPI has entered into firm purchase commitments for solar panel material totaling $25,485 to be
delivered in fiscal year 2011 and $23,671 to be delivered in fiscal year 2014.




                               These notes are an integral part of the financial statements.



                                                           - 76 -
                           FY 2010 U. S. Department of Justice Annual Financial Statements

                                                   Notes to the Financial Statements
                                                   (Dollars in Thousands, Except as Noted)

Note 17. Earmarked Funds

Earmarked funds are financed by specifically identified revenues and are required by statute to be used for
designated activities or purposes, and must be accounted for separately from the Government’s general
revenues. See SFFAS 27, Identifying and Reporting Earmarked Funds, for the required criteria for an
earmarked fund.

As of September 30, 2010

                                                                                                                  Diversion     Federal Prison        Total
                                           Assets Forfeiture   U.S. Trustee       Antitrust    Crime Victims     Control Fee    Commissary       Earmarked
                                                 Fund          System Fund        Division         Fund           Account          Fund            Funds
Balance Sheet
 Assets
   Fund Balance with U. S. Treasury         $      180,150     $     4,439    $      30,210     $ 5,938,699      $ 123,755      $    67,328      $ 6,344,581
   Investments, Net                              2,197,486         184,105                -               -              -                -        2,381,591
   Other Assets                                    197,403          20,704            4,894           3,380         52,534           27,560          306,475
      Total Assets                          $    2,575,039     $   209,248    $      35,104     $ 5,942,079      $ 176,289      $    94,888      $ 9,032,647

 Liabilities
    Accounts Payable                        $     698,517      $    11,370    $       5,652     $     15,560     $   8,479      $    12,696      $   752,274
    Other Liabilities                             189,122           21,203           15,067           59,923       327,089           12,339          624,743
       Total Liabilities                    $     887,639      $    32,573    $      20,719     $     75,483     $ 335,568      $    25,035      $ 1,377,017

Net Pos ition
  Unexpended Appropriations                 $            -     $         -    $      19,585     $         -      $        -     $         -      $    19,585
  Cumulative Results of Operations               1,687,400         176,675           (5,200)      5,866,596        (159,279)         69,853        7,636,045
     Total Net Pos ition                    $    1,687,400     $   176,675    $      14,385     $ 5,866,596      $ (159,279)    $    69,853      $ 7,655,630
     Total Liabilities and Net Pos ition    $    2,575,039     $   209,248    $      35,104     $ 5,942,079      $ 176,289      $    94,888      $ 9,032,647


For the Fiscal Year Ended September 30, 2010

                                                                                                                 Diversion      Federal Prison        Total
                                           Assets Forfeiture   U.S. Trustee       Antitrust    Crime Victims     Control Fee    Commissary       Earmarked
                                                 Fund          System Fund        Division         Fund           Account          Fund            Funds
Statement of Net Cost
    Gross Cost of Operations           $         1,291,742     $   229,760    $ 166,135         $ 608,723        $ 255,152      $ 338,286        $ 2,889,798
   Less: Exchange Revenues                           7,324         289,191       72,958                 -          189,376        331,199            890,048
      Net Cost (Revenue) of Operations $         1,284,418     $   (59,431)   $ 93,177          $ 608,723        $ 65,776       $   7,087        $ 1,999,750

Statement of Changes in Net Position
   Net Position Beginning of Period         $    1,425,883     $   116,141    $      25,734     $ 4,112,981      $ (100,558)    $    73,049      $ 5,653,230

   Budgetary Financing Sources                   1,506,330             319           81,311         2,362,338              -              -           3,950,298
   Other Financing Sources                          39,605             784              517                 -          7,055          3,891              51,852
      Total Financing Sources                    1,545,935           1,103           81,828         2,362,338          7,055          3,891           4,002,150
   Net Cost of Operations                       (1,284,418)         59,431          (93,177)         (608,723)       (65,776)        (7,087)         (1,999,750)
   Net Change                                      261,517          60,534          (11,349)        1,753,615        (58,721)        (3,196)          2,002,400
   Net Position End of Period               $    1,687,400     $   176,675    $      14,385     $ 5,866,596      $ (159,279)    $    69,853      $ 7,655,630




                                                These notes are an integral part of the financial statements.



                                                                       - 77 -
                          FY 2010 U. S. Department of Justice Annual Financial Statements

                                                   Notes to the Financial Statements
                                                   (Dollars in Thousands, Except as Noted)

Note 17. Earmarked Funds (continued)

As of September 30, 2009

                                                                                                                  Diversion     Federal Prison     Total
                                           Assets Forfeiture   U.S. Trustee       Antitrust    Crime Victims     Control Fee    Commissary       Earmarked
                                                 Fund          System Fund        Division         Fund            Account          Fund           Funds
Balance Sheet
 Assets
    Fund Balance with U. S. Treasury        $       39,583     $     9,018    $      45,651     $ 4,203,542      $ 143,100      $  76,756        $ 4,517,650
   Investments, Net                              2,072,999         129,065                -               -              -              -          2,202,064
   Other Assets                                    235,695          11,223            6,091           3,807         46,228         26,997            330,041
      Total Assets                          $    2,348,277     $   149,306    $      51,742     $ 4,207,349      $ 189,328      $ 103,753        $ 7,049,755

Liabilities
   Accounts Payable                         $     695,551      $    13,222    $      11,660     $     36,329     $     995      $    19,165      $   776,922
   Other Liabilities                              226,843           19,943           14,348           58,039       288,891           11,539          619,603
      Total Liabilities                     $     922,394      $    33,165    $      26,008     $     94,368     $ 289,886      $    30,704      $ 1,396,525

Net Pos ition
  Unexpended Appropriations                 $            -     $         -    $      22,207     $         -      $        -     $         -      $    22,207
  Cumulative Results of Operations               1,425,883         116,141            3,527       4,112,981        (100,558)         73,049        5,631,023
     Total Net Pos ition                    $    1,425,883     $   116,141    $      25,734     $ 4,112,981      $ (100,558)    $    73,049      $ 5,653,230
     Total Liabilities and Net Pos ition    $    2,348,277     $   149,306    $      51,742     $ 4,207,349      $ 189,328      $ 103,753        $ 7,049,755


For the Fiscal Year Ended September 30, 2009

                                                                                                                 Diversion      Federal Prison        Total
                                           Assets Forfeiture   U.S. Trustee       Antitrust    Crime Victims     Control Fee    Commissary       Earmarked
                                                 Fund          System Fund        Division         Fund           Account          Fund            Funds
Statement of Net Cost
    Gross Cost of Operations           $         1,001,512     $   223,649    $ 159,370         $ 588,070        $ 217,450      $ 328,415        $ 2,518,466
   Less: Exchange Revenues                           6,723         231,498       42,208                 -          179,933        319,601            779,963
      Net Cost (Revenue) of Operations $           994,789     $    (7,849)   $ 117,162         $ 588,070        $ 37,517       $   8,814        $ 1,738,503

Statement of Changes in Net Position
    Net Position Beginning of Period        $    1,007,809     $   107,305    $      17,330     $ 2,955,373      $   (69,174)   $    78,480      $ 4,097,123

   Budgetary Financing Sources                   1,387,107             234          125,075         1,745,678              -              -           3,258,094
   Other Financing Sources                          25,756             753              491                 -          6,133          3,383              36,516
     Total Financing Sources                     1,412,863             987          125,566         1,745,678          6,133          3,383           3,294,610
   Net Cost of Operations                         (994,789)          7,849         (117,162)         (588,070)       (37,517)        (8,814)         (1,738,503)
   Net Change                                      418,074           8,836            8,404         1,157,608        (31,384)        (5,431)          1,556,107
   Net Position End of Period               $    1,425,883     $   116,141    $      25,734     $ 4,112,981      $ (100,558)    $    73,049      $ 5,653,230




                                                These notes are an integral part of the financial statements.



                                                                              - 78 -
                  FY 2010 U. S. Department of Justice Annual Financial Statements

                                   Notes to the Financial Statements
                                   (Dollars in Thousands, Except as Noted)

Note 17. Earmarked Funds (continued)

The Comprehensive Crime Control Act of 1984 established the AFF to receive the proceeds of forfeiture and to
pay the costs associated with such forfeitures, including the costs of managing and disposing of property,
satisfying valid liens, mortgages, and other innocent owner claims, and costs associated with accomplishing the
legal forfeiture of the property. Authorities of the fund have been amended by various public laws enacted
since 1984. Under current law, authority to use the fund for certain investigative expenses shall be specified in
annual appropriation acts. Expenses necessary to seize, detain, inventory, safeguard, maintain, advertise or sell
property under seizure are funded through a permanent, indefinite appropriation. In addition, beginning in
FY 1993, other general expenses of managing and operating the Asset Forfeiture Program are paid from the
permanent, indefinite portion of the fund. Once all expenses are covered, the balance is maintained to meet
ongoing expenses of the program. Excess unobligated balances may also be allocated by the Attorney General
in accordance with 28 U.S.C. §524(c)(8)(E).

United States Trustees supervise the administration of bankruptcy cases and private trustees in the Federal
Bankruptcy Courts. The Bankruptcy Judges, UST, and Family Farmer Bankruptcy Act of 1986 (Public Law
99–554) expanded the pilot trustee program to a 21 region, nationwide program encompassing 88 judicial
districts. The UST System Fund collects user fees assessed against debtors, which offset the annual
appropriation.

The Antitrust Division administers and enforces antitrust and related statutes. This program primarily involves
the investigation of suspected violations of the antitrust laws, the conduct of civil and criminal proceedings in
the federal courts, and the maintenance of competitive conditions. The Antitrust Division collects filing fees for
pre-merger notifications and retains these fees for expenditure in support of its programs.

The Crime Victims Fund is financed by collections of fines, penalty assessments, and bond forfeitures from
defendants convicted of federal crimes. This fund supports victim assistance and compensation programs
around the country and advocates, through policy development, for the fair treatment of crime victims. The
Office for Victims of Crime administers formula and discretionary grants for programs designed to benefit
victims, provides training for diverse professionals who work with victims, develops projects to enhance
victims' rights and services, and undertakes public education and awareness activities on behalf of crime
victims.

The Diversion Control Fee Account is established in the General Fund of the Treasury as a separate account.
Fees charged by the DEA under the Diversion Control Program are set at a level that ensures the recovery of the
full costs of operating this program. The program’s purpose is to prevent, detect, and investigate the diversion
of controlled substances from legitimate channels, while ensuring an adequate and uninterrupted supply of
controlled substances required to meet legitimate needs.

The Federal Prison Commissary Fund was created in the early 1930s to allow inmates a means to purchase
additional products and services above the necessities provided by appropriated federal funds, e.g., personal
grooming products, snacks, postage stamps, and telephone services. The Trust Fund is a self-sustaining trust
revolving fund account that is funded through sales of goods and services to inmates.


                                These notes are an integral part of the financial statements.



                                                      - 79 -
                              FY 2010 U. S. Department of Justice Annual Financial Statements

                                                           Notes to the Financial Statements
                                                           (Dollars in Thousands, Except as Noted)

Note 18. Net Cost of Operations by Suborganization

For the Fiscal Year Ended September 30, 2010

Dollars in Thousands                   AFF/SADF        OBDs         USMS         OJP           DEA          FBI        ATF          BOP            FPI        Eliminations Consolidated
Goal 1: Prevent Terrorism and Promote the Nation's Security
   Gross Cost                       $          - $ 359,943 $           5,159 $           - $   100,315 $ 5,185,327 $      7,185 $           - $           - $ (112,397) $      5,545,532
   Less: Earned Revenue                        -      110,232              -             -         632     507,996            -             -             -   (112,397)          506,463
   Net Cost (Revenue) of Operations            -      249,711          5,159             -      99,683   4,677,331        7,185             -             -          -         5,039,069

Goal 2: Prevent Crime, Enforce Federal Laws, and Represent the Rights and Interests of the American People
   Gross Cost                           1,291,742    5,763,437         4,872    2,757,971     2,801,202    3,846,770   1,265,934       6,860              -     (1,073,345)   16,665,443
   Less: Earned Revenue                     7,324      968,224             -        49,851      677,670      767,210      91,159           -              -     (1,073,345)    1,488,093
   Net Cost (Revenue) of Operations     1,284,418    4,795,213         4,872    2,708,120     2,123,532    3,079,560   1,174,775       6,860              -              -    15,177,350

Goal 3: Ensure the Fair and Efficient Administration of Justice
   Gross Cost                                    -      2,269,929   3,016,174     988,230            -             -           -    7,021,759      951,139      (1,697,058)   12,550,173
   Less: Earned Revenue                          -        180,804   1,514,103      26,252            -             -           -      372,199      857,542      (1,669,610)    1,281,290
   Net Cost (Revenue) of Operations              -      2,089,125   1,502,071     961,978            -             -           -    6,649,560       93,597         (27,448)   11,268,883


Net Cost (Revenue) of Operations       $ 1,284,418 $ 7,134,049 $ 1,512,102 $ 3,670,098 $ 2,223,215 $ 7,756,891 $ 1,181,960 $ 6,656,420 $            93,597 $      (27,448) $ 31,485,302



For the Fiscal Year Ended September 30, 2009

Dollars in Thousands                   AFF/SADF        OBDs         USMS         OJP           DEA          FBI        ATF          BOP            FPI        Eliminations Consolidated

Goal 1: Prevent Terrorism and Promote the Nation's Security
   Gross Cost                       $          - $ 340,620 $           5,138 $           - $    66,558 $ 4,220,194 $      8,321 $           - $           - $ (115,280) $      4,525,551
   Less: Earned Revenue                        -      114,099              -             -         536     560,603            -             -             -   (115,280)          559,958
   Net Cost (Revenue) of Operations            -      226,521          5,138             -      66,022   3,659,591        8,321             -             -          -         3,965,593

Goal 2: Prevent Crime, Enforce Federal Laws, and Represent the Rights and Interests of the American People
   Gross Cost                           1,001,512    5,265,364         4,129    1,919,976     2,672,648    3,819,673   1,153,318       6,987              -      (965,591)    14,878,016
   Less: Earned Revenue                     6,723      865,107             -      116,353       592,747      718,689      55,556           -              -      (965,591)     1,389,584
   Net Cost (Revenue) of Operations       994,789    4,400,257         4,129    1,803,623     2,079,901    3,100,984   1,097,762       6,987              -             -     13,488,432

Goal 3: Ensure the Fair and Efficient Administration of Justice
   Gross Cost                                    -      2,156,636   2,792,695    1,024,312           -             -           -    6,573,615     1,061,586     (1,738,020)   11,870,824
   Less: Earned Revenue                          -        198,914   1,471,465       58,795           -             -           -      357,601       987,949     (1,709,671)    1,365,053
   Net Cost (Revenue) of Operations              -      1,957,722   1,321,230      965,517           -             -           -    6,216,014        73,637        (28,349)   10,505,771

Net Cost (Revenue) of Operations       $   994,789 $ 6,584,500 $ 1,330,497 $ 2,769,140 $ 2,145,923 $ 6,760,575 $ 1,106,083 $ 6,223,001 $            73,637 $      (28,349) $ 27,959,796




Intragovernmental costs and exchange revenue, as presented on the Consolidated Statements of Net Cost,
represent transactions made between two reporting entities within the federal government. The classification of
revenue or cost as “intragovernmental” is defined on a transaction-by-transaction basis. The purpose of this
classification is to enable the federal government to prepare consolidated financial statements, not to match
intragovernmental revenue with the costs incurred to produce intragovernmental revenue.




                                                      These notes are an integral part of the financial statements.



                                                                                             - 80 -
                  FY 2010 U. S. Department of Justice Annual Financial Statements

                                   Notes to the Financial Statements
                                   (Dollars in Thousands, Except as Noted)

Note 19. Imputed Financing from Costs Absorbed by Others

Imputed Inter-Departmental Financing Sources are the unreimbursed (i.e., non-reimbursed and under-
reimbursed) portion of the full costs of goods and services received by the Department from a providing entity
that is not part of the Department. In accordance with SFFAS No. 30, Inter-Entity Cost Implementation
Amending SFFAS 4, Managerial Cost Accounting Standards and Concepts, the material Imputed Inter-
Departmental financing sources currently recognized by the Department include the cost of benefits for the
Federal Employees Health Benefits Program (FEHB), the Federal Employees’ Group Life Insurance Program
(FEGLI), and the Federal Pension plans that are paid by other federal entities, and any un-reimbursed payments
made from the Treasury Judgment Fund on behalf of the Department. The Treasury Judgment Fund was
established by the Congress and funded at 31 U.S.C. §1304 to pay in whole or in part the court judgments and
settlement agreements negotiated by the Department on behalf of agencies, as well as certain types of
administrative awards. Interpretation of Federal Financial Accounting Standards Interpretation No. 2,
Accounting for Treasury Judgment Fund Transactions, requires agencies to recognize liabilities and expenses
when unfavorable litigation outcomes are probable and the amount can be estimated and will be paid by the
Treasury Judgment Fund.

SFFAS No. 5, Accounting for Liabilities of the Federal Government, requires that employing agencies
recognize the cost of pensions and other retirement benefits during their employees’ active years of service.
SFFAS No. 5 requires OPM to provide cost factors necessary to calculate cost. OPM actuaries calculate the
value of pension benefits expected to be paid in the future, and then determine the total funds to be contributed
by and for covered employees, such that the amount calculated would be sufficient to fund the projected
pension benefits. For employees covered by Civil Service Retirement System (CSRS), the cost factors are
30.1% of basic pay for regular, 51.1% law enforcement officers, 23.5% regular offset, and 45.6% law
enforcement officers offset. For employees covered by Federal Employees Retirement System (FERS), the cost
factors are 13.8% of basic pay for regular and 29.8% for law enforcement officers.

The cost to be paid by other agencies is the total calculated future costs, less employee and employer
contributions. In addition, other retirement benefits, which include health and life insurance that are paid by
other federal entities, must also be disclosed.

For the Fiscal Years Ended September 30, 2010 and 2009
                                                                            2010                    2009
 Imputed Inter-Departmental Financing
   U.S. Treasury Judgment Fund                                        $        135,498          $     40,448
   Health Insurance                                                            553,366               540,484
   Life Insurance                                                                1,969                 1,843
   Pension                                                                     212,044               120,925
      Total Imputed Inter-Departmental                                $        902,877          $    703,700




                                These notes are an integral part of the financial statements.



                                                      - 81 -
                  FY 2010 U. S. Department of Justice Annual Financial Statements

                                   Notes to the Financial Statements
                                   (Dollars in Thousands, Except as Noted)

Note 19. Imputed Financing from Costs Absorbed by Others (continued)

Imputed Intra-Departmental Financing Sources as defined in SFFAS No. 4, Managerial Cost Accounting
Standards and Concepts, are the unreimbursed portion of the full costs of goods and services received by a
Department component from a providing entity that is part of the Department. Recognition is required for those
transactions determined to be material to the receiving entity. The determination of whether the cost is material
requires considerable judgment based on the specific facts and circumstances of each type of good or service
provided. SFFAS No. 4 also states that costs for broad and general support need not be recognized by the
receiving entity, unless such services form a vital and integral part of the operations or output of the receiving
entity. Cost are considered broad and general if they are provided to many, if not all, reporting components and
not specifically related to the receiving entity’s output. The FPI imputed $27,448 and $28,349 for FYs 2010
and 2009, respectively of unreimbursed costs for BOP warehouse space used in the production of goods by the
FPI and for managerial and operational services BOP provided to FPI. These imputed costs have been
eliminated from the consolidated financial statements.

Note 20. Information Related to the Statement of Budgetary Resources

Apportionment Categories of Obligations Incurred:

                                                                                                    Total
                                                        Direct               Reimbursable        Obligations
                                                       Obligations            Obligations         Incurred
For the Fiscal Year Ended September 30, 2010
   Obligations Apportioned Under
      Category A                                     $ 29,509,630           $    5,664,568      $ 35,174,198
      Category B                                        2,747,673                   30,019         2,777,692
      Exempt from Apportionment                                 -                  841,869           841,869
   Total                                             $ 32,257,303           $    6,536,456      $ 38,793,759

For the Fiscal Year Ended September 30, 2009
   Obligations Apportioned Under
      Category A                                     $ 32,327,966           $    5,359,554      $ 37,687,520
      Category B                                        1,749,791                   66,542         1,816,333
      Exempt from Apportionment                                 -                1,025,950         1,025,950
   Total                                             $ 34,077,757           $    6,452,046      $ 40,529,803



Per OMB Circular A-11, Category A obligations represent resources apportioned for calendar quarters.
Category B obligations represent resources apportioned for other time periods; for activities, projects, and
objectives or for a combination thereof.




                                These notes are an integral part of the financial statements.



                                                            - 82 -
                  FY 2010 U. S. Department of Justice Annual Financial Statements

                                   Notes to the Financial Statements
                                   (Dollars in Thousands, Except as Noted)

Note 20. Information Related to the Statement of Budgetary Resources (continued)

Status of Undelivered Orders:

Undelivered Orders (UDO) represent the amount of goods and/or services ordered, which have not been
actually or constructively received. This amount includes any orders which may have been prepaid or advanced
but for which delivery or performance has not yet occurred.

As of September 30, 2010 and 2009
                                                               2010                     2009

 UDO Obligations Unpaid                                  $    12,835,522          $    13,063,814

 UDO Obligations Prepaid/Advanced                              1,824,439                1,799,409

   Total UDO                                             $    14,659,961          $    14,863,223




Permanent Indefinite Appropriations:

A permanent indefinite appropriation is open-ended as to both its period of availability (amount of time the
agency has to spend the funds) and its amount. Following are the Department’s permanent indefinite
appropriations.

       28 U.S.C. '524(c)(4) authorized the Attorney General to retain AFF receipts to pay operations
        expenses, equitable sharing to state and local law enforcement agencies who assist in forfeiture cases,
        and lien holders.

       On October 5, 1990, Congress passed the Radiation Exposure Compensation Act ("RECA" or "the
        Act"), 42 U.S.C. §2210, providing for compassionate payments to individuals who contracted certain
        cancers and other serious diseases as a result of their exposure to radiation released during above-
        ground nuclear weapons tests or as a result of their exposure to radiation during employment in
        underground uranium mines. Implementing regulations were issued by the Department of Justice and
        published in the Federal Register on April 10, 1992. These regulations established procedures to
        resolve claims in a reliable, objective, and non-adversarial manner, with little administrative cost to the
        United States or to the person filing the claim. Revisions to the regulations, published in the Federal
        Register on March 22, 1999, served to greater assist claimants in establishing entitlement to an award.
        On July 10, 2000, P.L. 106-245, the Radiation Exposure Compensation Act Amendments of 2000 ("the
        2000 Amendments") were passed. On November 2, 2002, the President signed the "21st Century
        Department of Justice Appropriation Authorization Act" (P.L. 107-273). Contained in the law were
        several provisions relating to RECA. While most of these amendments were "technical" in nature, some
        affected eligibility criteria and revised claims adjudication procedures. The Consolidated
        Appropriations Act, 2005 provides a permanent indefinite appropriation for the OBDs’ Radiation
        Exposure Compensation Act program beginning FY 2006.


                                These notes are an integral part of the financial statements.



                                                      - 83 -
                  FY 2010 U. S. Department of Justice Annual Financial Statements

                                   Notes to the Financial Statements
                                   (Dollars in Thousands, Except as Noted)

Note 20. Information Related to the Statement of Budgetary Resources (continued)

Permanent Indefinite Appropriations (continued):

       Congress established the Federal Prison Commissary Fund (Trust Fund) in 1932 to allow inmates a
        means to purchase additional products and services above the necessities provided by appropriated
        federal funds. The BOP Trust Fund is now a self-sustaining revolving account that is funded through
        the sales of goods and services, rather than annual or no-year appropriations.

       The Public Safety Officers’ Benefits Act of 1976 (the “PSOB Act”) is generally codified at 42 U.S.C.
        Chapter 46 Subchapter XII.

        OJP’s PSOB appropriation supports one mandatory and two discretionary programs that provide
        benefits to public safety officers who are severely injured in the line of duty and to the families
        and survivors of public safety officers killed or mortally injured in the line of duty.
        The PSOB Program offers three types of benefits:

            1.   Death Benefits, a one-time financial benefit to survivors of public safety officers whose
                  deaths resulted from injuries sustained in the line of duty. Under the Hometown Heroes
                 Survivors Benefit Act of 2003, survivors of public safety officers who die of a heart attack or
                 stroke within 24 hours of stressful, non-routine public safety activities may also qualify for
                 death benefits.

            2.	 Disability Benefits, a one-time financial benefit to public safety officers permanently disabled
                by catastrophic injuries sustained in the line of duty.

            3.	 Education Benefits, which provide financial support for higher education expenses (such as
                tuition and fees, books, supplies, and room and board) to the eligible spouses and children of
                public safety officers killed or permanently disabled in the line of duty.

Legal Arrangements Affecting Use of Unobligated Balances:

Unobligated balances represent the cumulative amount of budget authority that is not obligated and that
remains available for obligation under law, unless otherwise restricted. The use of unobligated balances is
restricted based on annual legislation requirements and other enabling authorities. Funds are appropriated on
an annual, multi-year, and no-year basis. Appropriated funds shall expire on the last day of availability and
are no longer available for new obligations. Unobligated balances in unexpired fund symbols are available in
the next fiscal year for new obligations unless some restrictions had been placed on those funds by law.
Amounts in expired fund symbols are unavailable for new obligations, but may be used to adjust previously
established obligations.




                                These notes are an integral part of the financial statements.



                                                            - 84 -
                       FY 2010 U. S. Department of Justice Annual Financial Statements

                                          Notes to the Financial Statements
                                          (Dollars in Thousands, Except as Noted)

Note 20. Information Related to the Statement of Budgetary Resources (continued)

Statement of Budgetary Resources vs Budget of the United States Government:

The reconciliation as of September 30, 2009 is presented below. The reconciliation as of September 30, 2010 is
not presented, because the submission of the Budget of the United States (Budget) for FY 2012, which presents
the execution of the FY 2010 Budget, occurs after publication of these financial statements. The Department of
Justice Budget Appendix can be found on the OMB website (http://www.whitehouse.gov/omb/budget) and will
be available in early February 2011.

 For the Fiscal Year Ended September 30, 2009
   (Dollars in Millions )                                                                                 Distribut ed
                                                                       Budgetary     Obligations          Offsetting                 Net
                                                                       Resources      Incurred             Receipts                 Outlays

 Statement of Budgetary Resources (SBR)                            $       44,577    $    40,530      $                  539    $      28,068

 Funds not Reported in the Budget
       Expired Funds: OBDs, USMS, DEA, OJP, FBI, ATF & BOP                   (889)          (314)                          -                -
       AFF/SADF Forfeiture Activity                                           (60)             -                           -                -
       OCDETF Adjustments                                                      (3)             6                           -                -
       USMS Court Security Funds                                             (378)          (371)                          -             (347)
       Distributed Offsetting Receipts                                          -              -                           7                3
       OBDs/DEA Special and Trust Fund Receipts                                 -              -                          (1)             536
 Other                                                                         (1)            (4)                          6                -

 Budget of the United States                                       $       43,246    $    39,847      $              551        $      28,260



Other differences represent financial statement adjustments, timing differences and other immaterial differences
between amounts reported in the Department SBR and the Budget of the United States.




                                      These notes are an integral part of the financial statements.



                                                            - 85 -
                  FY 2010 U. S. Department of Justice Annual Financial Statements

                                    Notes to the Financial Statements
                                    (Dollars in Thousands, Except as Noted)

Note 21. Allocation Transfers of Appropriation

The Department is a party to allocation transfers with other Federal agencies as a transferring (parent) entity
and/or a receiving (child) entity. Allocation transfers are legal delegations by one department of its authority to
obligate budget authority and outlay funds to another department. Generally, all financial activity related to
these allocation transfers (e.g., budget authority, obligations, outlays) is reported in the financial statements of
the parent entity, from which the underlying legislative authority, appropriations, and budget apportionments
are derived.

During FY 2010, the Department transferred $17,000 from the Crime Victims Fund to the Department of
Health and Human Services (HHS). For FY 2009, the OJP, as the parent, transferred the same amount to HHS.
 This funding is required by 42 U.S.C. §10603a {Sec. 14-4A} for Child Abuse Prevention and Treatment
Grants. Amounts made available by section §10601(d)(2) of this title, for the purpose of this section, shall be
obligated and expended by the Secretary of HHS for grants under section §5106c of this title. The activity
related to these transfers is included as part of these financial statements.

The Department also allocated funds from BOP to the Public Health Service (PHS). PHS provides a portion of
medical treatment for federal inmates. The money is designated and expended for current year obligation of
PHS staff salaries, benefits, and applicable relocation expenses. The amounts BOP, as the parent, transferred to
PHS totaled $90,000 and $82,000 for the fiscal years ended September 30, 2010 and 2009, respectively, and the
related activity is included as part of these financial statements.

The Department receives allocation transfers of appropriation from the Administrative Office of U.S. Courts
(AOUSC). However, the AOUSC is not an Executive Branch entity and is not required to report annual
financial statements. Although the USMS is the child in the allocation transfer, per OMB guidance, all activity
relative to these allocation transfers is reported in these financial statements. The allocation transfers are used
for costs associated with protective guard services - Court Security Officers (CSOs) at United States
courthouses and other facilities housing federal court operations. These costs include their salaries (paid
through contracts), equipment, and supplies. This transfer is performed on an annual basis.

Note 22. Net Custodial Revenue Activity

Custodial revenue activity represents those collections of non-exchange revenue on behalf of other recipient
entities. These collections are not recorded as revenue by the Department but as activity on the Statement of
Custodial Activity. The custodial liabilities presented on the Consolidated Balance Sheet and Note 15
represent funds held by the Department that have yet to be disbursed to the appropriate Federal agency or
individual.




                                 These notes are an integral part of the financial statements.



                                                             - 86 -
                  FY 2010 U. S. Department of Justice Annual Financial Statements

                                   Notes to the Financial Statements
                                   (Dollars in Thousands, Except as Noted)


Note 22. Net Custodial Revenue Activity (continued)

The primary source of DCM collections consists of civil litigated matters (i.e., student loan defaults, health care
fraud, etc.). The DCM also processes certain payments on criminal debts as an accommodation for the Bureau
of Prisons (BOP) and the Clerks of the U.S. District Courts. The BOP aggregates collections of inmate criminal
debt by correction facility, and the DCM sorts the collections by judicial district and disburses payments to the
respective Clerks of the U.S. Court. The DCM also accepts wire transfers or other payments on a criminal debt
if a Clerk of the U.S. Court is unable or unwilling to do so. In addition, other negligible custodial collections
occur for interest, fines and penalties.

The OBDs collect civil fines, penalties, and restitution payments that are incidental to its mission. By court
order, the OBDs were given the investment authority and the settlement funds collected must be invested. The
OBDs invest these funds with the Treasury, Bureau of the Public Debt. As of September 30, 2010 and 2009,
the custodial assets and liabilities recorded by the OBDs on the balance sheet are $448,467 and $238,242
respectively. The OBDs custodial collections totaled $4,822,740 and $2,907,842 for the fiscal years ended
September 30, 2010 and 2009.

For the fiscal years ended September 30, 2010 and 2009, DEA collected $20,963 and $59,961, respectively.
DEA’s collections include $15 million of the total fees collected for the Diversion Control Program and civil
monetary penalties related to violations of the Controlled Substances Act that were incidental to DEA’s
mission. Since DEA has no statutory authority to use these excess funds, DEA transmits them to the Treasury
General Fund. The DEA has a custodial liability for funds that have not yet been transmitted to the Treasury
General Fund. The September 30, 2010 and 2009 balances for custodial liabilities were $1,584 and $2,310
respectively.

As an agent of the federal government and as authorized by 26 U.S.C. § 6301, ATF collects fees from firearms
and explosives industries, as well as import, permit and license fees. In addition, Special Occupational Taxes
are collected from certain firearms businesses. As ATF is unable to use these collections in its operations, ATF
also has the authority to transfer these collections to the Treasury General Fund. The ATF custodial collections
totaled $14,674 and $14,529 for the fiscal years ended September 30, 2010 and 2009, respectively.




                                These notes are an integral part of the financial statements.



                                                      - 87 -
                FY 2010 U. S. Department of Justice Annual Financial Statements

                                 Notes to the Financial Statements
                                 (Dollars in Thousands, Except as Noted)

Note 23. OMB Circular A-136 Consolidated Balance Sheet Presentation

                                             U.S. Department of Justice

                                            Consolidated Balance Sheets

                                         As of September 30, 2010 and 2009

         Dollars in Thousands                                                                 2010             2009

         ASSETS
           Intragovernmental
             Fund Balance with U.S. Treasury                                    $   23,596,587       $   20,857,015
             Investments, Net                                                        4,061,733            3,842,785
             Accounts Receivable, Net                                                  302,310              326,410
             Other Assets                                                              122,664              130,988
           Total Intragovernmental                                                  28,083,294           25,157,198
           Cash and Other Monetary Assets                                              245,283              229,794
           Accounts Receivable, Net                                                     87,260               79,824
           Inventory and Related Property, Net                                         237,347              298,701
           General Property, Plant and Equipment, Net                                9,741,154            9,215,026
           Other Assets                                                              1,696,352            1,647,285
         Total Assets                                                           $   40,090,690       $   36,627,828
         LIABILITIES
           Intragovernmental
             Accounts Payable                                                  $        273,619      $      309,072
              Other Liabilities                                                       1,533,532             917,569
           Total Intragovernmental                                                    1,807,151           1,226,641
           Accounts Payable                                                          2,505,665            2,253,013
           Federal Employee and Veteran Benefits                                     1,314,105            1,233,899
           Environmental and Disposal Liabilities                                       71,657               22,316
           Other Liabilities                                                         4,862,202            4,460,642
         Total Liabilities                                                      $   10,560,780       $    9,196,511
         NET POSITION
           Unexpended Appropriations - Earmarked Funds                         $        19,585       $       22,207
           Unexpended Appropriations - All Other Funds                              13,805,629           13,902,525
           Cumulative Results of Operations - Earmarked Funds                        7,636,045            5,631,023
           Cumulative Results of Operations - All Other Funds                        8,068,651            7,875,562
         Total Net Position                                                     $   29,529,910       $   27,431,317
         Total Liabilities and Net Position                                     $   40,090,690       $   36,627,828




                              These notes are an integral part of the financial statements.



                                                          - 88 -
                 FY 2010 U. S. Department of Justice Annual Financial Statements

                                 Notes to the Financial Statements
                                 (Dollars in Thousands, Except as Noted)

Note 24. Reconciliation of Net Cost of Operations (proprietary) to Budget (formerly the Statement of
Financing)

For the Fiscal Years Ended September 30, 2010 and 2009

                                                                                               2010            2009
Resources Used to Finance Activities
   Budgetary Resources Obligated
     Obligations Incurred                                                                 $ 38,793,759      $ 40,529,803
     Less: Spending Authority from Offsetting Collections and Recoveries                     7,626,950         7,633,297
     Obligations Net of Offsetting Collections and Recoveries                               31,166,809        32,896,506
     Less: Offsetting Receipts                                                                 941,368           539,325
     Net Obligations                                                                        30,225,441        32,357,181

   Other Resources
      Donations and Forfeitures of Property                                                       71,204         68,213
      Transfers-In/Out Without Reimbursement                                                      (3,433)         9,170
      Imputed Financing from Costs Absorbed by Others (Note 19)                                  902,877        703,700
      Net Other Resources Used to Finance Activities                                             970,648        781,083
Total Resources Used to Finance Activities                                                    31,196,089     33,138,264

Resources Used to Finance Items not Part of the Net Cost of
   Operations
      Change in Budgetary Resources Obligated for Goods, Services
         and Benefits Ordered but not Yet Provided                                              139,965      (4,940,729)
      Resources That Fund Expenses Recognized in Prior Periods (Note 25)                        (77,146)         (7,656)
      Budgetary Offsetting Collections and Receipts That do not
         Affect Net Cost of Operations                                                           300,608        (65,939)
      Resources That Finance the Acquisition of Assets                                        (1,295,160)    (1,174,153)
      Other Resources or Adjustments to Net Obligated Resources
         That do not Affect Net Cost of Operations                                               (49,768)        29,514
Total Resources Used to Finance Items not Part of the Net Cost
   of Operations                                                                                (981,501)    (6,158,963)

Total Resources Used to Finance the Net Cost of Operations                                $ 30,214,588      $ 26,979,301




                              These notes are an integral part of the financial statements.



                                                    - 89 -
                FY 2010 U. S. Department of Justice Annual Financial Statements

                                 Notes to the Financial Statements
                                 (Dollars in Thousands, Except as Noted)

Note 24. Reconciliation of Net Cost of Operations (proprietary) to Budget (formerly the Statement of
Financing) (continued)

For the Fiscal Years Ended September 30, 2010 and 2009                                        2010            2009

Components of Net Cost of Operations That Will not Require
  or Generate Resources in the Current Period

      Components of Net Cost of Operations That will Require or
        Generate Resources in Future Periods (Note 25)                                    $    450,866    $   267,978

      Components not Requiring or Generating Resources
         Depreciation and Amortization                                                         727,012        685,778
         Revaluation of Assets or Liabilities                                                   29,772         28,129
         Other                                                                                  63,064         (1,390)
      Total Components of Net Cost of Operations That will not Require or
         Generate Resources                                                                    819,848        712,517

Total Components of Net Cost of Operations That Will not
   Require or Generate Resources in the Current Period                                        1,270,714       980,495

Net Cost of Operations                                                                    $ 31,485,302    $ 27,959,796




                              These notes are an integral part of the financial statements.



                                                          - 90 -
                  FY 2010 U. S. Department of Justice Annual Financial Statements

                                    Notes to the Financial Statements
                                    (Dollars in Thousands, Except as Noted)

Note 25. Explanation of Differences Between Liabilities not Covered by Budgetary Resources and
         Components of Net Cost of Operations Requiring or Generating Resources in Future Periods

Liabilities that are not covered by realized budgetary resources and for which there is not certainty that
budgetary authority will be realized, such as the enactment of an appropriation, are considered liabilities not
covered by budgetary resources. These liabilities totaling $3,478,383 and $3,101,138 on September 30, 2010
and 2009, respectively, are discussed in Note 11, Liabilities not Covered by Budgetary Resources. Decreases in
these liabilities result from current year budgetary resources that were used to fund expenses recognized in prior
periods. Increases in these liabilities represent unfunded expenses that were recognized in the current period.
These increases along with the change in the portion of exchange revenue receivables from the public, which
are not considered budgetary resources until collected, represent components of current period net cost of
operations that will require or generate budgetary resources in future periods. The changes in liabilities not
covered by budgetary resources and receivables generating resources in future periods are comprised of the
following:

For the Fiscal Years Ended September 30, 2010 and 2009
                                                                                                     2010           2009
 Resources that Fund Expenses Recognized in Prior Periods
   Other
      Decrease in Cont inge nt Liabilities                                                       $   (70,893)   $         -
      Decrease in Capital Lease Liabilities                                                           (6,253)        (5,779)
      Decrease in Other Unfunded Employment Related Liabilities                                            -         (1,877)
         Total Resources that Fund Expenses Recognized in Prior Periods                          $   (77,146)   $    (7,656)

 Components of Net Cost of Operations Requiring or Generating Resources in Future Periods
   Increase in Accrued Annual and Compensatory Leave Liabilities                          $ 45,156              $    54,646
   Increase in Environmental and Disposal Liabilities                                        49,545                       -
   (Increase)/Decrease in Exchange Revenue Receivable from the Public                        (1,671)                  3,877
   Other
      Inc rease in Actuarial FECA Liabilities                                                80,206                  97,330
      Inc rease in Accrued FECA Liabilities                                                   6,951                   9,494
      Increase in Deferred Revenue                                                           41,324                  54,510
      Increase in Contingent Liabilities                                                          -                   8,341
      Inc rease in RECA Liabilities                                                         197,949                  22,164
      Increase in Other Unfunded Employee Related Liabilities                                   230                       -
      Inc rease in Other Liabilities                                                         33,030                   5,953
      (Increase)/Decrease in Nonexchange Receivables from the Public                            (63)                    113
      (Increase)/Decrease in Surcharge Revenue Receivable
             from Other Federal Agencies                                                     (1,791)                 11,550
         Total Other                                                                        357,836                 209,455
         Total Components of Net Cost of Operations Requiring or
             Generating Resources in Future Periods                                       $ 450,866             $ 267,978




                                 These notes are an integral part of the financial statements.



                                                       - 91 -
                  FY 2010 U. S. Department of Justice Annual Financial Statements

                                   Notes to the Financial Statements
                                   (Dollars in Thousands, Except as Noted)

Note 26. Change in Accounting Principle

For FY 2010, in accordance with guidance provided by the Office of Management and Budget (OMB), the AFF
changed its method of reporting rescissions of budgetary authority by reporting $387,200 as temporarily not
available pursuant to public law in the budgetary resources section of the SBR. In FY 2009, based on guidance
issued by OMB, rescissions were reported as unobligated balances not available in the status of budgetary
resources of the SBR. The new method of accounting for rescissions was adopted based on guidance received
from the OMB to better align rescissions reported in the SBR with the amounts reported by OMB in the Budget
of the United States.

OMB Circular No. A-136 states that the cost for any clean-up cost liability recognized upon implementation of
the FASAB Technical Bulletin 2006-1, Recognition and Measurement of Asbestos-Related Cleanup Costs,
requiring recognition shall be shown on the SCNP as a prior period adjustment. The BOP and FBI recognized
the estimated total clean-up cost for friable and non-friable asbestos as a liability and reported the offsetting
charge as a “Change in Accounting Principles” in the SCNP. As of September 30, 2010, BOP and FBI
management has determined their estimated asbestos clean-up liability is $36,833 thousand and $9,755
thousand, respectively




For the Fiscal Year Ended September 30, 2010

           Statement of Changes in Net Position                             $      46,588




                                                                                                .





                                These notes are an integral part of the financial statements.



                                                            - 92 -
Consolidating and Combining 

   Financial Statements 





          - 93 -
                                                                                                                               U. S. Department of Justice

                                                                                                                               Consolidating Balance Sheet

                                                                                                                                As of September 30, 2010


                                                                        AFF/SADF            OBDs              USMS                 OJP                 DEA             FBI              ATF            BOP              FPI             Eliminations           Consolidated

         ASSETS
               Intragovernmental
                   Fund Balance with U.S. Treasury                  $         180,150   $     5,825,079   $      684,686   $         10,519,156    $     809,035   $    3,694,239   $    261,136   $    1,600,858   $      22,248   $                - $              23,596,587
                   Investments, Net                                         3,491,262           270,271                -                      -                -                -              -                -         300,200                    -                 4,061,733
                   Accounts Receivable, Net                                     4,245           291,193          149,713                  6,883           39,117          158,737         28,291            6,235          25,219             (407,323)                  302,310
                   Other Assets                                                 2 607           134 244           17 212                 76 831           51 090           30 638         14 349              407               -             (204 714)                  122 664
               Total Intragovernmental                                      3,678,264         6,520,787          851,611             10,602,870          899,242        3,883,614        303,776        1,607,500         347,667             (612,037)               28,083,294

               Cash and Monetary Assets                                      131,030                46                 -                      -           13,407           51,017         49,009              774               -                      -                 245,283
               Accounts Receivable, Net                                            -            19,769                47                  5,774            2,325           30,384            162           20,012           8,787                      -                  87,260
               Inventory and Related Property, Net                                 -               106             2,739                      -            6,770            7,927              -           16,474         203,331                      -                 237,347
               Forfeited Property, Net                                       189,122                 -                 -                      -                -                -              -                -               -                      -                 189,122
               General Property, Plant and Equipment, Net                      1,417           231,301           257,937                 12,032          382,137        2,197,590        207,118        6,334,726         116,896                      -               9,741,154
               Advances and Prepayments                                           12             8,225                17              1,428,298            9,929           46,698          1,669            3,845           2,711                      -               1,501,404
               Other Assets                                                        -                 -               184                      -                -                -              -            4,662             980                      -                   5,826
         Total Assets                                               $      3,999,845    $    6,780,234    $    1,112,535   $        12,048,974     $   1,313,810   $    6,217,230   $    561,734   $    7,987,993   $    680,372    $        (612,037) $             40,090,690

         LIABILITIES
               Intragovernmental
                   Accounts Payable                                 $         69,170    $       306,300   $       26,177   $              18,928   $      42,007   $      162,573   $     14,803   $       33,303   $       4,621             (404,263) $                273,619
                   Accrued FECA Liabilities                                        -              9,265           15,725                     129          26,651           31,231         19,567          139,222           1,656                    -                   243,446
                   Custodial Liabilities                                           -            329,588                -                       -           1,584                -              -                -               -                    -                   331,172
                   Other Liabilities                                               -            569 083           24 344                 147 914          26 273          114 588          9 393           73 926         201 167             (207 774)                  958 914
               Total Intragovernmental                                        69 170          1 214 236           66 246                 166 971          96 515          308 392         43 763          246 451         207 444             (612 037)                1 807 151

               Accounts Payable                                               629,347          363,569           406,268                  33,369         117,280          488,886         45,744          389,178          46,381                      -               2,520,022
               Accrued Grant Liabilities                                            -          147,652                 -                 383,171               -                -              -                -               -                      -                 530,823
               Actuarial FECA Liabilities                                           -           50,022            83,490                     657         144,858          176,353        107,012          735,856          15,857                      -               1,314,105
               Accrued Payroll and Benefits                                         -          128,797            30,525                   7,930          59,032          187,572         31,560          140,727           8,838                      -                 594,981
               Accrued Annual and Compensatory Leave Liabilities                    -          183,120            42,138                   6,068          98,608          265,775         52,408          168,853           9,911                      -                 826,881
               Environmental and Disposal Liabilities                               -                -                 -                       -               -            9,755              -           61,902               -                      -                  71,657
               Deferred Revenue                                               189,122                -                 -                       -         311,164                -              -            1,833               -                      -                 502,119
               Seized Cash and Monetary Instruments                         1,424,806                -                 -                       -             447           42,120          3,010                -               -                      -               1,470,383
               Contingent Liabilities                                               -            4,738            17,000                       -           4,928           66,762          3,505            4,827               -                      -                 101,760




- 94 -
               Capital Lease Liabilities                                            -                -               946                      18               -                -          1,875           30,703             107                      -                  33,649
               Radiation Exposure Compensation Act Liabilities                      -          541,784                 -                       -               -                -              -                -               -                      -                 541,784
               Other Liabilities                                                    -          118 879                 -                       -              92            3 297         41 416           96 138               -                      -                 259 822
         Total Liabilities                                          $      2,312,445    $    2,752,797    $     646,613    $           598,184     $    832,924    $    1,548,912   $    330,293   $    1,876,468   $    288,538    $        (612,037) $             10,575,137

         NET POSITION
               Unexpended Appropriations - Earmarked Funds          $               -   $        19,585 $              -   $                  -    $           - $              -   $          -                    $           -   $                  -   $              19,585
               Unexpended Appropriations - All Other Funds                          -         3,979,216          328,900              5,571,977          559,167        2,255,206        202,183          894,623               -                      -              13,791,272
               Cumulative Results of Operations - Earmarked Funds           1,687,400           171,475                -              5,866,596         (159,279)               -              -           69,853               -                      -               7,636,045
               Cumulative Results of Operations - All Other Funds                   -          (142 839)         137 022                 12 217           80 998        2 413 112         29 258        5 147 049         391 834                      -               8 068 651
         Total Net Position                                         $      1,687,400    $    4,027,437    $     465,922    $        11,450,790     $    480,886    $    4,668,318   $    231,441   $    6,111,525   $    391,834    $                  -   $         29,515,553

         Total Liabilities and Net Position                         $      3,999,845    $    6,780,234    $    1,112,535   $        12,048,974     $   1,313,810   $    6,217,230   $    561,734   $    7,987,993   $    680,372    $        (612,037) $             40,090,690
                                                                                                                        U. S. Department of Justice

                                                                                                                        Consolidating Balance Sheet

                                                                                                                         As of September 30, 2009


         Dollars in Thousands                                           AFF/SADF           OBDs             USMS             OJP              DEA             FBI              ATF                BOP              FPI                Eliminations           Consolidated

         ASSETS
             Intragovernmental
                 Fund Balance with U.S. Treasury                    $         39,583   $    4,900,344   $     497,604   $     9,306,877   $     783,421   $    3,292,066   $     257,432      $    1,758,029   $      21,659      $                - $           20,857,015
                 Investments, Net                                          3,363,736          215,149               -                 -               -                -               -                   -         263,900                       -              3,842,785
                 Accounts Receivable, Net                                      4,021          334,297         188,213            10,372          72,897          137,156          18,612               3,765          46,798                (489,721)               326,410
                 Other Assets                                                  2,757          199,351           3,025            49,746          55,295           57,512          20,694                 347               -                (257,739)               130,988
             Total Intragovernmental                                       3 410 097        5 649 141         688 842         9 366 995         911 613        3 486 734         296 738           1 762 141         332 357                (747 460)            25 157 198

               Cash and Monetary Assets                                      160,522               46               -                 -          10,089           52,058           6,341                 738               -                         -              229,794
               Accounts Receivable, Net                                            -           10,144             146             7,208           2,543           31,159              99              19,611           8,914                         -               79,824
               Inventory and Related Property, Net                                 -              120           2,150                 -           6,862            8,804               -              16,533         264,232                         -              298,701
               Forfeited Property, Net                                       226,843                -               -                 -               -                -               -                   -               -                         -              226,843
               General Property, Plant and Equipment, Net                      2,071          183,139         254,273            13,781         387,325        1,814,851         196,681           6,239,221         123,684                         -            9,215,026
               Advances and Prepayments                                            3            6,907              68         1,337,788           9,241           51,986             853               3,729           4,946                         -            1,415,521
               Other Assets                                                        -                -             184                 -               -                -               -               3,721           1,016                         -                4,921
         Total Assets                                               $      3,799,536   $    5,849,497   $     945,663   $    10,725,772   $   1,327,673   $   5,445,592    $    500,712       $   8,045,694    $     735,149      $        (747,460) $          36,627,828

         LIABILITIES
               Intragovernmental
                   Accounts Payable                                 $         67,523   $      347,723   $      35,165   $        50,095   $      65,505   $     166,513    $         18,366   $      41,402    $       4,982      $         (488,202) $             309,072
                   Accrued FECA Liabilities                                        -            8,973          15,222               136          25,594          32,785              19,751         132,154            1,643                       -                236,258
                   Custodial Liabilities                                           -          133,796               -                 -           2,310               -                   -               -                -                       -                136,106
                   Other Liabilities                                               -          178 149          20 878           230 852          21 888          87 513               8 332          62 659          194 192                (259 258)               545 205
               Total Intragovernmental                                        67,523          668,641          71,265           281,083         115,297         286,811              46,449         236,215          200,817                (747,460)             1,226,641

               Accounts Payable                                              628,028          329,785         353,922            29,365         113,778         356,100           46,047            343,619              52,369                      -            2,253,013
               Accrued Grant Liabilities                                           -          109,498               -           321,721               -               -                -                  -                   -                      -              431,219
               Actuarial FECA Liabilities                                          -           47,504          81,314               494         139,308         176,818          105,498            669,020              13,943                      -            1,233,899
               Accrued Payroll and Benefits                                        -          114,220          24,728             7,470          52,574         161,029           28,055            125,510               9,118                      -              522,704
               Accrued Annual and Compensatory Leave Liabilities                   -          178,265          38,931             5,625          93,474         244,863           48,600            162,056              10,363                      -              782,177
               Environmental and Disposal Liabilities                              -                -               -                 -               -               -                -             22,112                 204                      -               22,316
               Deferred Revenue                                              226,843                -               -                 -         269,840               -                -              1,625                   -                      -              498,308
               Seized Cash and Monetary Instruments                        1,451,259                -               -                 -             575          37,390            2,436                  -                   -                      -            1,491,660




- 95 -
               Contingent Liabilities                                              -                -          18,250                 -          16,995         128,978            3,500              4,930                   -                      -              172,653
               Capital Lease Liabilities                                           -                -           1,831                20               -               -            3,241             36,956                 173                      -               42,221
               Radiation Exposure Compensation Act Liabilities                     -          343,835               -                 -               -               -                -                  -                   -                      -              343,835
               Other Liabilities                                                   -          104 446               -                 -              67           5 362              110             65 880                   -                      -              175 865
         Total Liabilities                                          $      2,373,653   $    1,896,194   $     590,241   $      645,778    $    801,908    $   1,397,351    $    283,936       $   1,667,923    $     286,987      $        (747,460) $            9,196,511

         NET POSITION
               Unexpended Appropriations - Earmarked Funds          $              -   $       22,207   $           -   $             -   $           - $              -   $           -      $            -   $           -      $                  -   $           22,207
               Unexpended Appropriations - All Other Funds                         -        3,782,236         222,502         5,951,999         540,670        2,114,589         183,607           1,106,922               -                         -           13,902,525
               Cumulative Results of Operations - Earmarked Funds          1,425,883          119,668               -         4,112,981        (100,558)               -               -              73,049               -                         -            5,631,023
               Cumulative Results of Operations - All Other Funds                  -           29,192         132,920            15,014          85,653        1,933,652          33,169           5,197,800         448,162                         -            7,875,562
         Total Net Position                                         $      1,425,883   $    3,953,303   $     355,422   $    10,079,994   $    525,765    $   4,048,241    $    216,776       $   6,377,771    $     448,162      $                  -   $      27,431,317

         Total Liabilities and Net Position                         $      3,799,536   $    5,849,497   $     945,663   $    10,725,772   $   1,327,673   $   5,445,592    $    500,712       $   8,045,694    $     735,149      $        (747,460) $          36,627,828
                                                                                                                            U. S. Department of Justice

                                                                                                                        Consolidating Statement of Net Cost

                                                                                                                   For the Fiscal Year Ended September 30, 2010


         Dollars in Thousands                                       AFF/SADF               OBDs             USMS               OJP                DEA                FBI              ATF                BOP               FPI                Eliminations             Consolidated

         Goal 1: Prevent Terrorism and Promote the Nation's Security
           Gross Cost - Intragovernmental                       $                  -   $      82,443    $          5,159   $              -   $      24,424      $    1,358,631   $              -   $             -   $              -   $           (112,397) $           1,358,260
           Gross Cost - With the Public                                            -         277,500                   -                  -          75,891           3,826,696              7,185                 -                  -                      -              4,187,272
              Subtotal Gross Costs                                                 -         359 943               5 159                  -         100 315           5 185 327              7 185                 -                  -               (112 397)             5 545 532
            Earned Revenues - Intragovernmental                                    -          90,793                   -                  -               632          495,393                   -                 -                  -               (112,397)               474,421
            Earned Revenues - With the Public                                      -          19 439                   -                  -                 -           12 603                   -                 -                  -                      -                 32 042
               Subtotal Earned Revenues                                            -         110,232                   -                  -               632          507,996                   -                 -                  -               (112,397)               506,463
               Subtotal Net Cost (Revenues) of Operations      $                   -   $     249,711    $          5,159   $              -   $         99,683   $    4,677,331   $          7,185   $             -   $              -   $                   -    $        5,039,069

         Goal 2: Prevent Crime, Enforce Federal Laws, and Represent the Rights and Interests of the American People
           Gross Cost - Intragovernmental                      $             382,798   $    1,799,980   $          4,872   $      140,429     $      836,028     $    1,007,910   $      365,344     $             -   $              -   $          (1,073,345) $          3,464,016
           Gross Cost - With the Public                                      908,944        3,963,457                  -        2,617,542          1,965,174          2,838,860          900,590               6,860                  -                       -            13,201,427
              Subtotal Gross Costs                                         1 291 742        5 763 437              4 872        2 757 971          2 801 202          3 846 770        1 265 934               6 860                  -              (1 073 345)           16 665 443
           Earned Revenues - Intragovernmental                                7,324          563,603                   -             49,844         482,951            631,012              90,417                 -                  -              (1,073,345)              751,806
           Earned Revenues - With the Public                                      -          404 621                   -                  7         194 719            136 198                 742                 -                  -                       -               736 287
              Subtotal Earned Revenues                                        7,324          968,224                   -             49,851         677,670            767,210              91,159                 -                  -              (1,073,345)            1,488,093
               Subtotal Net Cost (Revenues) of Operations      $           1,284,418   $    4,795,213   $          4,872   $    2,708,120     $    2,123,532     $    3,079,560   $    1,174,775     $         6,860   $              -   $                   -    $       15,177,350

         Goal 3: Ensure the Fair and Efficient Administration of Justice
               Gross Cost - Intragovernmental                   $                  -   $    1,535,834   $      523,823     $      56,647      $              -   $            -   $              -   $    1,513,891    $     180,239      $          (1,697,058) $          2,113,376
               Gross Cost - With the Public                                        -          734 095        2 492 351           931 583                     -                -                  -        5 507 868          770 900                          -            10 436 797
                  Subtotal Gross Costs                                             -        2,269,929        3,016,174           988,230                     -                -                  -        7,021,759          951,139                 (1,697,058)           12,550,173
               Earned Revenues - Intragovernmental                                 -         141,722         1,511,198               26,252                  -                -                  -          12,903           778,579                 (1,669,610)              801,044
               Earned Revenues - With the Public                                   -          39,082             2,905                    -                  -                -                  -         359,296            78,963                          -               480,246
                  Subtotal Earned Revenues                                         -         180 804         1 514 103               26 252                  -                -                  -         372 199           857 542                 (1 669 610)            1 281 290
                  Subtotal Net Cost (Revenues) of Operations   $                   -   $    2,089,125   $    1,502,071     $     961,978      $              -   $            -   $              -   $    6,649,560    $         93,597   $            (27,448) $          11,268,883


         Total Net Cost (Revenue) of Operations                $           1,284,418   $    7,134,049   $    1,512,102     $    3,670,098     $    2,223,215     $    7,756,891   $    1,181,960     $    6,656,420    $         93,597   $            (27,448) $          31,485,302




- 96 -
                                                                                                                    U. S. Department of Justice

                                                                                                                Consolidating Statement of Net Cost

                                                                                                           For the Fiscal Year Ended September 30, 2009


           Dollars in Thousands                                AFF/SADF            OBDs             USMS               OJP                DEA                FBI              ATF                BOP               FPI                Eliminations           Consolidated

         Goal 1: Prevent Terrorism and Promote the Nation's Security
           Gross Cost - Intragovernmental                  $               -   $       86,405   $          5,138   $              -   $         13,414   $    1,143,681   $              -   $             -   $              -   $         (115,280) $           1,133,358
           Gross Cost - With the Public                                    -          254,215                  -                  -             53,144        3,076,513              8,321                 -                  -                    -              3,392,193
                                                                           -          340 620              5 138                  -             66 558        4 220 194              8 321                 -                  -             (115 280)             4 525 551
           Earned Revenues - Intragovernmental                             -           98,711                  -                  -               501          549,297                   -                 -                  -             (115,280)               533,229
           Earned Revenues - With the Public                               -           15 388                  -                  -                35           11 306                   -                 -                  -                    -                 26 729
                                                                           -          114,099                  -                  -               536          560,603                   -                 -                  -             (115,280)               559,958
                                                           $               -   $      226,521   $          5,138   $              -   $         66,022   $    3,659,591   $          8,321   $             -   $              -   $                  -   $        3,965,593

         Goal 2: Prevent Crime, Enforce Federal Laws, and Represent the Rights and Interests of the American People
           Gross Cost - Intragovernmental                  $         291,499   $    1,840,475   $          4,129   $      119,310     $      817,575     $    1,035,139   $      339,493     $             -   $              -   $         (965,591) $           3,482,029
           Gross Cost - With the Public                              710,013        3,424,889                  -        1,800,666          1,855,073          2,784,534          813,825               6,987                  -                    -             11,395,987
                                                                   1 001 512        5 265 364              4 129        1 919 976          2 672 648          3 819 673        1 153 318               6 987                  -             (965 591)            14 878 016
           Earned Revenues - Intragovernmental                         6,723          556,405                  -         116,353            409,000            591,269              55,400                 -                  -             (965,591)               769,559
           Earned Revenues - With the Public                               -          308 702                  -               -            183 747            127 420                 156                 -                  -                    -                620 025
                                                                       6,723          865,107                  -         116,353            592,747            718,689              55,556                 -                  -             (965,591)             1,389,584
                                                           $         994,789   $    4,400,257   $          4,129   $    1,803,623     $    2,079,901     $    3,100,984   $    1,097,762     $         6,987   $              -   $                  -   $       13,488,432

         Goal 3: Ensure the Fair and Efficient Administration of Justice
           Gross Cost - Intragovernmental                  $               -   $    1,478,170   $        467,739   $      105,707     $              -   $            -   $              -   $    1,398,657    $      257,133     $        (1,738,020) $          1,969,386
           Gross Cost - With the Public                                    -          678,466          2,324,956          918,605                    -                -                  -        5,174,958           804,453                       -             9,901,438
                                                                           -        2 156 636          2 792 695        1 024 312                    -                -                  -        6 573 615         1 061 586              (1 738 020)           11 870 824
            Earned Revenues - Intragovernmental                            -          166,974          1,468,876             58,795                  -                -                  -          17,598           918,901               (1,709,671)              921,473
            Earned Revenues - With the Public                              -           31 940              2 589                  -                  -                -                  -         340 003            69 048                        -               443 580
                                                                           -          198,914          1,471,465             58,795                  -                -                  -         357,601           987,949               (1,709,671)            1,365,053
                                                           $               -   $    1,957,722   $      1,321,230   $     965,517      $              -   $            -   $              -   $    6,216,014    $         73,637   $          (28,349) $          10,505,771



         Total Net Cost (Revenue) of Operations            $         994,789   $    6,584,500   $      1,330,497   $    2,769,140     $    2,145,923     $    6,760,575   $    1,106,083     $    6,223,001    $         73,637   $          (28,349) $          27,959,796




- 97 -
                                                                                                   U. S. Department of Justice

                                                                                        Consolidating Statement of Changes in Net Position

                                                                                          For the Fiscal Year Ended September 30, 2010


         Dollars in Thousands                         AFF/SADF           OBDs               USMS               OJP               DEA               FBI                ATF                 BOP               FPI           Eliminations           Consolidated

         Unexpended Appropriations
           Beginning Balances
              Earmarked Funds                     $              -   $       22,207     $            -     $            -    $           -     $            -     $           -       $            -    $         -   $                  -   $           22,207
              All Other Funds                                    -        3,782,236            222,502          5,951,999          540,670          2,114,589           183,607            1,106,922              -                      -           13,902,525

           Budgetary Financing Sources
              Appropriations Received
                 Earmarked Funds                                 -           90,312                   -                 -                 -                 -                  -                   -              -                      -               90,312
                 All Other Funds                                 -        7,220,403           1,190,039         2,501,851         2,053,353         7,922,537          1,158,272           6,205,386              -                      -           28,251,841
              Appropriations Transferred-In/Out
                 All Other Funds                                 -         (209,609)           393,936           200,453            39,756               90,116             (3,318)             (818)             -                      -              510,516
              Other Adjustments
                 Earmarked Funds                                 -           (9,001)                  -                 -                 -                 -                    -                 -              -                      -               (9,001)
                 All Other Funds                                 -          (40,750)                  -           (54,000)                -           (50,000)                   -                 -              -                      -             (144,750)
              Appropriations Used
                 Earmarked Funds                                 -           (83,933)                 -                 -                 -                 -                  -                   -              -                      -               (83,933)
                 All Other Funds                                 -        (6,773,064)        (1,477,577)       (3,028,326)       (2,074,612)       (7,822,036)        (1,136,378)         (6,416,867)             -                      -           (28,728,860)
           Total Financing Sources
              Earmarked Funds                                    -           (2,622)                 -                 -                 -                 -                     -                -               -                      -               (2,622)
              All Other Funds                                    -          196,980            106,398          (380,022)           18,497           140,617                18,576         (212,299)              -                      -             (111,253)

           Net Change
              Earmarked Funds                                    -           (2,622)                 -                 -                 -                 -                     -                -               -                      -               (2,622)
              All Other Funds                                    -          196 980            106 398          (380 022)           18 497           140 617                18 576         (212 299)              -                      -             (111 253)

           Ending Balances
              Earmarked Funds                                    -           19,585                  -                  -                -                  -                 -                   -               -                      -               19,585
              All Other Funds                                    -        3,979,216            328,900          5,571,977          559,167          2,255,206           202,183             894,623               -                      -           13,791,272
           Total All Funds                        $              -   $    3,998,801     $      328,900     $   5,571,977     $    559,167      $   2,255,206      $    202,183        $    894,623      $         -   $                  -   $      13,810,857




- 98 -
                                                                                                                         U. S. Department of Justice

                                                                                                       Consolidating Statement of Changes in Net Position - Continued

                                                                                                               For the Fiscal Year Ended September 30, 2010

         Dollars in Thousands                                              AFF/SADF             OBDs               USMS               OJP                DEA            FBI                 ATF                 BOP                FPI                 Eliminations           Consolidated

         Cumulative Results of Operations
           Beginning Balances
             Earmarked Funds                                           $      1,425,883     $      119,668     $            -     $    4,112,981     $    (100,558) $            -      $              -    $       73,049     $           -       $                  -   $        5,631,023
             All Other Funds                                                          -             29,192            132,920             15,014            85,653       1,933,652                33,169         5,197,800           448,162                          -            7,875,562
           Adjustments:
             Changes in Accounting Principles (Note 27)
                 All Other Funds                                                       -                  -                   -                  -                 -          (9,755)                  -           (36,833)                   -                       -               (46,588)

           Beginning Balances, as Adjusted
              Earmarked Funds                                                 1,425,883            119,668                    -        4,112,981          (100,558)                -                   -              73,049                  -                       -            5,631,023
              All Other Funds                                                          -            29,192            132,920               15,014          85,653       1,923,897                33,169         5,160,967           448,162                          -            7,828,974

           Budgetary Financing Sources
              Appropriations Used
                 Earmarked Funds                                                       -            83,933                  -                  -                  -              -                   -                   -                    -                       -               83,933
                 All Other Funds                                                       -         6,773,064          1,477,577          3,028,326          2,074,612      7,822,036           1,136,378           6,416,867                    -                       -           28,728,860
              Nonexchange Revenues
                 Earmarked Funds                                                  3,864                 319                   -        2,362,338                   -               -                   -                   -                  -                       -            2,366,521
                 All Other Funds                                                      -                   -                   -              932                   -               -                   -                   -                  -                       -                  932
              Donations and Forfeitures of Cash and Cash Equivalents
                 Earmarked Funds                                              1,502,466                   -                   -                  -                 -               -                   -                   -                  -                       -            1,502,466
              Transfers-In/Out Without Reimbursement
                 All Other Funds                                                       -            75,097                    -                                    -               -                   -                   -                  -                       -               75,097

           Other Financing Sources
              Donations and Forfeitures of Property
                 Earmarked Funds                                                 70,864                   -                   -                  -                 -               -                   -                  -                   -                       -               70,864
                 All Other Funds                                                      -                   -                   -                  -                 -               -                   -                340                   -                       -                  340
              Transfers-In/Out Without Reimbursement
                 Earmarked Funds                                                (31,259)                 -                   -                   -                86               -                   -                   -                  -                       -               (31,173)
                 All Other Funds                                                      -            (81,783)                186              24,608             9,432          69,206               2,407               5,394               (166)                      -                29,284
              Imputed Financing from Costs Absorbed by Others
                 Earmarked Funds                                                       -             1,301                  -                    -           6,969              -                      -            3,891                     -                     -                 12,161
                 All Other Funds                                                       -           161 894             38 441                4 712          68 740        354 864                 39 264          212 814                37 435               (27 448)               890 716




- 99 -
           Total Financing Sources
              Earmarked Funds                                                 1,545,935             85,553                  -          2,362,338              7,055              -                   -               3,891                    -                     -              4,004,772
              All Other Funds                                                         -          6,928,272          1,516,204          3,058,578          2,152,784      8,246,106           1,178,049           6,635,415               37,269               (27,448)            29,725,229

           Net Cost of Operations
              Earmarked Funds                                                 (1,284,418)           (33,746)                 -          (608,723)           (65,776)             -                   -              (7,087)                -                        -              (1,999,750)
              All Other Funds                                                          -         (7 100 303)        (1 512 102)       (3 061 375)        (2 157 439)    (7 756 891)         (1 181 960)         (6 649 333)          (93 597)                  27 448             (29 485 552)

           Net Change
              Earmarked Funds                                                   261,517             51,807                    -        1,753,615            (58,721)            -                      -            (3,196)                -                          -            2,005,022
              All Other Funds                                                         -           (172 031)               4 102           (2 797)            (4 655)      489 215                 (3 911)          (13 918)          (56 328)                         -              239 677

           Ending Balances
              Earmarked Funds                                                 1,687,400            171,475                  -          5,866,596          (159,279)              -                     -            69,853                 -                          -            7,636,045
              All Other Funds                                                         -           (142,839)           137,022             12,217            80,998       2,413,112                29,258         5,147,049           391,834                          -            8,068,651
           Total All Funds                                             $      1,687,400     $       28,636     $     137,022      $   5,878,813      $     (78,281) $   2,413,112       $      29,258       $   5,216,902      $     391,834       $                  -   $      15,704,696
                                                                                                         U. S. Department of Justice

                                                                                             Consolidating Statement of Changes in Net Position

                                                                                               For the Fiscal Year Ended September 30, 2009


          Dollars in Thousands                         AFF/SADF           OBDs                USMS                OJP               DEA                FBI                 ATF                BOP                 FPI           Eliminations           Consolidated

          Unexpended Appropriations
            Beginning Balances
               Earmarked Funds                     $              -   $       44,902     $              -     $            -    $           -      $            -      $           -      $           -       $         -   $                  -   $           44,902
               All Other Funds                                    -        2,669,214              191,625          2,881,349          475,267           1,884,207            167,668            899,745                 -                      -            9,169,075

            Budgetary Financing Sources
               Appropriations Received
                  Earmarked Funds                                 -          125,076                    -                  -                 -                  -                   -                  -                -                      -              125,076
                  All Other Funds                                 -        7,787,138              964,000          5,036,600         1,959,084          7,336,191           1,068,215          6,176,599                -                      -           30,327,827
               Appropriations Transferred-In/Out
                  All Other Funds                                 -         (261,192)             354,616           283,817           158,467                (8,978)             16,647             (8,035)             -                      -              535,342
               Other Adjustments
                  All Other Funds                                 -         (109,426)                    -          (121,642)                  -                  -                   -                  -              -                      -             (231,068)
               Appropriations Used
                  Earmarked Funds                                 -          (147,771)                   -                 -                 -                  -                   -                  -                -                      -              (147,771)
                  All Other Funds                                 -        (6 303 498)          (1 287 739)       (2 128 125)       (2 052 148)        (7 096 831)         (1 068 923)        (5 961 387)               -                      -           (25 898 651)
            Total Financing Sources
               Earmarked Funds                                    -          (22,695)                   -                  -                   -               -                      -               -                 -                      -              (22,695)
               All Other Funds                                    -        1,113,022               30,877          3,070,650              65,403         230,382                 15,939         207,177                 -                      -            4,733,450

            Net Change
               Earmarked Funds                                    -          (22,695)                   -                  -                   -               -                      -               -                 -                      -              (22,695)
               All Other Funds                                    -        1,113,022               30,877          3,070,650              65,403         230,382                 15,939         207,177                 -                      -            4,733,450

            Ending Balances
               Earmarked Funds                                    -           22,207                    -                  -                -                   -                  -                   -                -                      -               22,207
               All Other Funds                                    -        3,782,236              222,502          5,951,999          540,670           2,114,589            183,607           1,106,922                -                      -           13,902,525
            Total All Funds                        $              -   $    3,804,443     $       222,502      $   5,951,999     $    540,670       $   2,114,589       $    183,607       $   1,106,922       $         -   $                  -   $      13,924,732




- 100 -
                                                                                                                           U. S. Department of Justice

                                                                                                         Consolidating Statement of Changes in Net Position - Continued

                                                                                                                 For the Fiscal Year Ended September 30, 2009


          Dollars in Thousands                                              AFF/SADF            OBDs               USMS               OJP                DEA             FBI                ATF                 BOP                FPI                Eliminations           Consolidated


          Cumulative Results of Operations
            Beginning B alances
               Earmarked Funds                                          $      1,007,809    $       79,733     $             -    $    2,955,373     $      (69,174) $              -   $              -    $         78,480   $              -   $                  -   $        4,052,221
               All Other Funds                                                         -           139,314            143,048               13,519             69,323     1,328,549               35,030         5,249,477           484,031                         -            7,462,291
            Adjustments
               Changes in Accounting Principles (Note 27)
                  Earmarked Funds                                                      -                  -                  -                   -                  -               -                  -                   -                  -                      -                      ­
                  All Other Funds                                                      -                  -                  -                   -                  -               -                  -                   -                  -                      -                      ­
               Corrections of Errors
                  Earmarked Funds                                                      -                  -                  -                   -                  -               -                  -                   -                  -                      -                      ­
                  All Other Funds                                                      -                  -                  -                   -                  -               -                  -                   -                  -                      -                      ­


            Beginning Balances, as Adjusted
               Earmarked Funds                                                 1,007,809            79,733                   -         2,955,373            (69,174)                -                  -              78,480                  -                      -            4,052,221
               All Other Funds                                                         -           139,314            143,048               13,519             69,323     1,328,549               35,030         5,249,477           484,031                         -            7,462,291


            Budgetary Financing Sources
               Appropriations Used
                  Earmarked Funds                                                      -           147,771                  -                  -                  -               -                  -                   -                    -                      -              147,771
                  All Other Funds                                                      -         6,303,498          1,287,739          2,128,125          2,052,148       7,096,831          1,068,923           5,961,387                    -                      -           25,898,651
               Nonexchange Revenues
                  Earmarked Funds                                                 10,684               233                   -         1,745,678                    -               -                  -                   -                  -                      -            1,756,595
                  All Other Funds                                                      -                 -                   -             1,171                    -               -                  -                   -                  -                      -                1,171
               Donations and Forfeitures of Cash and Cash Equivalents
                  Earmarked Funds                                              1,376,423                  -                  -                   -                  -               -                  -                   -                  -                      -            1,376,423
               Transfers-In/Out Without Reimbursement




- 101 -
                  All Other Funds                                                      -            89,948                   -                   -                  -               -                  -                   -                  -                      -               89,948
               Other Budgetary Financing Sources
                  All Other Funds                                                      -          (100,000)                  -                   -                  -               -                  -                   -                  -                      -             (100,000)

            Other Financing Sources
               Donations and Forfeitures of Property
                  Earmarked Funds                                                 68,145                  -                  -                   -                  -               -                  -                  -                   -                      -               68,145
                  All Other Funds                                                      -                  -                  -                   -                  -               -                  -                 68                   -                      -                   68
               Transfers-In/Out Without Reimbursement
                  Earmarked Funds                                                (42,389)                -                  -                    -                180               -                  -                   7                 -                       -               (42,202)
                  All Other Funds                                                      -           (88,381)               335               49,215             12,143          61,342              2,173              14,766                 6                       -                51,599
               Imputed Financing from Costs Absorbed by Others
                  Earmarked Funds                                                      -             1,244                  -                    -              5,953            -                     -            3,376                     -                    -                 10,573
                  All Other Funds                                                      -           160 000             32 295                4 054             60 445      207 505                33 126          186 289                37 762              (28 349)               693 127
            Total Financing Sources
               Earmarked Funds                                                 1,412,863           149,248                  -          1,745,678              6,133               -                  -               3,383                    -                    -              3,317,305
               All Other Funds                                                         -         6,365,065          1,320,369          2,182,565          2,124,736       7,365,678          1,104,222           6,162,510               37,768              (28,349)            26,634,564

            Net Cost of Operations
               Earmarked Funds                                                  (994,789)          (109,313)                 -          (588,070)           (37,517)              -                  -              (8,814)                 -                      -              (1,738,503)
               All Other Funds                                                         -         (6,475,187)        (1,330,497)       (2,181,070)        (2,108,406)     (6,760,575)        (1,106,083)         (6,214,187)           (73,637)                28,349             (26,221,293)

            Net Change
               Earmarked Funds                                                   418,074            39,935                  -          1,157,608            (31,384)             -                     -            (5,431)                 -                        -            1,578,802
               All Other Funds                                                         -          (110 122)           (10 128)             1 495             16 330        605 103                (1 861)          (51 677)           (35 869)                       -              413 271

            Ending Balances
               Earmarked Funds                                                 1,425,883           119,668                  -          4,112,981          (100,558)               -                    -            73,049                 -                         -            5,631,023
               All Other Funds                                                         -            29,192            132,920             15,014            85,653        1,933,652               33,169         5,197,800           448,162                         -            7,875,562
            Total All Funds                                             $      1,425,883    $     148,860      $     132,920      $   4,127,995      $     (14,905) $    1,933,652      $      33,169       $   5,270,849      $     448,162      $                  -   $      13,506,585
                                                                                                            U. S. Department of Justice

                                                                                                   Combining Statement of Budgetary Resources

                                                                                                   For the Fiscal Year Ended September 30, 2010


          Dollars in Thousands                                          AFF/SADF            OBDs               USMS               OJP                DEA                FBI                ATF                 BOP                 FPI                Combined


          Budgetary Resources

            Unobligated Balance, Net, Brought Forward, October 1           1,195,445           653,984             75,661           224,290             323,879          1,060,034               82,195           372,051                59,313   $       4,046,852

            Recoveries of Prior Year Unpaid Obligations                       67,328           225,639             66,898               66,225          129,127            166,563               38,221               6,845                   -             766,846


            Budget Authority
               Appropriations Received                                     1,554,993          7,589,965          1,190,039         4,864,189          2,284,189          7,922,537           1,158,272          6,205,386                     -          32,769,570
               Spending Authority from Offsetting Collections
                  Earned
                      Collected                                               10,073          2,135,632          1,592,758          129,382             537,802          1,338,006               81,707           374,407            872,217              7,071,984
                      Change in Receivables from Federal Sources                 223            (44,709)           (39,937)          (3,489)            (33,532)             1,699                9,679            (2,005)           (21,579)              (133,650)
                  Change in Unfilled Customer Orders
                      Advance Received                                             -              7,520              4,475           (83,090)                25             17,463                   -               (203)             6,904                (46,906)
                      Without Advance from Federal Sources                         -             92,950            (18,314)            4,745             (5,407)          (106,807)              1,509                  -                  -                (31,324)
            Subtotal Budget Authority                                      1,565,289          9,781,358          2,729,021         4,911,737          2,783,077          9,172,898           1,251,167          6,577,585            857,542             39,629,674

            Nonexpenditure Transfers, Net, Anticipated and Actual                  -          (134,512)           393,936           200,453                39,756             90,116             (3,318)               (818)                  -             585,613

            Temporarily not Available Pursuant to Public Law                (387,200)                 -                  -        (1,654,425)                   -                  -                  -                   -                   -           (2,041,625)

            Permanently not Available                                              -            (50 303)                 -           (54 000)                   -          (50 000)                   -                   -                   -            (154 303)

          Total Budgetary Resources                                 $      2,440,862    $   10,476,166     $    3,265,516     $   3,694,280      $    3,275,839     $   10,439,611     $    1,368,265      $    6,955,663      $    916,855       $      42,833,057

          Status of Budgetary Resources

            Obligations Incurred
              Direct                                                $      1,423,309    $     7,327,826    $     1,569,307    $    3,434,149     $    2,532,674     $    8,278,414     $     1,155,484     $    6,536,140      $           -      $      32,257,303
              Reimbursable                                                     7,374          2,218,387          1,562,834            27,631            519,774          1,214,320             102,650             41,617            841,869              6,536,456




- 102 -
                      Total Obligations Incurred                           1,430,683          9,546,213          3,132,141         3,461,780          3,052,448          9,492,734           1,258,134          6,577,757            841,869             38,793,759

            Unobligated Balance - Available
              Apportioned                                                    669,036           667,416             97,391           208,972             195,008            547,896               53,461           300,013                     -           2,739,193
              Exempt from Apportionment                                            -                 -                  -                 -                   -                  -                    -            45,030                74,986             120,016
                     Total Unobligated Balance - Available                   669,036           667,416             97,391           208,972             195,008            547,896               53,461           345,043                74,986           2,859,209

            Unobligated Balance not Available                                341,143           262,537             35,984               23,528             28,383          398,981               56,670              32,863                   -           1,180,089

          Total Status of Budgetary Resources                       $      2,440,862    $   10,476,166     $    3,265,516     $   3,694,280      $    3,275,839     $   10,439,611     $    1,368,265      $    6,955,663      $    916,855       $      42,833,057
                                                                                                                           U. S. Department of Justice

                                                                                                             Combining Statement of Budgetary Resources - Continued

                                                                                                                 For the Fiscal Year Ended September 30, 2010


          Dollars in Thousands                                                           AFF/SADF             OBDs               USMS              OJP                 DEA                FBI              ATF                  BOP               FPI                Combined


          Change in Obligated Balance

            Obligated Balance, Net - Brought Forward, October 1
              Unpaid Obligations                                                              919,387           4,771,602           634,587         5,959,947             687,246          2,810,122             238,351         1,352,082          273,044      $      17,646,368
              Less Uncollected Customer Payments from Federal Sources                           4,022             746,533           223,465            24,410             220,915            584,369              59,209             8,350           46,798              1,918,071
                  Total Unpaid Obligated Balance, Net - Brought Forward, October 1            915,365           4,025,069           411,122         5,935,537             466,331          2,225,753             179,142         1,343,732          226,246             15,728,297

            Obligations Incurred                                                            1,430,683           9,546,213          3,132,141        3,461,780           3,052,448          9,492,734         1,258,134           6,577,757          841,869             38,793,759

            Less Gross Outlays                                                              1,300,063           9,217,715          2,991,279        3,844,655           2,833,524          8,914,482         1,232,222           6,737,782          842,231             37,913,953


            Less Recoveries of Prior Year Unpaid Obligations, Actual                           67,328            225,639             66,898              66,225           129,127           166,563               38,221              6,845                  -             766,846

            Change in Uncollected Customer Payments from
              Federal Sources                                                                    (223)            (48,241)           58,251              (1,256)             38,939         105,108              (11,188)             2,005             21,579             164,974

            Obligated Balance, Net - End of Period
              Unpaid Obligations                                                              982,679           4,874,461           708,551         5,510,847             777,043          3,221,811             226,043         1,185,212          272,682             17,759,329
              Less Uncollected Customer Payments from Federal Sources                           4,245             794,774           165,214            25,666             181,976            479,261              70,398             6,345           25,219              1,753,098
                      Total Unpaid Obligated Balance, Net - End of Period            $        978 434    $      4 079 687    $      543 337    $    5 485 181      $      595 067     $    2 742 550   $         155 645    $    1 178 867    $     247 463      $      16 006 231

          Outlays
            Gross Outlays                                                            $      1,300,063    $      9,217,715    $     2,991,279   $    3,844,655      $    2,833,524     $    8,914,482   $     1,232,222      $    6,737,782    $     842,231      $      37,913,953
            Less Offsetting Collections                                                        10,073           2,143,152          1,597,233           46,292             537,827          1,355,469            81,707             374,204          879,120              7,025,077
            Less Distributed Offsetting Receipts                                                3,864             691,754                  -              242             231,967                253               622              12,666                -                941,368

          Total Net Outlays                                                          $      1,286,126    $     6,382,809     $    1,394,046    $   3,798,121       $    2,063,730     $   7,558,760    $    1,149,893       $    6,350,912    $     (36,889) $          29,947,508




- 103 -
                                                                                                      U. S. Department of Justice

                                                                                             Combining Statement of Budgetary Resources

                                                                                             For the Fiscal Year Ended September 30, 2009


          Dollars in Thousands                                          AFF/SADF            OBDs               USMS              OJP               DEA               FBI                 ATF              BOP              FPI                Combined


          Budgetary Resources

            Unobligated Balance, Net, Brought Forward, October 1    $        595,213    $      651,099     $       93,320    $     460,054     $     161,745     $    1,076,486      $      53,971    $     360,659    $         97,315   $       3,549,862

            Recoveries of Prior Year Unpaid Obligations                       79,515           252,846             61,319          106,867            86,345           270,506              80,237           18,899                   -             956,534

            Budget Authority
                Appropriations Received                                    1,669,860          8,203,630           964,000         6,782,278         2,193,596         7,336,191          1,068,215        6,176,599                   -          34,394,369
                Spending Authority from Offsetting Collections
                    Earned
                       Collected                                               7,215          1,845,846          1,482,381         240,818           385,364          1,442,098             61,800          372,994          995,244              6,833,760
                       Change in Receivables from Federal Sources              2,376            142,149             22,610             599            39,199            (86,453)            (5,500)          (4,015)          10,301                121,266
                    Change in Unfilled Customer Orders
                       Advance Received                                            -             13,671              1,078         (216,745)               (9)          (26,471)                 -              352          (17,597)              (245,721)
                       Without Advance from Federal Sources                     (681)            16,972              9,393          (12,506)           42,199          (121,340)            33,421                -                -                (32,542)
            Subtotal Budget Authority                                      1,678,770         10,222,268          2,479,462        6,794,444         2,660,349         8,544,025          1,157,936        6,545,930          987,948             41,071,132

            Nonexpenditure Transfers, Net, Anticipated and Actual                  -           (171,244)          354,616          283,817           158,467               (8,978)          16,647           (8,035)                  -             625,290

            Temporarily not Available Pursuant to Public Law                       -                  -                  -       (1,295,083)                -                   -                -                -                   -           (1,295,083)

            Permanently not Available                                              -           (209 438)                 -         (121 642)                -                   -                -                -                   -            (331 080)

          Total Budgetary Resources                                 $      2,353,498    $   10,745,531     $    2,988,717    $   6,228,457     $   3,066,906     $   9,882,039       $   1,308,791    $   6,917,453    $   1,085,263      $      44,576,655

          Status of Budgetary Resources

            Obligations Incurred
                Direct                                              $      1,151,330    $     7,999,433    $     1,375,617   $    5,945,243    $    2,304,512    $    7,672,318      $   1,132,564    $   6,496,740    $            -     $      34,077,757
                Reimbursable                                                   6,723          2,092,114          1,537,439           58,924           438,515         1,149,687             94,032           48,662         1,025,950             6,452,046
                       Total Obligations Incurred                          1,158,053         10,091,547          2,913,056        6,004,167         2,743,027         8,822,005          1,226,596        6,545,402         1,025,950            40,529,803




- 104 -
            Unobligated Balance - Available
               Apportioned                                                   539,014           450,832             51,934          225,179           313,155           737,212              44,648          284,574                   -           2,646,548
               Exempt from Apportionment                                           -                 -                  -                -                 -                 -                   -           42 112              59 313             101 425
                      Total Unobligated Balance - Available                  539,014           450,832             51,934          225,179           313,155           737,212              44,648          326,686              59,313           2,747,973

            Unobligated Balance not Available                                656,431           203,152             23,727              (889)          10,724           322,822              37,547           45,365                   -           1,298,879

          Total Status of Budgetary Resources                       $      2,353,498    $   10,745,531     $    2,988,717    $   6,228,457     $   3,066,906     $   9,882,039       $   1,308,791    $   6,917,453    $   1,085,263      $      44,576,655
                                                                                                                         U. S. Department of Justice

                                                                                                           Combining Statement of Budgetary Resources - Continued

                                                                                                               For the Fiscal Year Ended September 30, 2009


          Dollars in Thousands                                                             AFF/SADF            OBDs               USMS               OJP                DEA               FBI              ATF              BOP               FPI                Combined


          Change in Obligated Balance

            Obligated Balance, Net - Brought Forward, October 1
                Unpaid Obligations                                                     $        909,109    $     3,271,864    $      546,861     $    3,927,350     $     702,505     $    2,262,951   $    215,902     $   1,120,502     $     311,873      $      13,268,917
                Less Uncollected Customer Payments from Federal Sources                           2,327            587,412           191,462             36,317           139,516            792,162         31,288            12,365            36,497              1,829,346
                    Total Unpaid Obligated Balance, Net - Brought Forward, October 1            906,782          2,684,452           355,399          3,891,033           562,989          1,470,789        184,614         1,108,137           275,376             11,439,571

            Obligations Incurred                                                              1,158,053         10,091,547          2,913,056         6,004,167          2,743,027         8,822,005       1,226,596        6,545,402          1,025,950            40,529,803

            Less Gross Outlays                                                                1,068,260          8,338,963          2,764,011         3,864,703          2,671,941         8,004,328       1,123,910        6,294,923          1,064,779            35,195,818


            Less Recoveries of Prior Year Unpaid Obligations, Actual                             79,515           252,846             61,319           106,867             86,345           270,506          80,237           18,899                     -            956,534

            Change in Uncollected Customer Payments from
                Federal Sources                                                                  (1,695)          (159,121)           (32,003)             11,907          (81,399)         207,793          (27,921)             4,015          (10,301)              (88,725)

            Obligated Balance, Net - End of Period
                Unpaid Obligations                                                              919,387          4,771,602           634,587           5,959,947          687,246          2,810,122        238,351         1,352,082           273,044             17,646,368
                Less Uncollected Customer Payments from Federal Sources                           4 022            746 533           223 465             24 410           220 915            584 369         59 209             8 350            46 798              1 918 071
                       Total Unpaid Obligated Balance, Net - End of Period             $        915 365    $     4 025 069    $      411 122     $    5 935 537 $         466 331     $    2 225 753   $    179 142     $   1 343 732     $     226 246      $      15 728 297


          Outlays
            Gross Outlays                                                              $      1,068,260    $     8,338,963    $     2,764,011 $       3,864,703     $    2,671,941    $    8,004,328   $   1,123,910    $   6,294,923     $    1,064,779     $      35,195,818
            Less Offsetting Collections                                                           7,215          1,859,517          1,483,459            24,071            385,354         1,415,627          61,800          373,346            977,646             6,588,035
            Less Distributed Offsetting Receipts                                                 10 684            287 073               (520)            1 362            235 998             1 668             247            2 813                  -               539 325

          Total Net Outlays                                                            $      1,050,361    $     6,192,373    $     1,281,072    $    3,839,270     $    2,050,589    $    6,587,033   $   1,061,863    $   5,918,764     $         87,133   $      28,068,458




- 105 -
                                                                                                                   U. S. Department of Justice

                                                                                                           Combining Statement of Custodial Activity

                                                                                                          For the Fiscal Year Ended September 30, 2010


          Dollars in Thousands                                               AFF/SADF           OBDs               USMS           OJP           DEA                FBI           ATF                BOP           FPI           Combined


          Revenue Activity

          Sources of Cash Collections
             Delinquent Federal Civil Debts as Required by the Federal
                Debt Recovery Act of 1986                                $              -   $    4,789,655     $          -   $         -   $              -   $         -   $              -   $         -   $         -   $      4,789,655
             Fees and Licenses                                                          -                -                -             -             15,000             -             13,985             -             -             28,985
             Fines, Penalties and Restitution Payments - Civil                          -                -                -             -              5,963             -                 22             -             -              5,985
             Fines, Penalties and Restitution Payments - Criminal                       -           33,004                -             -                  -             -                 44             -             -             33,048
             Miscellaneous                                                              -               81                -             -                  -             -                623             -             -                704

                Total Cash Collections                                   $              -   $    4,822,740     $          -   $         -   $         20,963   $         -   $         14,674   $         -   $         -   $      4,858,377

          Accrual Adjustments                                                           -                 -               -             -               211              -                60              -             -                271

          Total Custodial Revenue                                        $              -   $    4,822,740     $          -   $         -   $         21,174   $         -   $         14,734   $         -   $         -   $      4,858,648

          Disposition of Collections
             Transferred to Federal Agencies
                 U.S. Department of Agriculture                                         -           (84,620)              -             -               -                -               -                -             -             (84,620)
                 U.S. Department of Commerce                                            -            (1,725)              -             -               -                -               -                -             -              (1,725)
                 U.S. Department of the Interior                                        -          (283,244)              -             -               -                -               -                -             -            (283,244)
                 U.S. Department of Justice                                             -          (510,634)              -             -               -                -               -                -             -            (510,634)
                 U.S. Department of Labor                                               -            (3,537)              -             -               -                -               -                -             -              (3,537)
                 U.S. Postal Service                                                    -            (6,762)              -             -               -                -               -                -             -              (6,762)
                 U.S. Department of State                                               -              (199)              -             -               -                -               -                -             -                (199)
                 U.S. Department of the Treasury                                        -          (571,742)              -             -         (20,891)               -         (14,345)               -             -            (606,978)
                 Office of Personnel Management                                         -           (46,636)              -             -               -                -               -                -             -             (46,636)
                 Federal Communications Commission                                      -            (2,693)              -             -               -                -               -                -             -              (2,693)
                 Social Security Administration                                         -            (3,558)              -             -               -                -               -                -             -              (3,558)
                 Smithsonian Institution                                                -              (209)              -             -               -                -               -                -             -                (209)
                 U.S. Department of Veterans Affairs                                    -           (35,068)              -             -               -                -               -                -             -             (35,068)




- 106 -
                 General Services Administration                                        -            (4,008)              -             -               -                -               -                -             -              (4,008)
                 Securities and Exchange Commission                                     -                (2)              -             -               -                -               -                -             -                  (2)
                 Federal Deposit Insurance Corporation                                  -               (42)              -             -               -                -               -                -             -                 (42)
                 Railroad Retirement Board                                              -              (143)              -             -               -                -               -                -             -                (143)
                 Environmental Protection Agency                                        -          (720,010)              -             -               -                -               -                -             -            (720,010)
                 U.S. Department of Transportation                                      -              (765)              -             -               -                -               -                -             -                (765)
                 U.S. Department of Homeland Security                                   -           (30,872)              -             -               -                -               -                -             -             (30,872)
                 Agency for International Development                                   -            (2,155)              -             -               -                -               -                -             -              (2,155)
                 Small Business Administration                                          -            (5,360)              -             -               -                -               -                -             -              (5,360)
                 U.S. Department of Health and Human Services                           -        (1,528,861)              -             -               -                -               -                -             -          (1,528,861)
                 National Aeronautics and Space Administration                          -            (2,859)              -             -               -                -               -                -             -              (2,859)
                 Export-Import Bank of the United States                                -            (4,704)              -             -               -                -               -                -             -              (4,704)
                 U.S. Department of Housing and Urban Development                       -           (25,985)              -             -               -                -               -                -             -             (25,985)
                 U.S. Department of Energy                                              -            (2,281)              -             -               -                -               -                -             -              (2,281)
                 U.S. Department of Education                                           -           (63,002)              -             -               -                -               -                -             -             (63,002)
                 Independent Agencies                                                   -           (54,493)              -             -               -                -               -                -             -             (54,493)
                 U.S. Department of Defense                                             -          (112,640)              -             -               -                -               -                -             -            (112,640)
             Transferred to the Public                                                  -          (391,304)              -             -               -                -               -                -             -            (391,304)
             (Increase)/Decrease in Amounts Yet to be Transferred                       -          (210,225)              -             -            (283)               -               -                -             -            (210,508)
             Refunds and Other Payments                                                 -           (10,627)              -             -               -                -            (389)               -             -             (11,016)
             Retained by the Reporting Entity                                           -          (101 775)              -             -               -                -               -                -             -            (101 775)

          Net Custodial Activity                                         $              -   $             -    $          -   $         -   $              -   $         -   $              -   $         -   $         -   $               ­
                                                                                                                   U. S. Department of Justice

                                                                                                           Combining Statement of Custodial Activity

                                                                                                          For the Fiscal Year Ended September 30, 2009


          Dollars in Thousands                                               AFF/SADF           OBDs               USMS           OJP           DEA                FBI           ATF                 BOP           FPI           Combined


          Revenue Activity

          Sources of Cash Collections
             Delinquent Federal Civil Debts as Required by the Federal
                Debt Recovery Act of 1986                                $              -   $    2,884,775     $          -   $         -   $              -   $         -   $              -    $         -   $         -   $      2,884,775
             Fees and Licenses                                                          -                -                -             -             15,000             -             14,224              -             -             29,224
             Fines, Penalties and Restitution Payments - Civil                          -                -                -             -             44,961             -                 18              -             -             44,979
             Fines, Penalties and Restitution Payments - Criminal                       -           22,959                -             -                  -             -                 38              -             -             22,997
             Miscellaneous                                                              -              108                -             -                  -             -                249              -             -                357

                Total Cash Collections                                   $              -   $    2,907,842     $          -   $         -   $         59,961   $         -   $         14,529    $         -   $         -   $      2,982,332

          Accrual Adjustments                                                           -                 -               -             -               211              -                (23)             -             -                188

          Total Custodial Revenue                                        $              -   $    2,907,842     $          -   $         -   $         60,172   $         -   $         14,506    $         -   $         -   $      2,982,520

          Disposition of Collections
             Transferred to Federal Agencies
                 U.S. Department of Agriculture                                         -           (92,073)              -             -               -                -               -                 -             -             (92,073)
                 U.S. Department of Commerce                                            -              (771)              -             -               -                -               -                 -             -                (771)
                 U.S. Department of the Interior                                        -           (25,059)              -             -               -                -               -                 -             -             (25,059)
                 U.S. Department of Justice                                             -          (123,787)              -             -               -                -               -                 -             -            (123,787)
                 U.S. Department of Labor                                               -              (528)              -             -               -                -               -                 -             -                (528)
                 U.S. Postal Service                                                    -            (4,435)              -             -               -                -               -                 -             -              (4,435)
                 U.S. Department of the Treasury                                        -          (294,619)              -             -         (59,961)               -         (14,210)                -             -            (368,790)
                 Office of Personnel Management                                         -           (19,833)              -             -               -                -               -                 -             -             (19,833)
                 National Credit Union Administration                                   -              (470)              -             -               -                -               -                 -             -                (470)
                 Federal Communications Commission                                      -            (9,773)              -             -               -                -               -                 -             -              (9,773)
                 Social Security Administration                                         -              (982)              -             -               -                -               -                 -             -                (982)
                 Smithsonian Institution                                                -                (8)              -             -               -                -               -                 -             -                  (8)
                 U.S. Department of Veterans Affairs                                    -           (28,710)              -             -               -                -               -                 -             -             (28,710)




- 107 -
                 General Services Administration                                        -          (116,631)              -             -               -                -               -                 -             -            (116,631)
                 Securities and Exchange Commission                                     -                (4)              -             -               -                -               -                 -             -                  (4)
                 Federal Deposit Insurance Corporation                                  -            (1,958)              -             -               -                -               -                 -             -              (1,958)
                 Railroad Retirement Board                                              -              (335)              -             -               -                -               -                 -             -                (335)
                 Tennessee Valley Authority                                             -            (4,207)              -             -               -                -               -                 -             -              (4,207)
                 Environmental Protection Agency                                        -          (223,334)              -             -               -                -               -                 -             -            (223,334)
                 U.S. Department of Transportation                                      -            (1,357)              -             -               -                -               -                 -             -              (1,357)
                 U.S. Department of Homeland Security                                   -           (17,169)              -             -               -                -               -                 -             -             (17,169)
                 Small Business Administration                                          -            (5,332)              -             -               -                -               -                 -             -              (5,332)
                 U.S. Department of Health and Human Services                           -        (1,367,320)              -             -               -                -               -                 -             -          (1,367,320)
                 National Aeronautics and Space Administration                          -            (2,957)              -             -               -                -               -                 -             -              (2,957)
                 U.S. Department of Housing and Urban Development                       -           (18,347)              -             -               -                -               -                 -             -             (18,347)
                 U.S. Department of Energy                                              -            (4,065)              -             -               -                -               -                 -             -              (4,065)
                 U.S. Department of Education                                           -           (18,003)              -             -               -                -               -                 -             -             (18,003)
                 Independent Agencies                                                   -           (54,916)              -             -               -                -               -                 -             -             (54,916)
                 U.S. Department of Defense                                             -          (113,023)              -             -               -                -               -                 -             -            (113,023)
             Transferred to the Public                                                  -          (329,816)              -             -               -                -               -                 -             -            (329,816)
             (Increase)/Decrease in Amounts Yet to be Transferred                       -            55,779               -             -            (211)               -               -                 -             -              55,568
             Refunds and Other Payments                                                 -              (622)              -             -               -                -            (296)                -             -                (918)
             Retained by the Reporting Entity                                           -           (83,177)              -             -               -                -               -                 -             -             (83,177)

          Net Custodial Activity                                         $              -   $             -    $          -   $         -   $              -   $         -   $              -    $         -   $         -   $               ­
This page intentionally left blank.




               - 108 -
Required Supplementary Stewardship Information


                   Unaudited





                 - 109 -
This page intentionally left blank.




               - 110 -
                                U.S. Department of Justice

                     Required Supplementary Stewardship Information

                           Consolidated Stewardship Investments

         For the Fiscal Years Ended September 30, 2010, 2009, 2008, 2007 and 2006 



The Violent Offender Incarceration and Truth-In Sentencing (VOI/TIS) and the Correctional Grants
for Tribal Programs are administered by OJP’s Bureau of Justice Assistance (BJA). The VOI/TIS
and Correctional Grants for Tribal Land programs provide grants to all states as well as the District
of Columbia, Puerto Rico, Virgin Islands, American Samoa, Guam, the Northern Mariana Islands,
and Tribes for the purposes of building or expanding correctional facilities and jails to increase
secure confinement space for violent offenders. The facilities built or expanded with these funds
constitute non-federal physical property.

The Recovery Act Correctional Facilities on Tribal Lands Program and the Correctional Facilities on
Tribal Lands Program assist tribes in cost effectively constructing and renovating correctional
facilities associated with the incarceration and rehabilitation of juvenile and adult offenders subject
to tribal jurisdiction. In addition, this funding allows tribes to explore community-based alternatives
to help control and prevent jail overcrowding due to alcohol and other substance abuse. The Bureau
of Justice Assistance administers both programs in coordination with the Bureau of Indian Affairs
and the Office of Juvenile Justice and Delinquency Prevention.

VOI/TIS and Correctional Grants for Tribal Lands funds expended from FY 2006 through FY 2010
are as follows:

 Dollars in Thousands              2010           2009           2008           2007            2006
 Cooperative Agreement Program
                                          $0              $0         $1,140            $2,839       $2,521
 Administered by USMS
 Discretionary Grants to Indian
                                       24,768         14,320            5,094          11,334          4,007
 Tribes
 Formula Grants to States              11,389         41,561         59,011         188,171        222,650
 Total                               $ 36,157        $55,881        $65,245        $202,344       $229,178




                                           - 111 -
This page intentionally left blank.




               - 112 -
Appendix




- 113 -
This page intentionally left blank.




               - 114 -
                                                                             APPENDIX

                 OFFICE OF THE INSPECTOR GENERAL

                ANALYSIS AND SUMMARY OF ACTIONS

                  NECESSARY TO CLOSE THE REPORT


       The Office of the Inspector General (OIG) provided a draft of the Independent
Auditors’ Report on Internal Control over Financial Reporting to the Department of
Justice (Department). The Department’s response is incorporated in the Independent
Auditors’ Report on Internal Control over Financial Reporting of this final report. The
following provides the OIG analysis of the response and summary of actions necessary
to close the report.

Recommendation Number:

1.	   Resolved. The Department concurred with our recommendation. This
      recommendation can be closed when subsequent annual financial statement
      audit testing verifies that the Department monitored the corrective actions taken
      by the USMS to improve the condition of its funds management controls, in
      response to the specific recommendations made in the component auditors’
      Independent Auditors’ Report on Internal Control over Financial Reporting issued
      in connection with the audit of the USMS’s financial statements as of and for the
      year ended September 30, 2010.

2.	   Resolved. The Department concurred with our recommendation. This
      recommendation can be closed when subsequent annual financial statement
      audit testing verifies that the Department assessed the adequacy of the
      Department’s accounting, internal control, and financial reporting policies in the
      areas of: (1) seized and forfeited property and (2) undelivered orders and
      accounts payable. Based on the results of this assessment, the Department
      should determine the need to issue new guidance and/or reiterate to the AFF and
      ATF the existing policies for those areas in which the components’ auditors
      identified significant deficiencies related to the recording of transactions and the
      preparation of financial statements in accordance with U.S. generally accepted
      accounting principles. The Department should monitor the AFF’s and ATF’s
      adherence to the Department’s accounting and financial reporting policies and
      procedures throughout the year.

3.	   Resolved. The Department concurred with our recommendation. This
      recommendation can be closed when the Department has implemented a
      Department-wide integrated financial management system that is in compliance
      with the United States Government Standard General Ledger, conforms to the
      financial management system requirements established by OMB Circular A-127,
      Financial Management Systems, and can accommodate the requirements of
      applicable federal accounting standards.




                                      - 115 -
